<html>
<title> - HIGHWAY, MOTOR CARRIER, AND HAZARDOUS MATERIALS TRANSPORTATION SAFETY, AND TRANSPORTATION OF HOUSEHOLD GOODS</title>
<body><pre>[Senate Hearing 109-196]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-196
 
HIGHWAY, MOTOR CARRIER, AND HAZARDOUS MATERIALS TRANSPORTATION SAFETY, 
                 AND TRANSPORTATION OF HOUSEHOLD GOODS

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 5, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                    U.S. GOVERNMENT PRINTING OFFICE
23-943                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       5SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMint, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

       SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE

                   TRENT LOTT, Mississippi, Chairman
TED STEVENS, Alaska                  DANIEL K. INOUYE, Hawaii, Ranking
JOHN McCAIN, Arizona                 JOHN D. ROCKEFELLER IV, West 
CONRAD BURNS, Montana                    Virginia
KAY BAILEY HUTCHISON, Texas          BYRON L. DORGAN, North Dakota
OLYMPIA J. SNOWE, Maine              BARBARA BOXER, California
GORDON H. SMITH, Oregon              MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               FRANK R. LAUTENBERG, New Jersey
JOHN E. SUNUNU, New Hampshire        E. BENJAMIN NELSON, Nebraska
DAVID VITTER, Louisiana              MARK PRYOR, Arkansas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 5, 2005....................................     1
Statement of Senator Inouye......................................     2
    Prepared statement...........................................     2
Statement of Senator Lautenberg..................................    40
    Prepared statement...........................................    40
Statement of Senator Lott........................................     1
Statement of Senator Pryor.......................................    37
Statement of Senator Stevens.....................................     3
    Prepared statement...........................................     3

                               Witnesses

Gerard, Stacey L., Acting Assistant Administrator/Chief Safety 
  Officer, 
  Pipeline and Hazardous Materials Safety Administration (PHMSA).    24
    Prepared statement...........................................    25
Mead, Hon. Kenneth M., Inspector General, Department of 
  Transportation.................................................     4
    Prepared statement...........................................     7
Runge, Hon. Jeffrey W., M.D., Administrator, National Highway 
  Traffic 
  Safety Administration..........................................    11
    Prepared statement...........................................    13
Sandberg, Hon. Annette, Administrator, Federal Motor Carrier 
  Safety 
  Administration.................................................    18
    Prepared statement...........................................    20

                                Appendix

Burns, Hon. Conrad, U.S. Senator from Montana, prepared statement    47
Eisenhart, Earl, Executive Director, Corporate Transportation 
  Coalition, 
  letter, dated April 4, 2005 to Senators Stevens, Inouye, and 
  Lott...........................................................    62
Hilton, Cynthia, Executive Vice President, Institute of Makers of 
  Explosives, prepared statement with attachments................    48
Letter to Hon. Ted Stevens, dated April 5, 2005 from various 
  leaders of public health, safety, child advocacy groups, and 
  medical organizations..........................................    64
Response to written questions submitted by Hon. Daniel K. Inouye 
  to 
  Stacey L. Gerard...............................................    66
Response to written questions submitted by Hon. Frank Lautenberg 
  to 
  Hon. Annette Sandberg..........................................    65
Response to written questions submitted to Hon. Jeffrey W. Runge 
  by:
    Hon. Frank R. Lautenberg.....................................    69
    Hon. Ted Stevens.............................................    67


                      HIGHWAY, MOTOR CARRIER, AND 
   HAZARDOUS MATERIALS TRANSPORTATION SAFETY, AND TRANSPORTATION OF 
                            HOUSEHOLD GOODS

                              ----------                              


                         TUESDAY, APRIL 5, 2005

                               U.S. Senate,
Subcommittee on Surface Transportation and Merchant 
                                            Marine,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Trent Lott, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. The Subcommittee will come to order.
    We will have some Senators that will be joining us 
momentarily, but I thought we could go ahead and have the 
opening statement and begin our testimony, because this is an 
important hearing. We need to get the witnesses' testimony, and 
we need to complete this section of the highway bill that we'll 
be moving later on this month, I hope.
    The hearing today will be to receive testimony on truck and 
bus safety, highway and vehicle safety, hazardous materials 
safety, and recommendations for their reauthorization, 
including the Administration's legislative proposals. Most of 
the programs were last reauthorized in TEA-21.
    The Subcommittee also will hear testimony about fraud in 
the transportation of household goods and the recommendations 
for better consumer protection. These programs should have been 
reauthorized almost 2 years ago, but, unfortunately, due to 
disputes about funding related to the highway construction and 
transit programs, these programs have simply been extended for 
short periods of time.
    I hope that the Committee can mark up and report 
legislation by the middle of April, and that Congress can 
finalize a conference report by the end of May, when the 
current extension expires. The indication has been, from the 
Chairman of the full Committee, that we will have a mark-up on 
this section of that transportation bill next week--I believe, 
the 14th.
    In the interest of moving the hearing along, I would call 
on the Ranking Member of the full Committee for his opening 
statement, and then other statements of the Senators, as they 
arrive, will be included in the record, at this point in the 
record.
    I look forward to hearing from today's witnesses and 
working with the Members of the Subcommittee during this 
Congress.
    Senator Inouye, thank you for being here this morning, and 
I'd like to call on you for any opening statement you would 
like to make.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. I thank you very much, Mr. Chairman. I have 
a prepared statement. I ask for your concurrence that it be 
made part of the record.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Good morning. I want to welcome our witnesses and thank Chairman 
Lott for focusing our attention on the reauthorization of the highway 
programs under this Committee's jurisdiction.
    We have a lot of work ahead of us and we need to work together as 
we craft our portion of the highway bill, and work to reduce accidents 
and improve safety.
    Last year, the Senate passed a bipartisan version of the highway 
bill, SAFETEA, but no bill was enacted because of disagreements over 
overall funding levels. We are using the Senate bill as our starting 
point and will improve upon it where possible.
    I wish to note that while traffic fatalities declined dramatically 
during the 1980s and early 1990s due to states enacting and enforcing 
tougher seat belt and drunk driving laws, we still had approximately 
42,000 people killed on our highways in 2003. Further, the trend line 
for reducing traffic fatalities has flattened during the past several 
years, which means new safety strategies must be employed. This year's 
highway bill presents an opportunity to adjust our safety programs for 
greater impact.
    As we prepare for the upcoming debate, it would be helpful to hear 
from the witnesses about a number of key issues, including:

  <bullet> What is the appropriate level of funding for the Motor 
        Carrier Safety Assistance Program (MCSAP), border safety 
        enforcement, and new entrant safety?

  <bullet> How can we improve the process for issuing Commercial 
        Drivers Licenses and create a better medical review program for 
        commercial drivers?

  <bullet> What are the appropriate hours of service for truck drivers?

  <bullet> What action should we take to encourage increased use of 
        seat belts, and reduce alcohol-related fatalities?

  <bullet> How can we reduce hazardous materials incidences and 
        accidents?

    I look forward to hearing from the witnesses about these important 
issues.

    Senator Inouye. I'd just like to point out, Mr. Chairman, 
that the subjects covered at this hearing will demonstrate the 
great range of activities and responsibilities held by this 
Committee. In fact, what we will hear today are major areas of 
jurisdiction for us. And let me reassure you of my full 
cooperation.
    Senator Lott. Thank you very much, Senator Inouye.
    Senator Stevens, I was already speaking in your behalf that 
this is the hearing on highway, motor carrier, and hazardous 
materials transportation safety, and transportation of 
household goods and any recommendations for this portion that 
would go into the highway bill that hopefully will come to the 
Senate later on this month, and that your intent, at this time, 
is to mark this portion of the bill up by the middle of this 
month. So I hope that is what you, in fact, plan. I'd like to 
call on you for any statement you'd like to make at this time.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Thank you very much, Senator Lott. That is 
our plan. And I'm delighted to work with my Co-Chairman to get 
this portion of this highway bill ready to merge with that of 
the Environment and Public Works Committee. But we're going to 
look to you, as Chairman of the Subcommittee, for the guidance 
as to how--you and your colleague on the other side--to how to 
merge our portion with the basic bill of the Senate and take it 
to the House conference. We look forward to doing that, as you 
said, before the end of next week.
    So, we thank all the witnesses for being here. And I'm 
sorry to be slightly late. We had to open the Senate this 
morning.
    Thank you.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska

    Mr. Chairman, I do apologize for coming in late and being called to 
a leadership meeting. But, I do hope we'll pursue some concepts of 
incentives to the states to increase their safety precautions and the 
requirements for safety. My state is one that doesn't have a primary 
state seatbelt law, safety belt law, which I regret. Those of us who 
are pilots just automatically get in anything and lock up, you know, it 
becomes second nature. I'm saddened to see that this is the case. I 
would urge us to consider giving advantages to those states that have 
records of compliance in terms of safety features--both safety belts 
and guide rails and let them have more discretion in how they use their 
funds, but at the same time have some basic mandates for use of funds 
where there is no apparent attempt to adopt some of the approaches that 
have in fact reduced injuries and deaths on the highway. I want to 
particularly be able talk to you and Members of the Committee about the 
increasing problem that Mr. Mead has mentioned in terms of motorcycles. 
They are wonderful vehicles for enjoyment and seeing the outdoors, but 
the increased accident rate bothers me considerably and I think we have 
to find some way to stimulate greater safety education for those who 
use motorcycles. I thank you very much for the hearing.

    Senator Lott. Well, thank you very much for being here.
    And let me call on our panel, now, to give their testimony. 
Your statements, written statements, will be entered into the 
record in their entirety. I'd like to ask you to take just 5 
minutes to summarize your statement, since we have four of you 
here, and then allow us time to ask specific questions.
    Our panel of witnesses today include the Honorable Kenneth 
Mead, Inspector General, U.S. Department of Transportation; the 
Honorable Jeffrey Runge, Administrator, National Highway 
Traffic Safety Administration; the Honorable Annette Sandberg, 
Administrator, Federal Motor Carrier Safety Administration; and 
Stacey Gerard, Acting Assisting Administrator, Chief Safety 
Officer, Pipeline and Hazardous Materials Safety 
Administration.
    Thank you all very much for being here. This is an 
important part of our transportation system in America. We take 
it very seriously. These safety interests, you know, highway 
interests, consumer interests all have to be considered very 
carefully, and we are working on that, but we need the 
testimony of those of you that lead these various 
administrations in the Department of Transportation.
    We'd like to begin with Honorable Kenneth Mead, Inspector 
General, U.S. Department of Transportation.
    Mr. Mead?

     STATEMENT OF HON. KENNETH M. MEAD, INSPECTOR GENERAL, 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Mead. Thank you, Mr. Chairman. Thanks for inviting us 
to testify.
    Our testimony is going to draw from audits and criminal 
investigations. We have new safety audits underway that I want 
to tell you about, one on alcohol-impaired driving, motor-
carrier safety, and bridge safety.
    Overall, I think the Motor Carrier Safety Administration 
and the National Highway Traffic Safety Administration have 
made progress, illustrated by a 6.3 percent decrease in the 
highway fatality rate between 1998 and 2003. While the 
fatalities increased 2.8 percent, from about 41,500 in 1998 to 
42,600-odd in 2003, the number of highway vehicle miles 
traveled increased about 10 percent. And that increase in 
vehicle miles traveled explains why the fatality rate 
decreased, but the absolute number of fatalities increased 
slightly.
    The Department has a very ambitious goal, you should know, 
to reduce the fatality rate to one death per hundred-million 
vehicle miles traveled by 2008. That is going to require some 
heavy lifting. It will require a decrease, in 5 years, that is 
almost twice the decrease accomplished in the past decade. It 
anticipates roughly 6,000 fewer fatalities per year.
    Now, Mr. Chairman, it almost goes without saying that 
improving highway infrastructure improves safety, but we want 
to recommend eight action items.
    First, strengthen enforcement of commercial driver's 
license fraud. This is a very basic matter. We have found 
commercial driver's license fraud schemes now in 23 states. 
They involve drivers who obtain their license fraudulently by 
giving bribes or kickbacks to state employees or third-party 
examiners. It's mostly third-party examiners. Some of these 
drivers have been retested, but Motor Carriers should require 
states to ensure that all these drivers are qualified. We also 
recommended that Motor Carriers require states to adopt 
counterfraud methods, such as having police officers pose as 
drivers. Georgia and Pennsylvania have already done this, and 
it is effective. If Motor Carriers doesn't believe it has the 
authority to take these actions, it ought to request Congress 
for that authority now.
    Second, strengthen state enforcement that bars Mexican 
trucks from operating in the U.S. without proper authority. 
Now, you may think it odd that I raise this, since the border 
isn't open, but, in fact, trucks can come across now, but they 
can only operate in what are called the commercial zones. But 
some of those trucks, they keep on going into the interior 
United States, and they're not supposed to. They don't have 
that authority.
    State inspectors have found over a hundred Mexican 
companies operating illegally in the U.S. And in 2002, Motor 
Carriers required state inspectors to place out of service any 
truck from Mexico that doesn't have the proper authority. Five 
states have not adopted those rules. And a number of others 
don't follow them because there's confusion about how the new 
rules fit into existing safety criteria. Motor Carriers needs 
to take action to ensure its rule is fully implemented. If we 
don't take care of this now, it's only going to get worse once 
the border opens.
    Third, increase enforcement of hours-of-service violations. 
I think you know, these regulations are aimed at preventing 
accidents caused by fatigued drivers. But regardless of what 
limits are in place, the old rules or the new ones, 
unscrupulous companies will violate the rule and force drivers 
to far exceed them. Our investigation showed that this occurs 
sometimes by these companies requiring drivers to drive as much 
as 20 straight hours, far in excess of any rule that you could 
imagine.
    A California company, for example--they had been repeatedly 
fined--they were involved in an Arizona accident that killed a 
father and son and injured at least seven others. The company 
encouraged the drivers to falsify their logbooks. The driver in 
that accident had been behind the wheel for nearly 19 straight 
hours. His logbook said he was sleeping in the sleeper berth at 
the time of the accident.
    Fourth, refocus funds to reduce drunk driving. Forty 
percent of highway fatalities--that's about 17,000 deaths in 
2003, alone--are attributed to driving while under the 
influence. I think the Administration has a pretty good 
proposal in this area.
    Increase seatbelt use. This is another one where I think 
the Administration has a pretty focused program, and they've 
achieved a lot of progress. The usage of seatbelts has gone 
from 70 percent to 80 percent from 1998 to 2004. Primary 
seatbelt rules, which allow an officer to stop and ticket a 
motorist solely for not wearing a seatbelt, they're quite 
effective. Only 21 states have them now.
    Increase motorcycle-helmet use. I know that this is a very 
controversial one, but it is one of the few remaining areas of 
low-hanging fruit. Only 20 states require helmets for all 
motorcycle riders right now. I should tell you that there has 
been an increase in fatalities in motorcycle accidents by about 
60 percent since 1998. Helmets save lives, and that's in 
addition to savings associated with inpatient medical costs 
that are occasioned by brain injuries.
    Item seven, detect vehicle and equipment defects more 
effectively. In 2000, Congress held hearings on accidents 
involving vehicles equipped with defective tires, and it found 
that NHTSA did not collect enough data on defects; and the data 
it did collect, it didn't use. To address those concerns, 
Congress--in fact, I think this Committee had a major role in 
that--passed the TREAD Act to improve equipment standards and 
to create a computer system that analyzes data from warranty 
claims, manufacturers, consumers, and lawsuits to identify 
potential defects that warrant investigation. NHTSA ought to 
complete expansion of the system's capabilities, because the 
data's too voluminous and complex to analyze without a 
sophisticated tool.
    We'd also like to hear from NHTSA on its views on what 
accounts for the increase in vehicle recalls, whether 
voluntarily or by action of the government. It's gone from 265 
in 1995, to 541 in 2000, and to 602 in 2004.
    You know there's a new agency at DOT. This is my item 
eight. It's called the Pipeline and Hazardous Materials Safety 
Administration, and it's pronounced ``fimsa'' [PHMSA], and this 
is a good opportunity to improve transportation safety here. 
They face three imperatives.
    The first is to focus attention on the overlapping areas of 
safety and security, and identify vulnerabilities of hazardous-
materials shipments to negligence, intentional violations, and 
terrorist attack. A good example here--I mean, I know this is 
dealing with mostly highways and surface safety, but--is the 
train accident in South Carolina, with that chlorine car. The 
switch there was found to be vulnerable to manual tampering. So 
there is a case where there's an overlap between safety and 
security.
    A second imperative is to coordinate hazardous-materials 
issues with other agencies in the Department of Transportation. 
We have ten agencies over there, and a number of those agencies 
have HAZMAT enforcement responsibilities, and we need to break 
down those stovepipes.
    And a third imperative for PHMSA is to complete long-
overdue hazardous-materials-related mandates and NTSB 
recommendations.
    Now, finally, I'd like to say a word about unscrupulous 
household moving companies. Now, they're clearly in a minority. 
It's not fair to paint the entire industry this way. But we 
have a very serious and, I think, a disgusting problem here 
that I'd like to see the reauthorization take on.
    Typically what happens here is, a crooked mover will offer 
a lowball estimate, and then refuse to deliver the household 
goods unless he is paid an exorbitant sum. So, the goods, in 
effect, are held hostage. Sometimes they're even sold off. 
Meanwhile, the consumer is left with nothing, and no real 
effective remedy.
    Here's one case. Elderly New York couple. They're quoted 
$2,800 to make this move to Florida. The foreman of the moving 
company threatens to confiscate their goods unless they're paid 
$10,000. Now, the consumer really doesn't have any choice. They 
don't have time to go to arbitration and all that. They need 
their household goods. But they're basically left with nothing.
    To give you an idea of the magnitude of the problem, our 
office has investigated criminal fraud cases involving these 
companies, about 8,000 victims of more than 25 moving companies 
since 2000. And I think it's the tip of the iceberg. Since 
2001, consumers have filed well over 2,500 complaints with 
Motor Carriers that accuse them of overcharging and other 
serious tariff violations. Motor Carriers stepped up its 
efforts beginning last year. Before that, they had one person. 
Now they have ten. But they don't really have an effective 
enforcement scheme. The penalties just aren't sufficient.
    I think the good news is that the House version of TEA-21 
reauthorization targets the crooked movers by increasing the 
civil penalties, giving the states the authority to enforce 
federal regulations. It also creates a federal crime called 
``holding goods hostage'' with a maximum penalty of 2 years in 
prison per count. I think that's ridiculously low. For this 
type of offense, you ought to go, I think, a minimum of 5 years 
per count.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Mead follows:]

    Prepared Statement of Hon. Kenneth M. Mead, Inspector General, 
                      Department of Transportation

    Mr. Chairman and Members of the Subcommittee:
    Thank you for inviting us to testify today as the Subcommittee 
begins deliberations on the reauthorization of the safety programs in 
the Transportation Equity Act for the 21st Century (TEA-21). You have 
asked us to discuss highway and motor carrier safety, hazardous 
materials safety, and household goods transportation fraud.
    Our testimony today will draw from our body of audit work and 
criminal investigations. We also want to advise the Subcommittee that 
we have several safety audits under way, including one on alcohol-
impaired driving and another on implementation of the Motor Carrier 
Safety Improvement Act of 1999, which was required by Congress.
    Given the challenges they have faced, two agencies dealing with 
highway safety--the Federal Motor Carrier Safety Administration (FMCSA) 
and the National Highway Traffic Safety Administration (NHTSA)--have, 
overall, made good progress. Specifically, the highway fatality rate 
has decreased 6.3 percent, from 1.58 deaths per 100 million vehicle 
miles traveled in 1998 to 1.48 in 2003, the most recent year for which 
figures are available.
    The absolute number of deaths has increased 2.8 percent, from 
41,501 in 1998 to 42,643 in 2003. The number of large-truck-related 
fatalities decreased in every year from 1998 to 2002 but increased 
slightly in 2003. But the number of highway vehicle miles traveled 
increased 9.8 percent from 2.6 trillion to 2.9 trillion in the same 
period. This explains why the fatality rate has decreased as the 
absolute number of deaths increased.
    These successes can be attributed to the increased attention given 
to highway safety, including Congress' creation of FMCSA in 1999; its 
passage of the Transportation Recall Enhancement, Accountability, and 
Documentation (TREAD) Act in 2000; NHTSA's attention to seat belt use 
and potential vehicle and equipment safety defects; and FMCSA's efforts 
to increase enforcement and complete important rulemakings.
    Funding for highway safety improvement increased more than 50 
percent during the 5-year period from 1998 to 2003. But the fatality 
trends have essentially flattened during that period (as Figures 1 and 
2 illustrate).
    The Department has established a goal to reduce the overall highway 
fatality rate to one death per 100 million vehicle miles traveled by 
2008. Meeting the Department's goals will require a decrease in 5 years 
that is almost twice the decrease that was accomplished in the previous 
11 years.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    While they will be difficult to achieve, accomplishing the 
Department's goals would save about 31,000 lives between 2004 and 2008, 
assuming that vehicle miles traveled remain constant. This would lower 
annual deaths by an average of about 6,200 lives, a significant 
decrease in the more than 42,000 annual deaths. Acting on the following 
items will help the Department to achieve these goals.

      <bullet> Use covert methods to reveal Commercial Drivers License 
(CDL) fraud and ensure that truck drivers who obtained their CDLs from 
examiners suspected of fraud obtained their licenses properly. We have 
found far too many CDL fraud schemes--in 23 states--and identified more 
than 8,000 drivers who had obtained their CDLs through state or 
``third-party examiners'' suspected of fraud. Although some of these 
drivers were retested, FMCSA should require states to ensure that all 
of those drivers are properly qualified. We have recommended that FMCSA 
also require states to adopt effective CDL counter-fraud methods, 
including covert test methods, which includes having police officers 
pose as applicants. These methods have been successfully used in 
Pennsylvania and Georgia, and should be required in all states that use 
third-party examiners (our last study of CDL fraud found that 39 states 
use third-party examiners).
    We have also recommended that when corrupt examiners are caught, 
the holders of CDLs approved by those examiners be retested. FMCSA 
officials recently advised us that they are assessing whether it has 
the regulatory authority to order states to use covert counter-fraud 
methods and retest suspect CDL holders. If FMCSA determines that it 
does not have the authority, it should seek that authority from 
Congress.

      <bullet> Strengthen state enforcement of laws that bar Mexican 
trucks from operating in the United States without proper authority. 
These trucks can now operate in the United States in only limited ways, 
primarily in the commercial areas along the border. Mexican companies 
seeking to operate in the United States under new privileges granted by 
the North American Free Trade Agreement (NAFTA) are required to obtain 
operating authority from FMCSA. The agency will grant operating 
authority only to those Mexican companies that meet detailed safety-
related requirements. Opening of the border has been delayed. But even 
before the border has opened, records indicate that state inspectors 
have already found more than 100 Mexican trucking companies operating 
illegally in the interior United States.
    In August 2002, FMCSA issued an interim final rule requiring state 
inspectors to place out of service any commercial vehicle operating 
without authority or beyond the scope of their authority. However, in 
January 2005, we reported that gaps still exist in implementing and 
enforcing this rule. Five states still need to adopt rules to enforce 
operating authority, and some of the states that have adopted the rules 
are not placing trucks out of service when found operating without 
authority, because operating without authority is not one of the 
Commercial Vehicle Safety Alliance's (CVSA) North American Inspection 
Standards out-of-service criteria.
    CVSA is an association of state and federal officials responsible 
for the administration and enforcement of motor carrier safety laws. 
According to CVSA, the term ``out of service'' is intended to refer to 
vehicles that ``by reason of its mechanical condition or loading would 
likely cause an accident or breakdown.'' Training and guidance for 
state officials on the operating authority issue is also a problem.
    In its response to our January 2005 report, FMCSA stated that it 
will continue to communicate with all states and encourage timely 
adoption and full enforcement of its August 2002 rule, which it 
considers to be clear and unambiguous. However, if this issue continues 
to present an obstacle to implementation of the rule, FMCSA will need 
to take further action to ensure that, notwithstanding CVSA's view of 
when vehicles may be placed out of service, the states consistently 
implement FMCSA's rule.

      <bullet> Increase enforcement of egregious violations of Hours of 
Service regulations. Hours of Service regulations are aimed at 
preventing accidents caused by fatigued commercial drivers. The 
regulations prescribe a limit on the number of hours that a commercial 
driver can be behind the wheel. Simply put, the key provision in the 
regulations currently in effect limit consecutive hours of driving time 
to 11 hours, and this regulation expires in September 2005. The 
previous limit was 10 hours.
    The Subcommittee should know that regardless of the limits in 
place, there will be unscrupulous operators who will violate the rule 
and drive 20 consecutive hours or more. We have conducted criminal 
investigations of egregious cases in which trucking company officials 
have been prosecuted for systematically forcing their drivers to drive 
well in excess of the limits.
    In one case, a California trucking company that repeatedly had been 
fined by FMCSA for Hours of Service violations was involved in an 
accident in Arizona that killed a father and son and injured at least 
seven other people. The company, its two owners, and 11 employees have 
been indicted on federal criminal charges. The indictments charge that 
the company had encouraged its drivers to falsify their log books. Our 
investigation disclosed that the driver involved in the Arizona 
fatality had been behind the wheel for 19 hours, and that his log book 
falsely reflected he was in the sleeper berth at the time of the 
accident.
    Unscrupulous trucking companies and drivers view FMCSA's fines for 
Hours of Service and log book violations simply as a cost of doing 
business. Current penalties and enforcement methods can be further 
strengthened to deter this offense. We note that at one time, FMCSA 
proposed that all trucks be required to have onboard electronic devices 
that would record driving time and provide key evidence for enforcement 
efforts. FMCSA rescinded that proposal, but the courts have directed 
FMCSA to review the decision to rescind it. If ultimately FMCSA does 
not require recorders, it needs to develop additional strategies to 
deter Hours of Service violations. For example, one way would be to 
eliminate FMCSA's distinction between a missing or incomplete log book 
and possessing a false log book, which carries a fine up to 10 times 
higher than a missing log book. Another would be to eliminate an FMCSA 
policy that restricts inspectors' use of data from a trucking company's 
GPS or onboard recording device to check for Hours of Service 
violations during compliance audits.

      <bullet> Refocus funds to reduce drunk driving. Driving while 
under the influence of alcohol continues to be one of the largest 
highway safety problems in the nation, with an estimated 40 percent of 
all highway fatalities (more than 17,000 deaths in 2003 alone) 
considered to be alcohol-related. We agree with the Administration's 
proposal to focus new funding resources on up to 10 states that have an 
especially high number of alcohol-related fatalities.

      <bullet> Increase the use of seat belts. NHTSA and the states 
have been effective in increasing the national seat belt use rate from 
70 percent in 1998 to an estimated 80 percent in 2004. The number of 
states with primary seat belt laws increased from 14 in 1998 to 21 
(plus the District of Columbia and Puerto Rico) in 2004. NHTSA 
estimates that for each 1 percent increase in seat belt use, 270 deaths 
and 4,400 serious injuries are prevented each year. A key tool in this 
effort is the primary seat belt law, which allows police to stop and 
ticket a motorist solely for not wearing a seat belt. We agree with the 
Department's proposal to reward states that enact the primary seat belt 
law or show significant improvement in their rate of seat belt use.

      <bullet> Increase the use of motorcycle helmets. Annual deaths 
from motorcycle accidents increased 60 percent, or by 1,367 deaths, 
from 1998 to 2003. This is one of the few areas where there is still 
``low-hanging fruit'' that can advance progress toward achieving safety 
goals. In 2003, only 20 states, the District of Columbia, and Puerto 
Rico require helmets for all riders. In four states that repealed 
helmet use laws for adults--Arkansas, Texas, Louisiana, and Kentucky--
motorcycle operator deaths increased (in August 2004, Louisiana re-
enacted a universal helmet law).
    In a crash, a helmet-less motorcyclist is 40 percent more likely to 
suffer a fatal head injury and 15 percent more likely to suffer a 
nonfatal injury than a helmeted motorcyclist. In 2003, 3,661 
motorcyclists died and approximately 67,000 were injured in highway 
crashes in the nation. NHTSA estimates that helmets saved the lives of 
1,158 motorcyclists in 2003, and that if all motorcycle operators and 
passengers had worn helmets that year, another 640 lives would have 
been saved.
    In addition to lives lost, a key issue in the debate over helmet 
laws are the medical costs that could be avoided with helmet use. One 
NHTSA study estimated that in 2002 motorcycle helmet use resulted in 
$1.3 billion in savings. An additional $853 million would have been 
saved if all motorcyclists had worn helmets. Another NHTSA study of 
motorcycle accidents in Missouri, New York, and Pennsylvania estimated 
that without a mandatory helmet law, inpatient medical costs for brain 
injuries would be almost twice as much.

      <bullet> Detect vehicle and equipment defects more effectively. 
In September 2000, Congress held hearings to determine why NHTSA, 
Firestone, and Ford did not identify tread separation defects sooner to 
prevent the numerous deaths and injuries associated with Ford Explorers 
equipped with defective Firestone tires. During the hearings, Congress 
noted that the data available to NHTSA's Office of Defects 
Investigation (ODI) were insufficient, and that ODI did not use the 
data it did possess to spot trends related to failures in these tires. 
To address these concerns, Congress passed the TREAD Act in October 
2000.
    Its purpose was to create new equipment standards and ways for the 
automobile industry and the Department to discover safety defects more 
quickly. NHTSA has implemented all of the TREAD Act's 22 requirements, 
and completed a new safety defects system called the Advanced Retrieval 
(Tire, Equipment, Motor Vehicle) Information System (ARTEMIS). This 
system was created to analyze the large volume of early reports of 
defects from manufacturers and consumers, to identify defects that 
require further investigation and possible recall. In a 2002 audit we 
reported that ODI received an average of 34,000 complaints a year 
directly from consumers, and manufacturers received an even larger 
number.
    In September 2004, we reported that ARTEMIS had cost and schedule 
overruns early in its development. In addition, the computer system 
cannot yet link deaths to an alleged defect, or identify relationships 
between disparate categories of information, such as a consumer 
complaint and the filing of a warranty claim.
    Until these capabilities are implemented, analysts will not be able 
to fully utilize the information to help them find safety defect trends 
and subtle relationships in the large volume of data it receives. NHTSA 
is working to improve the system and has set milestones for adding the 
analytical capability and for completing training of staff to use the 
system by October 2005. It is important that the agency follow through 
on implementing those capabilities and that it determine the reasons 
why the number of vehicle recalls has been increasing. According to 
NHTSA, the number of vehicle recalls, whether voluntarily or by action 
of the government, has increased from 265 in 1995, to 541 in 2000, and 
to 602 in 2004.

      <bullet> The creation of the Pipeline and Hazardous Materials 
Safety Administration is a good opportunity for this new agency to have 
an effect similar to that of FMCSA. PHMSA faces three imperatives. 
First is to focus attention on safety and security for the more than 3 
billion tons of regulated hazardous materials that move nationally in 
more than 292 million shipments each year. Hazardous materials is an 
area where safety and security intersect in significant ways. PHMSA 
must develop new ways to identify vulnerabilities of hazardous 
materials shipments to negligence, intentional violations, and 
terrorist attack. The intersection of safety and security was 
particularly evident in the train derailment in South Carolina in 
January 2005 that leaked chlorine, killing nine people and injuring 
hundreds. While preliminarily attributed to human error, the train 
derailment also has revealed security vulnerabilities involving 
manually controlled switches.
    A second imperative for PHMSA is to coordinate hazardous materials 
regulatory issues with other agencies in the Department of 
Transportation and coordinate hazardous materials security issues with 
the Department of Homeland Security (DHS). In the past 5 years, success 
in achieving Department-wide objectives to facilitate hazardous 
materials regulatory issues has been limited, due primarily to each 
modal administration separately administering its hazardous materials 
program. Coordinating hazardous materials security issues with DHS is 
never more evident than with the responsibility to secure the U.S. 
transportation system and protect its users from criminal and terrorist 
acts, especially in the area of hazardous materials safety oversight 
and enforcement. A third imperative for PHMSA is to lead and coordinate 
efforts to complete eight outstanding hazardous materials-related 
mandates and 23 outstanding hazardous materials-related National 
Transportation Safety Board recommendations throughout the Department 
that are long overdue. One outstanding recommendation is to act with 
the Federal Railroad Administration to create fracture resistance 
standards for rail tank cars carrying dangerous chemicals such as 
chlorine.

      <bullet> Protect consumers from fraud perpetrated by unscrupulous 
household goods moving companies. Although it is not safety-related, 
household goods moving fraud is a serious problem, with thousands of 
victims who have fallen prey to these scams across the country. 
Typically, an unscrupulous operator will offer a low-ball estimate and 
then refuse to deliver or release the household goods unless the 
consumer pays an exorbitant sum, often several times the original 
estimate. In one case, for example, a New York husband and wife in 
their seventies were quoted a price of $2,800 to move their household 
goods to Florida. Once the movers had loaded about half of the goods, 
the foreman advised the couple that unless they paid the new price of 
$9,800 they would never see their property again. Fearing that the 
moving crew might physically hurt them, the couple paid the vastly 
inflated price.
    Since 2000, our office has investigated allegations of fraud 
associated with approximately 8,000 victims, involving more than 25 
household goods moving companies. FMCSA data reflects that since 2001, 
consumers have filed over 10,000 official complaints via its hotline 
against household goods movers, including about 2,500 complaints that 
accuse movers of overcharging, providing misleading and inaccurate 
estimates, and other serious tariff violations.
    Until this year, FMCSA had dedicated one full-time investigator for 
household goods complaints. Because of Congressional concern over the 
increase in fraud, FMCSA received an increase in funding in FY 2004 to 
hire 10 additional investigators. It has also cross-trained other 
safety inspectors to support its household goods investigation efforts. 
FMCSA's goal is to conduct 300 investigations by the end of FY 2005, 
compared to just over 30 conducted in FY 2004. Clearly, this is an area 
where stronger sanctions and authorities are needed to leverage the 
limited resources available to respond to the steadily increasing 
volume of complaints of fraud and abuse in the household goods moving 
industry.
    The House version of TEA-21 reauthorization (H.R. 3), which passed 
last month, contains important provisions to strengthen enforcement in 
this area, including greater civil penalties and ensuring that states 
have the authority to take enforcement action, under federal 
regulations, against a company operating in interstate commerce. Also, 
significantly, H.R. 3 creates a specific federal felony of holding 
goods hostage and sets 2 years imprisonment per count as the maximum 
penalty, but this is relatively low for a felony. We recommend that the 
maximum penalty be at least 5 years imprisonment, to fall in line with 
most other federal felonies, given the underlying nature of the crime, 
which really is extortion.
    This concludes our testimony. Thank you for inviting us to testify 
here today. We would be glad to answer any questions that you have.

    Senator Lott. Thank you, Mr. Mead. I'll look forward to 
having an opportunity to ask you questions after we hear from 
the rest of the panel.
    Our next witness is Dr. Jeff Runge, Administrator, National 
Highway Traffic Safety Administration.
    Dr. Runge?

           STATEMENT OF HON. JEFFREY W. RUNGE, M.D., 
        ADMINISTRATOR, NATIONAL HIGHWAY TRAFFIC SAFETY 
                         ADMINISTRATION

    Dr. Runge. Thank you, Mr. Chairman, Senator Inouye, Members 
of the Subcommittee, Chairman Stevens. Thank you for the chance 
to speak with you today about our mission to reduce fatalities 
and injuries on our nation's roadways.
    During 2003, Mr. Chairman, 42,643 people died on our 
nation's roadways, and 2.9 million were injured. Our analysis 
of crashes in the year 2000 reveals that a single year's motor-
vehicle crashes cost the American economy $230 billion. To put 
those figures into perspective, the fatality figure for crash 
victims is slightly more than three times the number of AIDS 
deaths annually, and the cost to our economy exceeds the gross 
national product of many, if not most, countries.
    In response to these staggering numbers, Secretary Mineta 
did set a challenging goal to reduce deaths to no more than 1.0 
deaths per hundred-million vehicle miles traveled, by 2008. Our 
current overall fatality rate is 1.48, an all-time low. But we 
will not approach that goal of 1.0 without the help of Congress 
to authorize safety programs that are based on sound science.
    The Administration's proposal contains many sound, 
scientifically based proposals, but I want to focus my 
testimony on one provision that will save more lives, and do it 
faster and cheaper, than any other proposal that you will 
consider in this Congress or probably even this decade. This is 
our proposal to provide incentives to states to pass primary 
safety-belt laws or reach 90 percent safety-belt use for two 
consecutive years.
    A primary safety-belt law treats safety-belt usage in the 
same manner as speeding, running a red light, blowing through a 
stop sign, as well as the hundreds of other laws that regulate 
dangerous behavior while driving. Twenty-one states, plus DC 
and Puerto Rico, have such laws. But, in 28 states, wearing a 
safety belt is also the law, but a police officer cannot issue 
a citation unless the motorist is cited for another offense. 
And this situation has led to a very low safety-belt use in 
many of those states, because traffic officers are prevented 
from enforcing the law.
    If all states adopted a primary safety-belt law, we would 
prevent 1,275 deaths every year, and prevent 17,000 serious 
injuries from going to our trauma centers. Moreover, for every 
percentage point we raise belt use across the nation, we save 
275 lives and $800 million of economic cost. There is no other 
safety countermeasure that NHTSA can employ that will save more 
than 1,200 people annually for no additional cost. It's simple, 
it works, and it's life-saving.
    Now, consider, Mr. Chairman, that NHTSA recently completed 
all of our rulemakings related to the TREAD Act. These actions 
associated with that law cost consumers about $1.2 billion in 
cost, and took years to develop. In total, those improvements 
to vehicles and tires will save maybe 200 to 300 lives yearly. 
By comparison, if the remaining states passed a primary safety-
belt law we could save four times that number every year at no 
cost to the consumer.
    Simply put, getting safety-belt use to the level of other 
developed heavily motorized nations is long overdue. Nothing 
will accomplish this short of primary belt laws in every state 
in the land, and nothing will prompt the passage of those 
primary safety-belt laws than this Committee reporting out a 
bill with a meaningful incentive for states to enact those 
primary safety-belt laws.
    I want to stress, Mr. Chairman, that our proposal includes 
incentives to the states, not sanctions. The Administration 
recognizes that states are sovereign entities and not branch 
offices of the Federal Government. Nonetheless, it is in the 
national interest for states to follow the science and pass 
this life-saving legislation.
    Our proposal also gives the states unprecedented 
flexibility. If there's one complaint that I hear constantly 
from states, it's that they are forced to spend tax dollars not 
where they would do the most good, but according to a 
predetermined one-size-fits-all formula.
    Under our safety proposal, for example, a state could use a 
portion of its highway-safety incentive funds for hazard 
mitigation, putting up guardrails along a dangerous highway, or 
installing better signage, or median barriers in an interstate. 
But, on the other hand, if a state has a high impaired-driving 
rate or low safety-belt use, safety funds could be redirected 
to more vigorous enforcement or to a more sustained public-
information campaign.
    The principle behind this provision is that states know, 
themselves, where their greatest needs are. And, therefore, we 
believe they should have the flexibility to address those 
needs.
    Mr. Chairman, before coming to the Administration, I spent 
20 years practicing and teaching emergency medicine in one of 
our nation's busiest trauma centers. Motor-vehicle injury is a 
disease. It consumes all of us, particularly our young people, 
at alarming rates. I've seen and felt the pain of many families 
who have been victimized by this disease, and literally so many 
of us, probably even in this room, are affected every year by 
this preventable cause of mortality.
    Mr. Chairman, it's not hyperbole to state that providing a 
meaningful incentive to encourage states to enact primary belt 
laws would be the single most important traffic safety measure 
that could pass, this decade. No vehicle mandate for improved 
technologies, no elaborate rulemaking, no public-relations 
campaign or public education would save as many lives.
    I would urge the Subcommittee to adopt all of the 
Administration's safety proposals; but, most especially, I urge 
you to adopt our primary safety-belt-use-law incentives for the 
states.
    Thank you for your consideration of my views, and I'll be 
happy to answer any questions when my colleagues are finished.
    [The prepared statement of Dr. Runge follows:]

   Prepared Statement of Hon. Jeffrey W. Runge, M.D., Administrator, 
             National Highway Traffic Safety Administration

    Chairman Lott, Senator Inouye, Members of the Subcommittee: Thank 
you for the opportunity to appear before you today to discuss the 
Administration's proposal to reauthorize our highway safety programs in 
the ``Safe, Accountable, Flexible and Efficient Transportation Equity 
Act of 2003'' or ``SAFETEA.'' My staff and I look forward to working 
with this Subcommittee and the rest of the Senate to shape the 
proposals that will reauthorize our programs and address the highway 
safety challenges facing the Nation.
    The National Highway Traffic Safety Administration's (NHTSA) 
mission is to save lives and prevent injuries. Motor vehicle crashes 
are responsible for 95 percent of all transportation-related deaths and 
99 percent of all transportation-related injuries. They are the leading 
cause of death for Americans for every age from 3 through 33. Although 
we are seeing improvements in vehicle crash worthiness and crash 
avoidance technologies, the numbers of fatalities and injuries on our 
highways remain staggering. In 2003, the last year for which we have 
complete data, an estimated 42,643 people were killed in motor vehicle 
crashes. This number represents a slight decrease of 362 fatalities 
from 2002 (43,005), but we need to continue and accelerate that 
downward trend.
    The economic costs associated with these crashes seriously impact 
the Nation's fiscal health. The annual cost to our economy of all motor 
vehicle crashes is $230.6 billion in Year 2000 dollars, or 2.3 percent 
of the U.S. gross domestic product. This translates into an average of 
$820 for every person living in the United States. Included in this 
figure is $81 billion in lost productivity, $32.6 billion in medical 
expenses, and $59 billion in property damage. The average cost to care 
for a critically injured survivor is estimated at $1.1 million over a 
lifetime, a figure that does not begin to account for the physical and 
psychological suffering of the victims and their families.
    The fatality rate per 100 million vehicle miles traveled (VMT) in 
2003 was at an all-time low of 1.48. Secretary Mineta has set a goal of 
reducing this rate even further, to no more than 1.0 fatality for every 
100 million VMT by 2008. President Bush and Secretary Mineta have made 
reducing highway fatalities the number one priority for the Department 
of Transportation and for the reauthorization of NHTSA's programs.
    As the statistics indicate, traffic safety constitutes a major 
public health problem. But unlike a number of the complex issues facing 
the Nation today, we have at least one highly effective and simple 
remedy to combat highway deaths and injuries. Wearing safety belts is 
the single most effective step individuals can take to save their 
lives. Buckling up is not a complex vaccine, doesn't have unwanted side 
effects and doesn't cost any money. It's simple, it works and it's 
lifesaving.
    Safety belt use cuts the risk of death in a severe crash in half. 
Most passenger vehicle occupants killed in motor vehicle crashes are 
unrestrained. If safety belt use were to increase from the 2004 
national average of 80 percent to 90 percent--an achievable goal--
nearly 2,700 lives would be saved each year. For every 1 percentage 
point increase in safety belt use--that is 2.8 million more people 
buckling up--we would save hundreds of lives, suffer significantly 
fewer injuries, and reduce economic costs by hundreds of millions of 
dollars a year.
    States recognize these lifesaving benefits, and have enacted safety 
belt laws. However, as of March 2005, only 21 states plus the District 
of Columbia and Puerto Rico have primary laws, which allow police 
officers to stop and issue citations to motorists upon observation that 
they are not buckled up. Other safety belt laws, known as secondary 
laws, do not allow such citations unless a motorist is stopped for 
another offense. In 2004, belt use in states with primary safety belt 
laws averaged 84 percent, 11 points higher than in states with 
secondary laws--a statistically significant difference. If all states 
enacted primary safety belt laws, we would prevent 1,275 deaths and 
17,000 serious injuries annually. Enacting a primary safety belt law is 
the single most effective action a state with a secondary law can take 
to decrease highway deaths and injuries.
    The Administration's SAFETEA proposal builds on the tremendous 
successes of previous surface transportation legislation by taking some 
important next steps. I'd like to highlight one very important 
component of this proposal that creates a strong incentive for states 
to enact primary safety belt laws or achieve high safety belt use 
rates, while at the same time streamlining NHTSA's grant programs to 
make them more performance-based.
    The Administration's SAFETEA proposal, transmitted to Congress in 
2003 and adjusted this February, proposes a major consolidation of 
NHTSA highway safety grant programs that would provide authorizations 
over the 6-year period to fund the basic formula grant program to the 
states under Section 402, but add two important new elements--a Safety 
Belt Performance Grant and a General Performance Grant.
    The Safety Belt Performance Grant provides up to $100 million each 
year to reward states for passing primary safety belt laws or achieving 
90 percent safety belt use rates in two consecutive years. Under our 
proposal, a state that has already enacted a primary safety belt use 
law for all passenger motor vehicles (effective by December 31, 2002) 
would receive a grant equal to 2.5 times the amount of its FY 2003 
formula grant for highway safety. A state that enacts a new primary 
belt law or achieves 90 percent belt use for two consecutive years will 
receive a grant equal to five times the amount of its FY 2003 formula 
grant for highway safety. This significant incentive is intended to 
prompt state action needed to save lives. States achieve high levels of 
belt use through primary safety belt laws, public education using paid 
and earned media, and high visibility law enforcement programs, such as 
the Click it or Ticket campaign.
    A state that receives a Safety Belt Performance Grant for the 
enactment of a primary safety belt law can elect to use all of those 
funds for a wide range of highway safety programs, including 
infrastructure investments eligible under the Federal Highway 
Administration's (FHWA) Highway Safety Improvement Program in 
accordance with the state's Comprehensive Strategic Highway Safety 
Plan.
    Under another provision of the Safety Belt Performance Grant, a 
state can receive additional grants by improving its safety belt use 
rates. This incentive, alone, would provide up to $182 million over the 
6-year authorization period. Any state that receives a grant for 
improved safety belt use rates is permitted to use up to 50 percent of 
those funds for activities eligible under the new Highway Safety 
Improvement Program.
    The 6-year General Performance Grant component of our consolidated 
highway safety grant program not only eases the administrative burdens 
of the states but also rewards states with increased federal funds for 
measurable improvements in their safety performance in the areas of 
overall motor vehicle fatalities, alcohol-related fatalities, and 
motorcycle, bicycle, and pedestrian crash fatalities. Any state that 
receives a General Performance Grant is permitted to use up to 50 
percent of those funds for activities eligible under the new Highway 
Safety Improvement Program.
    These grants reflect a different approach to addressing the 
Nation's substantial highway safety problems. While formulating the 
Department's reauthorization proposal, the FHWA and NHTSA embraced the 
guiding principle that states should receive resources to address their 
own, unique transportation safety issues, should be strongly encouraged 
to increase their safety belt use rates--the single most effective 
means of decreasing deaths and injuries--and should be rewarded for 
performance with increased funds and greater flexibility to spend those 
funds on either infrastructure safety or behavioral safety programs.
    But with the flexibility comes the accountability. States will be 
held accountable for setting realistic and appropriate performance 
goals, devising corresponding plans, and ultimately improving 
performance and achieving the goals.
    These guiding principles of flexibility and accountability underlie 
all aspects of the Administration's highway safety reauthorization 
proposal. In fact, our Nation's governors speak with one voice on this 
issue--and they all want maximum flexibility to distribute highway 
safety funds where the need is the greatest.
    Mr. Chairman, the single most important safety measure Congress 
could pass this decade is SAFETEA's proposal to provide incentive 
grants for states to pass primary belt laws. As the Nation's chief 
highway safety official, I urge you to pass a bill that gives states 
the strongest incentives possible to enact primary belt laws. No 
vehicle safety mandate, no elaborate rulemaking, no public relations 
campaign that NHTSA could undertake would have the life-saving impact 
of Congress providing meaningful incentives to the states to pass 
primary belt laws.
    I'd like to give you a brief overview of some of the other 
provisions of our SAFETEA proposal transmitted to Congress in 2003.
    SAFETEA would establish a new core highway safety infrastructure 
program, in place of the existing Surface Transportation Program safety 
set-aside. This new FHWA program, called the Highway Safety Improvement 
Program (HSIP), would more than double funding over comparable TEA-21 
levels, providing more funds for safety projects over the 6-year 
authorization period. In addition to increased funding, states would be 
encouraged and assisted in their efforts to formulate comprehensive 
highway safety plans. Those states with such comprehensive plans could 
flex up to 50 percent of their HSIP funds for behavioral safety 
programs.
    SAFETEA also is designed to help the states deter impaired driving. 
Reducing the number of impaired drivers on our roadways is a complex 
task requiring interconnected strategies and programs. In 2003, an 
estimated 17,013 people died in alcohol-related crashes (40 percent of 
the total fatalities for the year), a 29-percent reduction from the 
23,833 alcohol-related fatalities in 1988, and a decline of 3 percent 
over 2002. Our data show that 2003 was the first year since 1999 that 
the number of alcohol-related fatalities decreased. The proportion of 
traffic deaths of individuals with a blood-alcohol content above .08--
the legal limit in every state--was highest in 2003 for 21-24 year 
olds, at 32 percent, followed by 25-34 year olds, at 27 percent.
    A component of our revised Section 402 program would focus 
significant resources on a small number of states with particularly 
severe impaired driving problems by creating a new $50-million-a-year 
impaired driving discretionary grant program. The grant program would 
include support for up to 10 states with an especially high number of 
alcohol-related fatalities and a high rate of alcohol-related 
fatalities relative to vehicle miles traveled and population. A team of 
outside experts would conduct detailed reviews of the impaired driving 
systems of these states to assist them in developing a strategic plan 
for improving programs and reducing impaired driving-related fatalities 
and injuries. Additional support would be provided for training, for 
technical assistance in the prosecution and adjudication of driving 
while intoxicated (DWI) cases, and to help licensing and criminal 
justice authorities close legal loopholes.
    NHTSA believes that this targeted state grant program and 
supporting activities, together with continued nationwide use of high-
visibility enforcement and paid and earned media campaigns, would lead 
to a continuation of the downward trend in alcohol-related fatalities. 
Also, through the comprehensive safety planning process, all states 
could elect to use a significant amount of their FHWA Highway Safety 
Infrastructure funding, in addition to their consolidated highway 
safety program funds, to address impaired driving.
    SAFETEA's highway safety title includes a key provision to 
authorize a comprehensive national motor vehicle crash causation survey 
to enable us to determine the factors responsible for the most frequent 
causes of crashes on the Nation's roads. This comprehensive survey 
would be funded at $10 million a year out of the funds authorized for 
our highway safety research and development program. The last 
comprehensive update of crash causation data was generated in the 
1970s. Congress has recognized the importance of this survey and so far 
has appropriated $14 million for this effort. Appropriations have been 
used to develop protocols and methodology, procure equipment, hire and 
train new researchers, establish data collection methodology and 
structure and begin field data collection.
    SAFETEA also would create a new $50-million-a-year incentive grant 
program that builds upon a TEA-21 program to encourage states to 
improve their traffic records data. Accurate state traffic safety data 
are critical to identifying local safety issues, applying focused 
safety countermeasures, and evaluating the effectiveness of 
countermeasures. Improvements are needed for police reports, driver 
licensing, vehicle registration, and citation/court data to provide 
essential information. Additionally, deficiencies in data negatively 
impact national databases including the Fatality Analysis Reporting 
System, General Estimates System, National Driver Register, Highway 
Safety Information System, and Commercial Driver License Information 
System.
    For the past 20 years, federal support for Emergency Medical 
Services (EMS) has been both scarce and uncoordinated. As a result, the 
capacity of this critical public service has seen little growth, and 
support for EMS has been spread among a number of agencies throughout 
the Federal Government, including NHTSA. Except for NHTSA, most of the 
support offered by these agencies has focused only on specific system 
functions, rather than on overall system capacity, and has been 
inconsistent and ineffectively coordinated.
    SAFETEA would establish a new $10 million-a-year state formula 
grant program to support EMS systems development, including 9-1-1 
nationwide, and would provide for a Federal Interagency Committee on 
EMS to strengthen intergovernmental coordination of EMS with NHTSA 
providing staff support. The states would administer the grant program 
through their state EMS offices and coordinate it with their highway 
safety offices. Enactment of this section would result in comprehensive 
support for EMS systems, and improved emergency response capacity 
nationwide.
    SAFETEA also would provide a total of over $500 million for NHTSA's 
highway safety research and development program. This program supports 
state highway safety behavioral programs and activities by developing 
and demonstrating innovative safety countermeasures and by collecting 
and disseminating essential data on highway safety. The results of our 
Section 403 research provide the scientific basis for highway safety 
programs that states and local communities can tailor to their own 
needs, ensuring that precious tax dollars are spent only on programs 
that are effective. The states are encouraged to use these effective 
programs for their ongoing safety programs and activities.
    Highway safety behavioral research focuses on human factors that 
influence driver and pedestrian behavior and on environmental 
conditions that affect safety. This research addresses a wide range of 
safety problems through various initiatives, such as impaired driving 
programs, safety belt and child safety seat programs and related 
enforcement mobilizations, pedestrian, bicycle, and motorcycle safety 
initiatives, enforcement and justice services, speed management, 
aggressive driving countermeasures, emergency medical services, fatigue 
and inattention countermeasures, and data collection and analysis 
efforts. These efforts have produced a variety of scientifically sound 
data and results.
    Finally, SAFETEA would provide a total of over $23 million for the 
National Driver Register. This system facilitates the exchange of 
driver licensing information on problem drivers among the states and 
various federal agencies to aid in making decisions concerning driver 
licensing, driver improvement, and driver employment and transportation 
safety.
    Overall, SAFETEA is a groundbreaking proposal that offers states 
more flexibility than they have ever had before in how they spend their 
federal-aid safety dollars. It reduces state administrative burdens by 
consolidating multiple categorical grant programs into one. It would 
reward states for accomplishing easily measurable goals and encourage 
them to take the most effective steps to save lives. It is exactly the 
kind of proposal that is needed to more effectively address the tragic 
problem of highway fatalities.
    On the motor vehicle safety side of NHTSA's mission, we focus our 
efforts on actions offering the greatest potential for saving lives and 
preventing injury. In 2003, we published the first ever NHTSA multi-
year vehicle safety rulemaking priorities and supporting research plan. 
It sets forth the agency's rulemaking goals for 2003 through 2006. We 
have transmitted to Congress the January 2005 update of the plan, which 
covers the years 2005 through 2009.
    In addition, we are committed to reviewing all Federal Motor 
Vehicle Safety Standards systematically over a 7-year cycle. NHTSA is a 
data-driven and science-driven agency, and we decided that such a 
review is needed in light of changing technology, vehicle fleet 
composition, safety concerns and other issues that may require changes 
to a standard. Our regulatory reviews are in keeping with the goals of 
the Government Performance and Results Act, to ensure that our 
rulemaking actions produce measurable safety outcomes. Several decades 
of vehicle safety rulemaking have demonstrated that quality data and 
research produce regulations that are technically sound, practicable, 
objective, and repeatable. Our rulemaking priorities plan was crafted 
with these principles in mind.
    NHTSA's priority rulemakings for the immediate future include 
enhanced side crash protection; improved rollover crash protection 
through advanced prevention technologies, reduced occupant ejection, 
and upgraded roof crush protection; reduction in light vehicle tire 
failures; and shorter stopping distances for heavy trucks. Our longer-
term priorities include research and rulemaking decisions to address 
vehicle ``aggressivity'' toward other vehicles; improved visibility 
through enhanced mirrors and other technologies; reduction in crashes 
associated with driver distraction; improved heavy truck tires; 
ensuring the safety of hydrogen, fuel cell, and alternative-fueled 
vehicles; and advancing crash avoidance technologies, such as driver-
assist systems. We have integrated our rulemaking priorities plan and 
our supporting research plan to ensure that research is available when 
needed to conduct rulemakings that advance safety.
    I would ask the Subcommittee not to include rulemaking mandates in 
your bill to reauthorize NHTSA's programs. Mandates take away NHTSA's 
ability to prioritize its work based on its most important safety 
priorities, to revise those priorities as circumstances change, and to 
have the time needed to ensure that our regulations are based on sound 
science. Mandates that dictate timelines and the regulatory approach 
impair our ability to provide the public with the best safety 
solutions.
    Mr. Chairman, the Secretary named the Administration's proposal 
``SAFETEA'' for a very good reason. This Subcommittee literally has the 
power to save thousands of lives in the years to come at no cost to the 
consumer. I urge you to support the Administration's SAFETEA proposal, 
and especially to give the states the necessary incentives to pass 
primary belt laws. It is worth repeating that nothing Congress will do 
in this bill will have a greater and a more lasting impact on safety.
    Thank you for your consideration of my views. I will be pleased to 
answer any questions you may have.

    Senator Lott. Thank you very much, Dr. Runge, for your 
testimony, and I will have some questions on the things you did 
talk about, and one or two that maybe you just ran out of time 
and didn't have enough time to comment on.
    Next, we will hear from Annette Sandberg----
    Oh, yes, Senator Stevens does have to leave to attend a 
leadership meeting. Senator Stevens, did you have any comment 
or any questions you'd like to submit for the record at this 
point?
    The Chairman. Well, Mr. Chairman, I do apologize for coming 
in late and being called now to a leadership meeting, but I do 
hope we'll pursue some concepts of incentives to the states to 
increase their safety precautions and requirements for safety.
    My state is one that doesn't have a primary seatbelt law--
safety-belt law, which I regret. Those of us that are pilots 
just automatically get in anything and lock up. You know? It 
is--it becomes second nature. And I'm sad to see that this is 
the case.
    I would urge us to consider giving advantages to those 
states that have records of compliance, in terms of safety 
features, both safety belts and the guardrails, and let them 
have more discretion in how they use their funds, but, at the 
same time, have some basic mandates for use of funds where 
there is no apparent attempt to adopt some of the approaches 
that have, in fact, reduced injuries and deaths on the highway.
    And I want to, particularly, be able to talk to you about--
Members of the Committee--about the increasing problem that Mr. 
Mead has mentioned, in terms of motorcycles. They're a 
wonderful vehicle for enjoyment and seeing the outdoors, but 
the increased accident rate bothers me considerably, and I 
think we have to find some way to stimulate greater safety 
education for those who use motorcycles.
    So, I thank you very much for the hearing. I will have some 
questions I'd like to add for the record, and I apologize to my 
colleagues for speaking up before my turn.
    Senator Lott. And since we are on a tight time schedule, in 
terms of marking up a bill, I would urge the witnesses to 
respond as quickly as possible to these questions from the 
Chairman of the full Committee so that we'll have them when we 
go to mark-up here, in a week or so.
    Senator Pryor, we have already noted that any prepared 
statement you have would be put in the record at the beginning. 
Do you have any question or comment right at this point, or can 
we proceed with the witnesses?
    Senator Pryor. I don't. Thank you.
    Senator Lott. All right. Thank you for being here, Senator 
Pryor.
    Anything further, Senator Inouye?
    Then we are ready to go with Annette Sandberg. Ms. Sandberg 
is Administrator of the Federal Motor Carrier Safety 
Administration.
    Welcome. We'd be glad to hear your testimony.

  STATEMENT OF HON. ANNETTE SANDBERG, ADMINISTRATOR, FEDERAL 
              MOTOR CARRIER SAFETY ADMINISTRATION

    Ms. Sandberg. Thank you, sir.
    Mr. Chairman, Senator Inouye, and Members of the 
Subcommittee, thank you for inviting me today to discuss the 
successes the Federal Motor Carrier Safety Administration has 
had in enhancing safety on our nation's highways, particularly 
as they relate to the safe operation of commercial motor 
vehicles and their operators.
    As Secretary Mineta has said many times, safety is the 
centerpiece of the Administration's reauthorization proposal. 
We are committed to achieving the Department's highway-safety 
goal of reducing the fatality rate in all motor-vehicle crashes 
by 41 percent from 1996 to 2008. And I'm pleased to report that 
the Fiscal Year 2003 commercial motor-vehicle fatality rate of 
2.3 is the lowest recorded since the Department initiated 
tracking in 1975.
    In Fiscal Year 2004, federal and state enforcement 
operations that ensured compliance with the Federal Motor 
Carrier safety regulations included the following: more than 
25,000 new entrance safety audits, over 11,000 safety 
compliance reviews, and nearly three million roadside 
inspections. As a result, our agency initiated more than 5,000 
enforcement cases.
    The Administration's SAFETEA proposal transmitted to 
Congress in 2003, and adjustments this February, proposes 
important advances to our Motor Carrier Safety Program. And I'm 
pleased that items we believe critical for safety continue to 
be addressed by your Subcommittee. However, we ask the 
Subcommittee to address the following issues in our title: the 
codification of the existing hours-of-service rule for 
interstate commercial motor-vehicle drivers, the commercial 
driver's license improvements, the safety and security of the 
southern border, increasing penalties for unscrupulous 
household goods brokers, establishment of the medical program 
and medical registry, and hazardous-materials transportation 
safety.
    With regard to the hours of service, I would like to report 
on the progress we have made since Congress passed the most 
recent TEA-21 extension. I established a dedicated hours-of-
service team that reports directly to me. The team is on track 
to meet the September deadline. However, the new rule, like the 
old rule, will not please everyone. I'm concerned that the 
revised rule will open the agency and the Department to the 
same kinds of legal challenges we've experienced already. These 
challenges keep the industry and others in a constant state of 
uncertainty. And, for this reason, the Administration seeks the 
inclusion of language in the Senate reauthorization bill that 
would make the 2003 rule permanent and allow our agency the 
opportunity to revise the rule in the future, if necessary.
    Another important initiative is the Commercial Driver's 
License Improvement Program. In 2004, the Federal Motor Carrier 
Safety Administration conducted 16 compliance reviews of state 
CDL programs, we strengthened oversight of the annual state 
self-certification CDL programs, and allocated 22 million of 
grant funds in support of states to address compliance, fraud, 
and security issues. We are also partnering with the Office of 
the Inspector General to coordinate CDL fraud investigation by 
providing CDL-specific investigative expertise to state 
agencies, and, where warranted, federal prosecution of criminal 
violations.
    The Administration has requested greater enforcement of 
violations by movers of household goods. The Administration's 
proposal establishes more visible enforcement through increased 
investigations and expanded outreach. Additionally, we seek 
authority for state attorneys general to enforce federal 
household goods regulations against interstate carriers. We 
believe this authority will help reduce abusive practices and 
make sure there is consistency in enforcement across the 
country by having one set of regulations, rather than many 
state regulations.
    Since the beginning of this fiscal year, the agency has 
conducted over 100 investigations, representing three times as 
many as in Fiscal Year 2004. And we are on target to meet our 
annual goal of 300 investigations this year.
    Currently, the agency has 10 full-time safety 
investigators, and we've--devoted, specifically to household 
goods enforcement--and we've trained an additional 37 
investigators to support this effort.
    Another important aspect of our reauthorization proposal is 
the creation of a standing medical review board to provide our 
agency with expert medical advice on driver-qualification 
standards and guidelines, medical-examiner education and 
research, thereby enhancing our ability to adopt medically 
sound and up-to-date regulations.
    In the past, we've assembled expert medical specialists on 
an ad-hoc basis to review the standards and guidelines for 
qualifying truck and bus drivers. Many of the standards that we 
now have in place were adopted in the early 1970s or since 
then. A standing medical review board will greatly enhance our 
ability to adopt regulations that reflect current medical 
advances.
    The Administration is committed to implementing fully the 
NAFTA land transportation provisions. In 2004, the Supreme 
Court ruled in the Administration's favor in a suit which would 
have required preparation of an environmental impact statement 
for the rules. The most recent Inspector General audit for the 
NAFTA implementation released in January of this year stated 
that the Federal Motor Carrier Safety Administration has 
sufficient staff, facilities, equipment, and procedures in 
place to substantially meet the Section 350 provisions for 
Mexican long-haul trucks.
    One of the requirements mandated in Section 350 makes the 
inspection procedures and decal of a nongovernmental 
organization mandatory for Mexican CMVs. In the 
Administration's safety adjustments, we propose that the 
required inspection decal be issued or approved by the 
Secretary of Transportation. We feel that this is an important 
function for which the Federal Government should be 
responsible.
    FMCSA has implemented a comprehensive hazardous-material 
security program to improve the secure transportation of 
hazardous materials on our highways and protect the country 
from the threat of terrorism. The program includes an 
enforcement-compliance component, as well as an outreach 
component. A major element of our HAZMAT security program 
involves a new HAZMAT permit program. Carriers of extremely 
high-hazard materials are required to obtain a permit. This 
permit is contingent upon the carriers developing and 
maintaining a satisfactory security program that meets the 
requirements of the hazardous-materials regulations, and 
includes a communication component for permitted loads.
    Mr. Chairman, I am pleased to report that the FMCSA is 
making steady progress addressing our congressional regulatory 
and reporting requirements. When I began as Administrator, 
there was a tremendous regulatory backlog. During my tenure, in 
the last 2 years, I have reduced this backlog by over 40 
percent. I have met with your staff to update them on our 
progress, and I would ask that any current or future mandated 
rulemakings not be added to your bill. FMCSA needs to be able 
to set rulemaking priorities based on safety and not mandated 
timelines.
    Thank you for inviting me to discuss the Federal Motor 
Carriers Safety Administration's priorities, and I would be 
happy to respond to any questions you may have.
    Thank you.
    [The prepared statement of Ms. Sandberg follows:]

  Prepared Statement of Hon. Annette Sandberg, Administrator, Federal 
                  Motor Carrier Safety Administration

    Chairman Lott, Senator Inouye, and Members of the Subcommittee. 
Thank you for inviting me today to discuss the successes the Federal 
Motor Carrier Safety Administration (FMCSA) has had in enhancing safety 
on our nation's highways, particularly as they relate to the safe 
operation of commercial motor vehicles (CMVs) and their operators. I 
last appeared before this Committee in June 2003, just one month after 
my confirmation hearing. Nearly 2 years later, I am pleased to report 
that CMV safety has greatly improved during my tenure as Administrator.

Federal Motor Carrier Safety Administration Overview
    As Secretary Mineta has said many times, safety is the centerpiece 
of the Administration's Safe, Accountable, Flexible, and Efficient 
Transportation Equity Act (SAFETEA). FMCSA is committed to that goal. 
Our agency was conceived out of the need for stronger CMV safety--it is 
our mandate. More than that, our agency consists of a group of 
dedicated professionals to whom safety is the highest priority. Toward 
that goal, FMCSA is working to reduce the unnecessary loss of life on 
our nation's highways. FMCSA is committed to achieving the Department's 
highway safety goal of reducing the fatality rate in all motor vehicle 
crashes by 41 percent from 1998 to 2008. Our part of that goal is to 
reduce commercial vehicle crash fatalities to 1.65 fatalities per 100 
million miles of truck travel. Achieving our safety goal will be 
challenging, as commercial vehicle miles traveled are increasing at a 
rate faster than that of passenger cars. I am pleased to report that 
the FY 2003 CMV fatality rate of 2.3 is the lowest recorded since the 
Department initiated tracking in 1975.
    Safety improvements like these cannot be accomplished without sound 
programs and adequate enforcement across all levels of government. 
Enforcement is the cornerstone of motor carrier safety. In FY 2004, 
federal and state safety enforcement operations that ensured compliance 
with Federal Motor Carrier Safety Regulations included the following: 
more than 25,000 new entrant safety audits; over 11,000 safety 
compliance reviews; and nearly 3 million roadside inspections. As a 
result, FMCSA initiated more than 5,000 enforcement cases. In 2003, an 
Office of Management and Budget assessment found that FMCSA has 
achieved reductions in the large truck fatality rate in each of the 
past 5 years and is on track to achieve its ambitious long-term safety 
goals.
    The Administration's SAFETEA proposal, transmitted to Congress in 
2003 and updated in adjustments this February, proposes important 
advances to our motor carrier safety program. I am pleased that items 
we believe critical for safety continue to be addressed by your 
Committee. They include: the penalty for denial of access to records, 
increased penalties for out-of-service violations, and safety fitness. 
We have also been working with Committee staff on some of our SAFETEA 
adjustments, specifically patterns of safety violations by motor 
carrier management and intrastate operations of interstate motor 
carriers, and we appreciate their willingness to work with us to 
increase safety in these areas.
    However, in order for FMCSA to fully achieve its safety mission, we 
ask the Committee to address the following issues: the codification of 
the existing hours of service rule for interstate CMV drivers, 
Commercial Driver's License (CDL) improvements, the safety and security 
of the Southern Border, increasing penalties for unscrupulous household 
goods brokers, establishment of the medical review board and medical 
registry, mandatory fuel surcharge, and hazardous materials 
transportation safety.

Hours of Service
    With regard to hours of service, I would like to report on the 
progress made since the most recent extension of the Transportation 
Equity Act for the 21st Century (TEA-21), on September 30, 2004. In the 
Surface Transportation Extension Act of 2004, Part V, Congress provided 
that the current hours-of-service rule will stay in effect until the 
Agency publishes a final rule addressing the factors in the July 2004 
decision of the U.S. Court of Appeals for the District of Columbia 
Circuit, or September 30, 2005, whichever is earlier.
    I established a dedicated hours-of-service task force that reports 
directly to me. This task force consists of some of the most highly 
respected professionals in our agency. Its work has already proved 
exceptional--since its creation the task force has issued its Notice of 
Proposed Rulemaking (NPRM) on the new rule and is on track to meet the 
September deadline. However, the new rule, like the old rule, will not 
please everyone. I am concerned that the revised rule will open the 
Agency and the Department to the same kinds of legal challenges we have 
experienced already. These challenges keep the industry and others in a 
constant state of uncertainty. For this reason, the Administration 
seeks the inclusion of language in the Senate reauthorization bill that 
will make the 2003 rule permanent and allow FMCSA the opportunity to 
revise the rule, if necessary.
    Another issue of concern is the number of proposed exemptions to 
the hours of service rule. The old rule on hours of service contained 
statutory exemptions for various industries. These exemptions have been 
retained in the new rule. New blanket statutory exemptions for various 
industries increase the likelihood that tired drivers will be on the 
roads endangering the driving public.
    Overall, these exemptions compromise safety. They create 
enforcement problems, hamper accurate recordkeeping, encourage other 
industries to seek exemptions, and dilute the objective of providing 
drivers a more regular schedule to coincide with circadian rhythms. As 
Administrator of the Agency, I am charged with fulfilling its mandate 
of improving the safety of these drivers and the traveling public with 
whom they interact. Exemptions to the hours of service rule without 
data and research to support the exemptions hamper the Agency's ability 
to fulfill our safety mission.

CDL Improvement Program
    Another important initiative is the Commercial Driver's License 
improvement program. Critical to the safety and security of the United 
States, the CDL grant program is the latest in a series of efforts by 
our agency to improve and enhance the effectiveness of the CDL program. 
Since implementation of the CDL program in 1986, FMCSA has promulgated 
regulations addressing state compliance with the CDL requirements, 
initiated judicial outreach, expanded state CDL compliance review, and 
most recently developed a CDL anti-fraud program. In 2004, FMCSA 
conducted 16 compliance reviews of state CDL programs, strengthened 
oversight of annual state self-certification of CDL programs and 
allocated $22 million in grant funding for states to address 
compliance, fraud, and security issues.
    Also in 2004, FMCSA organized a working group of motor vehicle 
administrators and law enforcement staff to address anti-fraud 
initiatives. The group has made several recommendations to eventually 
be included in a model law enforcement program for preventing CDL 
fraud. This program, when fully implemented, will establish a framework 
for motor vehicle and law enforcement agencies to work collaboratively 
in addressing CDL fraud.
    FMCSA is also partnering with the Office of Inspector General (OIG) 
to coordinate CDL fraud investigations by providing CDL-specific 
investigative expertise to state agencies, and where warranted, federal 
prosecution for criminal violations. With FMCSA's assistance, the OIG 
is preparing training materials for their field investigators to assist 
in CDL-related investigations.
    Finally, the CDL compliance review program now includes a specific 
anti-fraud component. The agency has included anti-fraud priorities as 
an eligible funding activity for CDL improvement grant funds. Not only 
has FMCSA elevated fraud issues with states during CDL compliance 
reviews and with CDL grant awards but also will continue to emphasize 
fraud awareness training to state law enforcement and motor vehicle 
personnel.

Household Goods Enforcement
    The Administration has requested greater enforcement of violations 
by movers of household goods (HHG). I know that the Chairman and 
Members of this Committee have noticed an increase in consumer 
complaints about household goods carriers. The Administration's 
proposal establishes more visible enforcement through increased 
investigations and expanded outreach. Our efforts seek to increase 
consumer awareness and help citizens make better-informed decisions 
when moving across state lines. Additionally, we seek authority for 
State Attorneys General to enforce federal household goods regulations 
against interstate carriers. We believe this authority will help reduce 
abusive practices and makes sure there is consistency in enforcement 
across the country by having one set of regulations rather than many 
state regulations.
    For FY 2005, FMCSA is conducting strike force activity in states 
where we have seen the highest level of complaints, with a goal of 300 
investigations. These states are Florida, New York, New Jersey, and 
California. Since the beginning of the fiscal year, the Agency has 
conducted over 100 investigations, three times as many as in FY 2004, 
and is on target to meet its annual goal. FMCSA used the $1.3 million 
appropriated to hire federal employees to investigate HHG complaints 
and to conduct concentrated strike force activities, bringing together 
investigators from throughout the country to operate in a specific area 
for a short period of time. Currently, the Agency has 10 full-time 
safety investigators devoted to HHG enforcement and we have trained an 
additional 37 investigators to support this effort. Our agency is 
committed to eradicating this threat to American consumers.

Medical Review Board
    Another important aspect of our reauthorization proposal is the 
creation of a standing medical review board to provide the Agency with 
expert medical advice on driver qualification standards and guidelines, 
medical examiner education, and research, thereby enhancing our ability 
to adopt medically sound and up to date regulations. In the past, we 
have assembled expert medical specialists on an ad hoc basis to review 
the standards and guidelines for qualifying truck and bus drivers. Many 
of the standards in place now were adopted in the 1970s or earlier. A 
standing review board will greatly enhance the Agency's ability to 
adopt regulations that reflect current medical advances. Establishment 
of a medical registry would respond to the National Transportation 
Safety Board (NTSB), which issued eight safety recommendations in 
September 2001, requiring that FMCSA establish comprehensive standards 
for qualifying medical providers and conducting medical qualification 
exams.
    Last Congress, S. 1072 established a medical review board based on 
the Federal Aviation Administration (FAA) model for pilot standards. 
Neither FMCSA nor FAA believes the FAA model to be an appropriate one 
for CMV drivers. The sheer number of drivers and differences in the age 
and health characteristics of the driver population make this model an 
untenable one for FMCSA. The FAA has 6,000 authorized aviation medical 
examiners to perform yearly exams on approximately 270,000 pilots. 
FMCSA estimates that approximately 300,000 medical examiners perform 
exams on approximately 6.4 million CMV drivers on a biennial basis. 
While I appreciate the Committee's inclusion of the medical registry 
provision, I urge the Committee to rework the review board model and 
provide adequate funding to maximize our ability to set appropriate 
medical standards for CMV drivers.

Safety and Security at the Southern Border
    The Administration is committed to implementing fully the North 
American Free Trade Agreement (NAFTA) land transportation provisions. 
In June 2004, the U.S. Supreme Court ruled in the Administration's 
favor in a suit that would have required environmental analyses of the 
rules. The most recent Inspector General audit for NAFTA 
implementation, released in January 2005, stated: ``FMCSA has 
sufficient staff, facilities, equipment and procedures in place to 
substantially meet the eight Section 350 provisions for Mexican long 
haul trucks.''
    In preparation for allowing Mexican carriers beyond the commercial 
zones and in response to the mandates of Section 350 of the FY 2002 DOT 
Appropriations Act, FMCSA has deployed 274 inspectors, auditors, and 
investigators along the border to process these carriers. FMCSA has 
provided funds to the four southern Border States to hire additional 
inspectors and construct inspection facilities. As of December 10, 
2004, 693 Mexican carriers have applied for authority to operate beyond 
the commercial zones. Of the 693 applications, 314 are ready for the 
mandated safety audit.
    One of the requirements in Section 350 of the FY 2002 DOT 
Appropriations Act, which has been adopted in all subsequent DOT 
appropriations acts, makes the inspection procedures and decal of a 
non-governmental organization mandatory for Mexican CMVs. In one of the 
Administration's SAFETEA Adjustments, we propose that the required 
inspection decal be issued or approved by the Secretary of 
Transportation. We feel that this is an important function for which 
the Federal Government should be responsible.

Hazardous Materials Transportation
    FMCSA has implemented a comprehensive Hazardous Materials (HM) 
Security Program to improve the secure transportation of hazardous 
materials on our highways and protect the country from the threat of 
terrorism. The program includes an enforcement/compliance component as 
well as an outreach component.
    A major element of the FMCSA HM Security Program involves FMCSA's 
new HM Permit Program. Carriers of extremely high-hazard materials are 
required to obtain a permit from FMCSA. This permit is contingent upon 
the carrier's developing and maintaining a satisfactory security 
program that meets the requirements of the HM Regulations and includes 
a communication component for permitted loads. FMCSA will validate the 
adequacy of the security plan for 1,200 carriers during FY 2006 using a 
Security Contact Review (SCR). The SCR includes an in-depth assessment 
of the adequacy of a carrier's security plan and its implementation as 
well as security training, communication requirements, and other 
requirements of the HM permit program.

Mandatory Fuel Surcharge
    The Nation has benefited enormously from our economic deregulation 
of the transportation industry. In the last 25 years, the free market 
for motor carrier services in particular has made important 
contributions to the growth and efficiency of our economy and helped to 
sustain its remarkable ability to create new jobs. Although the price 
of diesel fuel has risen sharply in the past few years, the allocation 
of those costs among the buyers and sellers of transportation is best 
accomplished through the working of the marketplace, not by government 
prescription. The mandatory fuel surcharge for truckload transportation 
prescribed by section 4139 of H.R. 3 would insinuate government into 
commercial relationships in a way that is ill-advised and that would 
reverse a quarter-century of U.S. economic policy. For these reasons, 
the Administration strongly urges the members of this Committee, and 
other Senators, not to include language supporting a fuel surcharge in 
its reauthorization bill.

Regulatory Backlog
    Mr. Chairman, I am pleased to report that FMCSA's progress has been 
steady and our future is bright. One aspect of our progress of which I 
am particularly proud is how we have addressed our Congressional 
regulatory and reporting requirements. When I began as Administrator, 
there was a tremendous regulatory backlog. During my tenure, I have 
reduced this backlog by over 40 percent. I have met with your staff to 
update them on our progress. I ask that no mandated rulemakings be 
added to the Committee's bill. FMCSA needs to be able to set rulemaking 
priorities based on safety, not mandated timelines.
Conclusion
    I wish to thank you for inviting me to discuss the achievements 
FMCSA has made toward reducing fatalities and injuries on our nation's 
highways. This reauthorization represents the first opportunity for our 
5-year old agency to step forward, stand on its own, and chart our 
course. I would be happy to respond to any questions you may have.

    Senator Lott. Thank you very much, Ms. Sandberg.
    And, let's see, our last witness today is Ms. Stacey 
Gerard, Acting Assistant Administrator, Chief Safety Officer, 
Pipeline and Hazardous Materials Safety Administration.
    Welcome. We'd be glad to hear your testimony.

        STATEMENT OF STACEY L. GERARD, ACTING ASSISTANT 
       ADMINISTRATOR/CHIEF SAFETY OFFICER, PIPELINE AND 
       HAZARDOUS MATERIALS SAFETY ADMINISTRATION (PHMSA)

    Ms. Gerard. Thank you, Mr. Chairman.
    I am Stacey Gerard, the Acting Assistant Administrator/
Chief Safety Officer, of PHMSA. And thank you for this 
opportunity to discuss our hazardous-materials program.
    This is the first appearance before your Committee as an 
official of this new agency, PHMSA, created by the Norman 
Mineta Act. Our new organization reflects the importance the 
Department puts on improving the safety and security of 
hazardous materials.
    Hazardous materials are essential to our economy and well-
being. Our priority is keeping Americans safe. With more than 3 
billion tons of regulated HAZMAT in transport each year, and 
those amounts on the rise, our focus in on those that pose the 
greatest threat to safety.
    Our hazardous-materials program is focused on four 
principal areas. First, we have comprehensive regulations. 
Second, we help shippers and carriers understand and comply 
with those regulations. Third, we identify and stop those 
persons who do not comply with the regulations. Finally, we 
assist the nation's response community to plan for and respond 
to HAZMAT transportation emergencies.
    Since 9/11, a major focus of the regulatory program has 
been security. In 2003, we required certain shippers and 
carriers to implement security planning, addressing personnel, 
unauthorized access, en-route security, and training. We're 
working with the Federal Railroad Administration and the 
Department of Homeland Security to enhance the security of rail 
shipments. Those materials classified as toxic by inhalation, 
or TIH, pose a special risk in an incident because of the 
greater likelihood of exposing a significant number of people 
to hazards.
    Our regulations provide for domestic and international 
shippers to use largely the same set of standards. This is good 
for safety and commerce. We are currently working to harmonize 
requirements for cylinders and infectious substances.
    We make a priority of helping shippers and carriers know 
and comply with the regulations. In addition to an active 
Website, we take 130 hotline calls every day, plus offering 
hundreds of workshops each year.
    There will always be people who, through ignorance or 
negligence, do not comply with the hazardous-materials 
transportation safety regulations. PHMSA, alone, conducts 1900 
inspections annually; 700 inspections this past year addressed 
adequacy of security plans. We are enforcing against over 40 
percent of companies who did not meet our standards.
    Despite best efforts, accidents will occur, and assisting 
emergency responders is a priority for us. Every 4 years, PHMSA 
and our partners in Canada and Mexico publish an updated 
version of the Emergency Response Guidebook. The ERG, as it is 
commonly known, is hailed as a most valuable emergency 
reference for HAZMAT emergencies. But there is no better 
testament to it than its translation in more than 30 languages.
    We also operate planning and training grants programs to 
assist local responders at HAZMAT incidents. This help is vital 
to our many communities served largely by volunteer emergency 
responders. This help is also useful to communities traversed 
by pipelines.
    You invited me here today specifically to discuss 
reauthorization of the Hazardous Materials Transportation 
Safety Program. We hope that the Committee's proposal will 
reallocate food-transportation responsibilities to the most 
qualified agencies. We hope you will provide civil penalty 
authority for the postal service to help fine and punish 
undeclared HAZMAT shipments in the mail. We hope for 
enhancements to our enforcement program to help us take swift 
action to identify and remove hidden unsafe shipments from 
transportation. We should be permitted to open and examine 
suspect packages. Finally, raising penalties to 100,000 per 
violation is important and needed.
    We do not support proposals to revise the Registration Fee 
Program. Specifically, we are concerned that a cap on the 
maximum annual registration fee may require us to modify our 
current two-level fee structure and impose substantial 
registration increases on small entities.
    Finally, we hope you consider reducing the area of overlap 
between DOT's regulation of HAZMAT transportation and the 
Occupational Safety and Health Administration's regulation of 
worker protection.
    We look forward to working with the Members of this 
Committee and with Congress to enhance the safe and secure 
transportation of hazardous materials.
    Thank you, again, Mr. Chairman, for the opportunity to 
appear and respond to your questions and concerns.
    [The prepared statement of Ms. Gerard follows:]

Prepared Statement of Stacey L. Gerard, Acting Assistant Administrator/
     Chief Safety Officer, Pipeline and Hazardous Materials Safety 
                         Administration (PHMSA)

    Mr. Chairman, I am Stacey L. Gerard, the Acting Assistant 
Administrator/Chief Safety Officer of PHMSA, the Pipeline and Hazardous 
Materials Safety Administration of the Department of Transportation. 
With me is Robert McGuire, PHMSA's Associate Administrator for the 
Office of Hazardous Materials Safety. Thank you for this opportunity to 
discuss with you the Department's ongoing efforts to improve the safe 
and secure transportation of hazardous materials.
    Before I begin, I would like to note an important milestone. This 
is the first appearance of an official of the new Pipeline and 
Hazardous Materials Safety Administration before your Committee. Our 
new organization reflects the Department's longstanding commitment to 
the safety of our Nation's pipeline infrastructure and our continuing 
emphasis on the safety and security of commercial shipments of 
hazardous materials by all modes of transport. The importance of this 
new organization is underscored by the fact that our regulatory 
authority for safety covers 28 percent of the ton freight moved 
annually in the United States.
    PHMSA's Office of Hazardous Materials Safety is responsible for a 
comprehensive, nationwide program designed to protect the Nation from 
the risks to life, health, property, and the environment inherent in 
the commercial transportation of hazardous materials.
    Hazardous materials are essential to the economy of the United 
States and the well-being of its people. Hazardous materials fuel 
automobiles, and heat and cool homes and offices, and are used for 
farming and medical applications and in manufacturing, mining, and 
other industrial processes. More than 3 billion tons of regulated 
hazardous materials--including explosive, poisonous, corrosive, 
flammable, and radioactive materials--are transported in this country 
each year. There are over 800,000 daily shipments of hazardous 
materials moving by plane, train, truck, or vessel in quantities 
ranging from several ounces to many thousands of gallons. These 
shipments frequently move through densely populated or sensitive areas 
where the consequences of an incident could be loss of life or serious 
environmental damage. Our communities, the public, and workers engaged 
in hazardous materials commerce count on these shipments being safe and 
secure.
    Safety continues to be Secretary Mineta's highest priority, and it 
is the first priority for the hazardous materials safety program. 
Overall, the safety record for the transportation of hazardous 
materials is excellent. Over the past 10 years, 221 fatalities were 
caused by incidents involving hazardous materials in transportation, 
and half of those were due to a single event, the Valujet tragedy in 
1996. While every casualty is one too many, in the context of 800,000 
daily shipments, this is a remarkable record.
    Since 9/11, we have moved aggressively to recognize and address 
security issues associated with the commercial transportation of 
hazardous materials. In the wrong hands, hazardous materials could pose 
a significant security threat. Hazardous materials in transportation 
are frequently transported in substantial quantities and are 
potentially vulnerable to sabotage or misuse. Such materials are 
already mobile and are frequently transported in proximity to large 
population centers. Further, security of hazardous materials in the 
transportation environment poses unique challenges as compared to 
security at fixed facilities. Finally, hazardous materials in 
transportation often bear clear identifiers to ensure their safe and 
appropriate handling during transportation and to facilitate 
identification and effective emergency response in the event of an 
accident or release.
    Hazardous materials safety and security are two sides of the same 
coin. Congress legislated its intent that ``hazmat safety [was] to 
include hazmat security'' when it enacted the Homeland Security Act of 
2002. Section 1711 of that act amended the federal hazardous materials 
transportation law to authorize the Secretary of Transportation to 
``prescribe regulations for the safe transportation, including 
security, of hazardous material in intrastate, interstate, and foreign 
commerce'' and to provide that the Hazardous Materials Regulations 
``shall govern safety aspects, including security, of the 
transportation of hazardous material the Secretary considers 
appropriate.'' DOT shares responsibility for hazardous materials 
transportation security with the Department of Homeland Security. The 
two departments consult and coordinate concerning security-related 
hazardous materials transportation requirements to assure that they are 
consistent with the overall security policy goals and objectives 
established by DHS and that the regulated industry is not confronted 
with inconsistent security regulations promulgated by multiple 
agencies.
    PHMSA's hazardous materials transportation safety and security 
program is focused on four principal areas. First, we have in place 
comprehensive regulations for the safe and secure transportation of 
hazardous materials. Second, we help shippers and carriers understand 
the regulations and how to comply with them. Third, we identify those 
persons who refuse or neglect to comply with safety and security 
requirements and stop their illegal activities. Finally, we assist the 
Nation's response community to plan for and respond to hazardous 
materials transportation emergencies. Throughout the remainder of my 
testimony, I will highlight actions we have taken in all of these areas 
to enhance hazardous materials transportation safety and security.
Regulations Development
    The Hazardous Materials Regulations--or HMR--are designed to 
achieve three goals:

    (1) To ensure that hazardous materials are packaged and handled 
safely during transportation;

    (2) To provide effective communication to transportation workers 
and emergency responders of the hazards of the materials being 
transported; and

    (3) To minimize the consequences of an incident should one occur.

    The hazardous material regulatory system is a risk management 
system that is prevention-oriented and focused on identifying a safety 
or security hazard and reducing the probability and quantity of a 
hazardous material release. We collect and analyze data on hazardous 
materials--incidents, regulatory actions, and enforcement activity--to 
determine the safety and security risks associated with the 
transportation of hazardous materials and the best ways to mitigate 
those risks. Under the HMR, hazardous materials are categorized by 
analysis and experience into hazard classes and packing groups based 
upon the risks they present during transportation. The HMR specify 
appropriate packaging and handling requirements for hazardous 
materials, and require a shipper to communicate the material's hazards 
through use of shipping papers, package marking and labeling, and 
vehicle placarding. The HMR also require shippers to provide emergency 
response information applicable to the specific hazard or hazards of 
the material being transported. Finally, the HMR mandate training 
requirements for persons who prepare hazardous materials for shipment 
or who transport hazardous materials in commerce. The HMR also include 
operational requirements applicable to each mode of transportation.
    In 2003, we published a final rule to require shippers and carriers 
of certain highly hazardous materials to develop and implement security 
plans. The security plan must include an assessment of possible 
transportation security risks and appropriate measures to address the 
assessed risks. At a minimum, the security plan must address personnel 
security, unauthorized access, and en route security. For personnel 
security, the plan must include measures to confirm information 
provided by job applicants for positions that involve access to and 
handling of the hazardous materials covered by the plan. For 
unauthorized access, the plan must include measures to address the risk 
that unauthorized persons may gain access to materials or transport 
conveyances being prepared for transportation. For en route security, 
the plan must include measures to address security risks during 
transportation, including shipments stored temporarily en route to 
their destinations. The final rule also included new security awareness 
training requirements for all hazardous materials employees and in-
depth security training requirements for employees of persons required 
to develop and implement security plans.
    We continue to seek ways to assure the security of hazardous 
materials shipments. For example, we are working with DHS to examine 
ways to enhance the security of rail shipments of materials that are 
classified as Toxic by Inhalation (TIH). Under the HMR, TIH materials 
are gases or liquids that are known or presumed on the basis of tests 
to be toxic to humans and to pose a hazard to health in the event of a 
release during transportation. TIH materials play a vital role in our 
society, including purifying water supplies, fertilizing crops, 
providing fundamental components in manufacturing, and fueling the 
Space Shuttle. TIH materials pose special risks during transportation 
because their uncontrolled release can endanger significant numbers of 
people. Because of the importance of ensuring their safe and secure 
transportation, TIH materials are among the most stringently regulated 
hazardous materials. DHS and DOT are examining the feasibility of 
specific security enhancements, including potential costs and benefits. 
Security measures being considered include improvements to security 
plans, modification of methods used to identify shipments, enhanced 
requirements for temporary storage, strengthened tank car integrity, 
and implementation of tracking and communication systems.
    In addition to a new focus on security issues, PHMSA's hazardous 
materials regulatory program has recently finalized regulations in a 
number of important areas. For example, in December 2004, we amended 
the HMR to prohibit the transportation of primary lithium batteries and 
cells as cargo on board passenger aircraft. Primary lithium batteries 
and cells pose an unacceptable fire risk for passenger aircraft.
    Further, we amended the incident reporting requirements in the HMR 
to improve the usefulness of data collected for risk analysis and 
management by government and industry. The new incident reporting 
regulations include a requirement for carriers to report undeclared 
shipments when they are discovered.

International Standards Harmonization
    The continually increasing amount of hazardous materials 
transported in international commerce warrants the harmonization of 
domestic and international transportation requirements to the greatest 
extent possible. Harmonization serves to facilitate international 
transportation while helping to assure the protection of people, 
property, and the environment. The HMR provide that both domestic and 
international shipments of hazardous materials may be offered for 
transportation and transported under provisions of international 
standards applicable to air or vessel transportation of hazardous 
materials or the Canadian hazardous materials standards. In this way, 
carriers are able to train their hazmat employees in a single set of 
requirements for the classification, packaging, communication of 
hazards, handling, stowage, and the like, thereby minimizing the 
possibility of improperly transporting a shipment of hazardous 
materials because of differences in national regulations.
    Basic requirements of the HMR and these international standards are 
based on the United Nations Recommendations on the Transport of 
Dangerous Goods. Indeed, most national and regional regulations, such 
as the European road and rail regulations, are based on the UN 
Recommendations, as are the regulations of some of our largest trading 
partners, including Mexico, Canada, and Japan. DOT represents the 
United States at meetings of international standards-setting 
organizations concerned with the safe transportation of hazardous 
materials with the goal of promoting a uniform, global approach to the 
safe transportation of hazardous materials. Our participation is 
essential to ensure that U.S. interests are considered in the 
development of the standards issued by these organizations.
    We recently completed a rulemaking to harmonize the HMR with 
international standards applicable to the transportation of hazardous 
materials by air and vessel and to the transportation of radioactive 
materials. We are currently engaged in rulemaking to harmonize HMR 
cylinder requirements and requirements applicable to the transportation 
of infectious substances with international requirements.

Outreach and Training
    Developing rigorous safety regulations that protect the public and 
workers engaged in hazardous materials commerce is critical to safe 
transportation. But regulations cannot be effective if shippers and 
carriers do not understand them. Therefore, we invest significant 
resources to help shippers and carriers know the regulatory 
requirements and how to comply with them. Our comprehensive hazardous 
materials website and Hazardous Materials Information System allow easy 
access to vital hazardous materials data and information by industry, 
the public, DOT employees, hazardous materials workers, and federal and 
state agencies. We also operate a toll-free hotline service every day 
from 9:00 a.m. until 5:00 p.m.; the hotline answers over 130 calls per 
day. We hold training workshops, and we develop and provide industry 
and the public with many publications and training modules.
    Since 9/11, PHMSA's hazardous materials outreach and training 
program has devoted substantial time and effort to assisting shippers 
and carriers to comply with the new security plan requirements and to 
generally enhance hazardous materials transportation security. To 
assist hazardous materials shippers and transporters in evaluating 
security risks and implementing measures to reduce those risks, we 
developed a security template for the Risk Management Self-Evaluation 
Framework or RMSEF. RMSEF is a tool we developed through a public 
process to assist regulators, shippers, carriers, and emergency 
response personnel to examine their operations and consider how they 
assess and manage risk. The security template illustrates how risk 
management methodology can be applied to security issues. We also 
developed a Hazardous Materials Transportation Security Awareness 
Training Module directed at law enforcement, industry, and the hazmat 
community. The training module is computer-based, posted on our website 
and is available free of charge on CD-ROM. To date we have distributed 
over 68,000 copies of the training module. In addition, we have 
developed security information, including a sample security plan, to 
assist farmers to comply with security plan requirements. Finally, 
PHMSA's outreach staff has conducted numerous training sessions to 
assist the regulated community to understand and comply with hazardous 
materials transportation security requirements.

Enforcement
    Although training and education are valuable tools for enhancing 
compliance, there will always be people who, through ignorance, 
negligence or as a result of knowing or intentional actions, do not 
comply with the hazardous materials transportation safety regulations. 
Compliance enforcement efforts are thus key to PHMSA's efforts to 
reduce incidents that result from unsafe operations by companies or 
individuals who ship or transport hazardous materials or who 
manufacture or test hazardous materials containers and packagings. 
PHMSA enforcement specialists at our headquarters and five regional 
offices conduct 1,900 inspections annually of hazardous materials 
shippers, freight forwarders, container manufacturers and packaging 
requalifiers. Since the implementation of new security requirements in 
the HMR, our inspectors have conducted nearly 700 inspections in which 
the company was required to have a security plan. To date, 57 percent 
of the companies are in full compliance. We are aggressively enforcing 
against those who are not. Our sister DOT operating administrations--
the Federal Aviation Administration, Federal Motor Carrier Safety 
Administration, and Federal Railroad Administration--together with the 
United States Coast Guard, also conduct modal inspections of shippers 
and carriers. To further leverage our resources, we conduct joint 
inspections with other federal agencies and states.

Emergency Response
    Despite best efforts, accidents will occur. We have a 
responsibility to reduce the consequences of transportation accidents 
involving hazardous materials. Thus, we play a major role in assisting 
the emergency response community to plan for and respond to hazardous 
materials transportation incidents. Every 4 years, PHSMA and our 
partners in Canada and Mexico publish an updated version of the 
Emergency Response Guidebook. We developed the Guidebook for use by 
``first responders''--those public safety personnel first dispatched to 
the scene of a hazardous materials transportation incident, such as 
fire fighters, police, and emergency services personnel. The Guidebook 
provides first responders with a guide for initial actions to be taken 
in those critical first minutes after an incident to protect the public 
and to mitigate potential consequences. The Guidebook has been widely 
hailed as the single most valuable reference for initial response to 
hazardous materials emergencies. We work with our Canadian and Mexican 
partners and with the emergency response community and hazardous 
materials industry to assure its continuing accuracy and utility. To 
date, we have published and distributed over 2.1 million copies of the 
2004 edition of the Guidebook for first responders and others 
responsible for handling hazardous materials transportation emergencies 
in the U.S. The Guidebook is also globally recognized and in addition 
to the English, French and Spanish editions produced by the U.S., 
Canada, and Mexico, it has been translated into Chinese, Dutch, German, 
Hebrew, Hungarian, Japanese, Korean, Polish, Portuguese, Russian, Thai 
and Turkish.
    We also operate a planning and training grants program to assist 
local responders at hazardous materials incidents. The possible 
consequences of a serious incident, even if unlikely, require that all 
communities develop response plans and train emergency services, fire 
and police personnel to assure an effective response. The importance of 
planning and training cannot be overemphasized. To a great extent, we 
are a nation of small towns and rural communities served by largely 
volunteer fire departments. In many instances, communities' response 
resources already are overextended in their efforts to meet routine 
emergency response needs.
    Our Emergency Preparedness Grants program provides assistance to 
states, territories, and Indian tribes, and, through them, to local 
communities. Planning grants are made for developing, improving, and 
implementing emergency plans. Training grants provide for training 
public sector employees to respond to accidents and incidents involving 
hazardous materials. Planning and training grants are funded through 
registration fees paid by the hazardous materials industry. Since the 
program's inception, grantees have developed or updated an average of 
3,759 plans per year with HMEP planning grant funds. Grant program 
funds have been used to train over 1.7 million first responders and to 
compile over 43,000 local hazardous materials response plans.

Hazardous Materials Program Reauthorization
    You invited me here today specifically to discuss reauthorization 
of the hazardous materials transportation safety program. We hope that 
the Committee's proposal will include the proposals submitted in prior 
years by the Administration, as did S. 1072 in the 108th Congress. For 
example, we urge you to consider reallocating responsibilities for 
sanitary food transportation among the Departments of Health and Human 
Services, Agriculture, and Transportation to ensure that each aspect of 
the food transportation safety mission is made the responsibility of 
the most qualified agency. Similarly, to address the problem of 
undeclared hazardous materials shipments in the mail, we support 
measures to provide authority for the United States Postal Service to 
collect civil penalties and recover costs and damages for violations of 
its hazardous materials regulations.
    In addition, we would support revisions to the terms under which 
exemptions from the HMR may be granted. The exemptions program permits 
shippers and carriers to take advantage of new technologies and 
improved business methods by applying for permission to deviate from 
existing regulatory requirements. Applicants for exemptions must 
demonstrate that the new technology or improved way of doing business 
maintains a safety level equivalent to current regulatory requirements. 
The exemptions program provides an opportunity for the testing and 
evaluation of technological improvements in a real-world transportation 
environment. Exemptions that result in demonstrated safety and 
efficiency benefits are frequently converted into regulations of 
general applicability. We suggest a provision to change the term 
``exemption'' to ``special permit;'' we believe that this change 
appropriately conveys that hazardous materials transportation conducted 
under what are now termed exemptions is required to be conducted in 
accordance with the terms and conditions established by PHMSA. In 
addition, revising the effective period for which a renewal of a 
special permit may be issued from two years to four years will 
eliminate a great deal of unnecessary industry and government 
processing time and will enable PHMSA staff to focus attention on 
significant special permit issues rather than routine renewals.
    We hope you will also consider measures to enhance our ability to 
enforce the hazardous materials regulations and to take swift action to 
identify hidden shipments and remove unsafe shipments from 
transportation. Hidden hazardous materials pose a significant threat to 
transportation workers, emergency responders, and the general public. 
Moreover, it is likely that terrorists who seek to use hazardous 
materials to harm Americans will move those materials as hidden 
shipments. Expanding our inspection authority to permit an enforcement 
officer to open and examine packages suspected to contain a hazardous 
material will help us to address the pervasive problem of undeclared 
hazardous materials shipments in transportation. Authorization for 
enforcement officials to remove packages from transportation if the 
package poses an imminent safety hazard or to issue emergency orders to 
stop unsafe practices that present an immediate threat will materially 
enhance our ability to prevent unsafe movements of hazardous materials 
and possible accidents resulting from such unsafe movements. And 
increasing the maximum civil penalty from $27,500 to $100,000 for each 
violation will provide us with the flexibility to assess appropriately 
high civil penalties in cases involving significant non-compliance with 
the regulations and especially those resulting in death, serious 
injury, or significant property or environmental damage.
    We do not support proposals to revise the registration fee program 
that funds the Emergency Preparedness Grants program. Specifically, we 
are concerned that a cap on the maximum annual registration fee, when 
coupled with the significant increase to the grant program being 
considered by both the Senate and the House, may require us to modify 
our current two-level fee structure and impose substantial registration 
fee increases on small entities. We are also concerned that reductions 
in the authorization levels for elements of the grant program may limit 
our ability to administer that program effectively.
    Finally, we request that you consider our proposal to reduce the 
area of overlap between DOT's regulation of hazardous materials 
transportation and the Occupational Safety and Health Administration's 
(OSHA's) regulation of worker protection. The Hazardous Materials 
Transportation Uniform Safety Act of 1990 gave OSHA duplicative 
regulatory authority over hazardous materials training, handling 
criteria, registration, and motor carrier safety. In consultation with 
OHSA, we propose to correct the extent of shared DOT/OSHA jurisdiction 
by eliminating dual jurisdiction over handling criteria, registration, 
and motor carrier safety. DOT and OSHA would retain their respective 
jurisdiction over employee training, and OSHA would retain its 
jurisdiction over the occupational safety or health protection of 
employees responding to a release of hazardous materials.

Conclusion
    We look forward to working with the Members of this committee and 
with Congress to enhance the safe and secure transportation of 
hazardous materials. At the same time, we will continue to evaluate and 
implement additional safety and security measures, and we will continue 
to work with the hazardous material transportation community and our 
federal, state, and local partners to maximize the contribution that 
hazardous materials make to our economy while minimizing their safety 
and security risks.
    Thank you again, Mr. Chairman, for the opportunity to appear today 
and respond to your questions and concerns.

    Senator Lott. Thank you very much, Ms. Gerard.
    I would like to ask some questions. And I'd like to ask my 
colleagues to--let's keep our questions to 5 minutes, and we'll 
do a second and third round, if need be.
    First, Mr. Mead, thank you for the job you do as Inspector 
General of the Department of Transportation. I think you do, in 
that position, what Congress intended when we created it in the 
first place a few years ago.
    Now, let me ask you the big question right up front. In 
your opinion, what could Congress do in this reauthorization 
that would have the most immediate impact on improving safety 
in our highway transportation systems?
    Mr. Mead. I'd have to say a primary seatbelt law. I think 
the best way to approach that is through incentives. And, as I 
said in my statement, I know it's very controversial, but I 
think the helmet laws--they're proven to be effective.
    Senator Lott. What, now?
    Mr. Mead. Motorcycle helmet laws.
    Senator Lott. The law?
    Mr. Mead. And I know they're controversial. I guess it--
people see it as interfering with their personal freedoms, and 
all that. But when you have a 60 percent increase in fatalities 
since 1998, that speaks volumes.
    So those are the two. And household goods, I didn't mention 
that, because that's not really a safety item. Commercial 
driver's license fraud, that's something that we just need to 
be a lot more forceful with. If we can't keep people that get 
licenses fraudulently off the road and stop them from driving 
these big rigs, we're going to be----
    Senator Lott. All right, let me ask you the next question, 
then. What is the status of fully opening the border with 
Mexico to Mexican trucks? And can we do this in a way that is 
efficient and also effective in protecting safety?
    Mr. Mead. Yes, we can. And I think Motor Carriers has their 
resources in place, the equipment in place at the border. In 
other words, they're standing ready. But there are two major 
issues that are stopping the opening of the border. One is 
that, under the law, we have to be able to inspect, onsite in 
Mexico, Mexican trucking companies. And there is no agreement 
with Mexico to do that yet. And No. 2 is, they have to agree on 
HAZMAT background investigations with Mexico. Those two things 
haven't been done. A third item is, I think we ought to have 
all the states where Mexican trucks can operate enforcing the 
rule that if a Mexican truck is there illegally, it gets put 
out of service.
    Senator Lott. This household-goods issue, I know there's 
been a tremendous increase in the complaints filed. And, 
frankly, I'm a little surprised that there are not existing 
laws, state or federal, that would better enforce the rights of 
the consumers that have been, you know, offended by all of 
this. I presume you've had a chance to look at the provisions 
that the House included in their bill. Do you think they are 
basically the type of provisions we need to include in our bill 
to deal with the fraud in this household-goods moving industry?
    Mr. Mead. Yes, sir. I would add that there is a provision 
in there on putting them out of business for a 6-month period. 
You might extend that period. Second, the period of 
imprisonment, normally for an extortion-type crime the per-
count maximum is more than just 2 years. The other thing of key 
importance here is that the state attorney generals need to be 
empowered to enforce the Federal regulatory regime.
    Senator Lott. Dr. Runge, on the primary safety--seatbelt 
issue, you know, they're--my state, unfortunately, has the 
lowest usage in the Nation--63 percent, I think. And I think 
that there's no question that there's evidence that it does 
help to save lives and reduce the injuries, although, you know, 
Senator Stevens and I, and maybe some of the other Members of 
the Committee, come from states that really don't like the idea 
of the Federal Government telling us we've got to wear 
seatbelts, we've got to wear helmets. It's--I don't know what--
just, sort of, ``We don't like the Federal Government doing 
that,'' sort of a--maybe a libertarian attitude, although I 
think that the attitude has been improving some. And I think 
part of what we need to do is a better job of education.
    Now, the Senate in my state did pass a primary safety-belt 
law, 45 to 7, which was overwhelming, but, unfortunately, in 
the House, the bill was opposed by the Speaker, and the 
Transportation Committee Chairman did not see fit, at the time, 
to go forward, although an incentive of $9 million, in my poor 
state, is not insignificant. I've always been opposed to safety 
requirements that penalize states, ``Do something we tell you, 
or we're going to take money away from you.'' But you flip 
that--and I think Mr. Mead referred to that--if you give them 
an incentive, ``You do a better job, and, you know, then you'll 
get some reward in that area.'' So, that is what you're 
proposing here, isn't it, what the Administration is proposing, 
that you specify that if you do have these primary safety-belt 
laws, or if you meet certain standards on improved safety 
results or reduced fatalities, you get the incentives? Is that 
accurate?
    Dr. Runge. Yes, sir, that's precisely our vision. And with 
this incentive, we really wanted to make it a significant 
incentive. We wanted to make it real money. I've been out and 
testifying at the invitation of several state legislatures, and 
I can tell you that the opportunity to gain extra funds to 
apply for any highway safety purpose really does represent a 
true incentive. Mississippi, 9 million. Missouri has one on the 
table right now; it's about 18 million. Tennessee passed their 
bill last year, 16 million. Illinois passed their bill the year 
before; that would be 31 million in incentives. So it does make 
a difference, sir.
    Senator Lott. All right. What percent of the safety funds 
would have the flexibility that you referred to? For instance, 
I think the best safety program of all is one that builds safer 
bridges and wider highways and flatter roads. That's what led 
to my own father's death on the highway--narrow, hilly, two-
lane road, and he topped the hill and got hit head-on. So 
that's the ultimate safety, you know, incentive. What is that 
percentage that you're--did you have one in mind?
    Dr. Runge. Well, we proposed $600 million over the life of 
the bill, which is about two-tenths of 1 percent, for the 
primary belt incentives, and there are other incentive 
programs----
    Senator Lott. You mentioned a specific percentage--or you 
suggested a percentage--that could be used for other than pure, 
traditional safety measures, like----
    Dr. Runge. That's correct.
    Senator Lott.--bridges.
    Dr. Runge. Yes, all of those funds would be flexible. Now, 
I--there's a small caveat to that, and that is that we ask 
every state to do a comprehensive analysis of its safety 
problems using their own data. So what's a safety problem in 
Alaska is very different from what it is in Mississippi or 
South Carolina, so we want every state to apply their own 
traffic safety data to find out where their problems are. If 
it's a hotspot, if it's a dead-man's curve, if it's a bad hill 
and a narrow road, that's hazard mitigation that those funds 
could be used for. If a state has a problem--particular problem 
with impaired driving, then those funds can be used for that. 
It really depends on what the Governor and the Department of 
Transportation and the Governor's Highway Safety Office decide 
are their problems, and those funds then would be flexed to 
meet those problems.
    Senator Lott. Well, let me just ask you one other area. You 
did not address another area that is a serious contributor to 
traffic fatalities, injuries, and deaths--and that's drunk 
driving. What are we going to do about that?
    Dr. Runge. Well, that was--since I had 5 minutes----
    Senator Lott. Yeah.
    Dr. Runge.--Senator----
    Senator Lott. Well, I've already used up my 5 minutes, too, 
and I----
    [Laughter.]
    Senator Lott. My colleagues are allowing me to go a little 
bit over time. And we'll be flexible now that----
    Dr. Runge. Thank you.
    Senator Lott.--we've got your testimony on record.
    Dr. Runge. We have actually effected the first decrease in 
impaired-driving fatalities in 5 years, and the largest 
decrease in the impaired-driving fatality rate in a decade. 
Now, that's not a victory, because we're still losing over 
17,000 people a year to alcohol impairment; 15,000 of those 
have blood-alcohols over .08, and 50 percent of those drivers 
involved in those crashes have blood alcohols greater than .16. 
So, we realize that we're not dealing with social indiscretions 
here; we're dealing with people who have substantive medical 
alcohol problems.
    And we have taken a four-point strategy to deal with that. 
We're working with--in the states--one is continued high 
visibility enforcement, so--to keep people who are socially 
responsible being responsible. And that has led to a pretty 
rapid decrease in the numbers of drivers with low blood-alcohol 
levels involved in fatal crashes. That's the good news.
    The second one was that we're working with the court 
systems. We're trying to get DWI courts into the jurisdictions 
across the country that have the biggest problems with 
impaired-driving crashes. And we have resource prosecutors now. 
We're working to have resource prosecutors in every state who 
will help prosecutors with this very complex law.
    The third point is working with the medical community to 
actually do screening and referral for alcohol problems on 
every patient that they see, asking a simple question, ``How 
many drinks do you drink when you sit down to have some 
drinks?'' And, surprisingly, the folks at NIAAA tell us that's 
a pretty reliable indicator of people with alcohol problems. If 
you drink four or more drinks at a sitting, then you probably 
ought to get an evaluation.
    Now--and, actually, the fourth point here, the thing that 
has made probably the biggest decrease in an impaired-driving, 
overall--impaired-driving deaths, overall--is increased safety-
belt use. And we enjoyed an 80 percent belt-use rate last year, 
and I have to admit that a lot of our--there's some spillover 
effect into impaired driving when potential victims are buckled 
up.
    So, that's our strategy.
    Senator Lott. Thank you.
    Senator Inouye, thank you for your patience, and feel free 
to take whatever time you need, sir.
    Senator Inouye. I thank you very much, Mr. Chairman. I can 
only stay for a moment, but I'd like to ask some general 
questions, and they can respond.
    I'd like to ask the panel, What is the appropriate level of 
funding for the Motor Carrier Safety Assistance Program and for 
border-safety enforcement? So whoever can answer that can 
submit that in writing.
    Ms. Sandberg?
    Ms. Sandberg. Yes. Senator, the current levels that we have 
for the Motor Carrier Safety Assistance Program is authorized--
or outlined in the Administration's SAFETEA proposal--are 
adequate for that program. That includes a number of functions 
beyond the basic MCSAP levels. As you know, the basic MCSAP 
formula is a formula that denotes how much goes to each state 
for the Motor Carrier Safety Assistance Program. Those amounts 
for 2006, for example, would be about 134 million. However, if 
you look at the total rolling up, the commercial driver's 
license programs, the high-priority funding that we request, 
and some of those others, it approaches to 180 million for 
those programs.
    Senator Inouye. Thank you. I listened very carefully to the 
response to our Chairman on the primary safety-belt law bonus. 
Hawaii has had one for 19 years now, and, under this provision, 
we get nothing, because we have been behaving ourselves. But--
--
    [Laughter.]
    Senator Inouye.--if you have not, you receive a bonus. Is 
that fair?
    Dr. Runge. Actually, Senator Inouye, thanks for raising 
that issue. Hawaii would, under our proposal, receive $1.9 
million for being the servant first to the field. The 
difference in our proposal is that--in that we only have a 
given amount of money in this pot, we wanted to make sure that 
the servants who we really need to come late to the field are 
adequately incentivized to do so. So we set a number of five 
times their Formula 402 Fund to actually be a real incentive. 
But recognizing that we wanted, also, to reward states that 
did, in fact, make those gains, we set a number of 2.5 times.
    Now, obviously, we would love to work with the Committee to 
address those inequities, and I think it really is an inequity, 
the parable notwithstanding. But there is only a certain amount 
of money, and we want to make sure that states who have not yet 
come are adequately incentivized.
    And, by the way, congratulations to Hawaii. You've been 
leading the Nation in belt use now for several years, with 
about 95 percent.
    Senator Inouye. Thank you very much.
    I listened to testimony that Mexico has refused to let us 
examine trucks on their property. Do we permit those trucks to 
come in?
    Mr. Mead. No. But you actually asked two questions. The 
answer to the first one is, there has been no agreement with 
Mexico relative to letting U.S. officials inspect onsite in 
Mexico. The answer to the second question is, no, because that 
allowing us to do that is a precondition to the opening of the 
border to the interior United States, not to the border zone, 
right around the border. Trucks can go there now.
    Senator Inouye. Now, they get into the border zone, and 
you've indicated that hundreds go beyond that.
    Mr. Mead. Yes, they can go beyond that. I used to think, 
Senator, that there was some kind of fence around these 
commercial zones, but there isn't. They can just keep on going. 
And they do. And the point I was making in my statement was 
that we ought to have a law in every state that you can't do 
that, and if you're caught doing it, your truck's going to be 
put out of service immediately.
    Senator Inouye. How successful have you been?
    Mr. Mead. Actually, there's been quite a bit of progress in 
the last few years, but there are still five states that have 
not adopted that rule, and 10 of 14 that we reviewed, who 
adopted the rule, were not prepared to place vehicles out of 
service. There's some confusion out there, and I think that 
needs to be cleared up.
    Senator Inouye. Have the border states adopted rules of 
that nature?
    Mr. Mead. Yes, I believe so.
    Senator Inouye. Sir, you indicated that there were 2,000 
moving companies involved in fraudulent activities?
    Mr. Mead. No, I said that we've--my office has 
individually, on its own, prosecuted 25 of them involving 8,000 
victims. Almost every day----
    Senator Inouye. Are these fly-by-nights or nationally-known 
companies?
    Mr. Mead. Fly by-nights. What happens sometimes, the 
consumer will call up one of the more well-established firms, 
get a quote, ``It's going to cost you $6,000, sir, to make this 
move.'' They go out and get another estimate. One of the 
estimates comes from a fly-by-night firm. They say, ``We'll do 
your--we'll make the move for $1700.'' They say, ``That sounds 
good to me.'' They sign on the dotted line. The moving company 
comes and gets their goods, and then, when you get to your 
destination, they say, ``You want your goods, that move just 
cost you $12,000.''
    Ms. Sandberg. Senator, if I may, also one of the provisions 
that we've requested in the reauthorization proposal is to 
strengthen enforcement on household-goods brokers, because 
people will hold themselves out as a broker, and then they're 
not going to be the one that actually shows up to do the move, 
and so there's this kind of bait-and-switch that occurs. So it 
gives us the ability to go after those individuals that 
actually fraudulently hold out some kind of a price to the 
individual, and then they're not the ones that actually move 
them.
    Senator Inouye. Do these movers have special licenses to do 
so?
    Ms. Sandberg. If they're moving in interstate commerce, 
they are required to register with our agency and follow all of 
our rules and regulations.
    Senator Inouye. Then these fly-by-nights have no license.
    Ms. Sandberg. Some of them do register with us, and that's 
why we are going after them. If they haven't registered with 
us, we also go after them if they're moving in interstate 
commerce.
    Senator Inouye. What is the appropriate hours of operation 
for a truck driver, or service for a truck--12 hours, 18 hours, 
6 hours?
    Ms. Sandberg. Our current rule, sir, is that truck drivers 
would have a 14-hour workday, which is an on-duty period. Of 
that 14 hours, they're allowed to drive up to 11 hours. And 
then the requirement is, is that, after their 14 hours hits, 
they're required to take 10 hours off duty.
    The objective of the rule was to get the truck drivers onto 
a regular 24-hour cycle so that there's more a Circadian 
rhythm. Under the old rule, truck drivers could expand their 
workday infinitely, based on taking off-duty breaks throughout 
the day, as they called it off duty. But, oftentimes, they were 
sitting at loading docks. So our new rule now requires that 
those 14 hours be 14 consecutive hours, and they're allowed to 
drive 11 within that.
    Senator Inouye. Does medical research support that one can 
drive for 11 hours safely?
    Ms. Sandberg. The research that we had when we wrote the 
rule would indicate that drivers can safely drive within that 
period of time.
    Senator Inouye. Something must be wrong with me.
    [Laughter.]
    Senator Inouye. We hear much about teenagers. And there are 
certain areas that suggest that you shouldn't have more than 
one teenager in a car. And that a teenager should have an adult 
in the car. What about that? Should we have that in the law?
    Dr. Runge. Senator, the most important thing--there are 
actually two very, very important things we can do to help curb 
teen driving deaths in this country. About over 8,000 people 
were killed last year involving a teen driver. There is a very 
effective method, as you suggest, called ``graduated licensing 
laws.'' And the two things that we know from very good data are 
that fatalities go up as you add teenagers to the vehicle of an 
inexperienced driver. There's about a 25 percent higher 
fatality rate for teens that have one teen passenger. And if 
you add three or more, it goes up 400 percent.
    Also, nighttime driving restrictions are very effective. If 
you look at the graduated licensing laws in North Carolina and 
Michigan, for instance, they had a 25 percent decrease in 
crashes among teens after their graduated licensing law was put 
into effect. I believe Kentucky saw a 33 percent decrease. So 
if you have nighttime driving restrictions, and teen passenger 
restrictions, as well as a sufficient period of supervised 
driving that is with a parent, not just a driver's ed teacher, 
then we believe that's a very effective way to go.
    Senator Inouye. So you've indicated that we know what the 
problem is.
    Dr. Runge. We know what some of the problem is. And, 
actually----
    Senator Inouye. Do you have any solutions, legislative 
solutions, that we can get involved in?
    Dr. Runge. That's a very good question. We were very much 
trying to focus our grant programs and our incentive programs 
in this bill toward the biggest pieces of the pie chart. This 
is an area that states really don't disagree with much. I mean, 
if you read the clips, you do see certain state legislators who 
complain that they want their 16-year-old to be able to 
transport all their other children to school, which is the 
worst possible practice. People will advocate for bad 
practices, but the states, themselves, I think know that 
graduated licensing is effective. And I just--I question 
whether or not we need another incentive from Congress for that 
purpose. Certainly, if you state a preference for that in 
SAFETEA, that would be welcomed by us.
    Senator Inouye. I thank you very much.
    Thank you, Mr. Chairman.
    Senator Lott. Thank you, Senator Inouye. And I look forward 
to continuing to work with you to get this language drafted in 
a way that we can all be supportive and that can give these 
people the authority they need to do their job.
    Senator Pryor?

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman. And I want to thank 
you for your leadership on this, and the questions that you've 
asked. I'd like to follow up on moving fraud.
    Back when I was the attorney general of my state, we would 
get complaints on this fairly regularly. Sometimes we could do 
something to help, and sometimes we couldn't. In fact, when 
this issue came up in preparation for this hearing, we were 
talking to our staff, and this has happened to three members on 
our staff, just moving to and from DC, in fact, in one case a 
couple got held hostage for bubble-wrap. The company didn't 
disclose this, but they charged them $1500 for bubble-wrap. And 
so, this is a problem that we see, and it recurs.
    And I think that one issue, and I think you all touched on 
this a moment ago, is that this area really is like a 
regulatory orphan. There's really not anyone who's really on 
top of this issue. And you all mentioned, a few moments ago, 
about how we could maybe help with these rogue movers. And I 
believe it was you, Ms. Sandberg, who talked about making sure 
the states have an active role in this. I'd like to hear from 
you on how that should be shaped. How should we structure that, 
for example, the state attorneys general would have the ability 
to enforce federal law?
    Ms. Sandberg. We have been working with the National 
Association of Attorneys General to figure out how best to do 
that. Some of what we've been doing--most attorney generals' 
offices in this country have a consumer-protection division.
    Senator Pryor. Right.
    Ms. Sandberg. And so, we're focusing on those consumer-
protection divisions as a way to enforce.
    But we feel that the most important rule--because this is a 
bit of an orphan. We're a safety agency. This is something we 
inherited when the ICC Termination Act occurred, and it's the 
one financial regulation we still have, but we take it 
seriously. We think that consumer education is probably one of 
the most important things we can do. And we're working with 
state attorneys general's officers across the country to 
educate consumers in how they can be better informed before 
they engage a mover.
    So, for example, one of the most frequent fraudulent things 
that we're seeing occurring right now is, people go onto the 
Internet--seems to be a big tool that everybody wants to use--
and there are places where you can go in and get a rate quote 
from a mover. That's the absolute worst thing somebody could 
do, because the only way a mover can really tell you what it's 
going to cost to move your goods is to come out to your house, 
look at the size of your house, look at how many household 
goods you actually have, and give you a quote in person.
    And so, there are a number of things like that that we're 
doing to educate consumers. We actually just had an increase in 
funding last year to do more consumer outreach. We're putting 
some new websites up specifically for household-goods 
consumers.
    And then the second piece is a piece that we request that 
you put in your reauthorization proposal, which gives state 
attorneys general the opportunity to enforce our federal 
regulations.
    Senator Lott. Could I inquire?
    Senator Pryor. Sure.
    Senator Lott. Is that in the Administration proposal, that 
last part?
    Ms. Sandberg. The authority to enforce?
    Senator Lott. Yes.
    Ms. Sandberg. Yes, it is.
    Senator Lott. For the attorneys general.
    Ms. Sandberg. Yes.
    Senator Lott. OK, good.
    Mr. Mead. Yes, I think--I'd like to add to that--I think 
that--you asked about structuring it--I think that actually it 
is an orphan left over from the Interstate Commerce Commission. 
Back then, consumers had a place to go, and their complaints 
could get individually handled.
    But one way of structuring it would be similar to the way 
the Motor Carrier Program currently runs commercial driver's 
licenses. States enforce those, and they pull the licenses. 
Although I think the concern of the moving companies would be 
that every state shouldn't be authorized to come up with an 
individual rule regime of its own. You'd want some 
standardization, I would think.
    Senator Pryor. Senator Lott, my guess is this is like most 
other industries we'd see in the consumer protection division 
in my office back in Arkansas. That would be that 95 to 99 
percent of the operators out there are totally legit, they're 
playing by the rules, and they're doing exactly what they're 
supposed to do. But it's the 1 percent, 2 percent, 3 percent 
that do not play by the rules. I mean, we don't know the exact 
number. But they're out there, and some of these people are 
just absolutely ripping folks off. And so, yeah, I want to work 
with the Committee, and I want to work with you on this, and 
make sure that we get the right structure in this bill. It 
sounds like we may have it already.
    As I understand it, the Federal Motor Carrier Safety 
Administration only has about 10 inspectors. Is that right? And 
that's an increase, as I understand it, but, still, you only 
have about 10.
    Ms. Sandberg. Yes.
    Senator Pryor. And my guess is that's not nearly enough. Am 
I right on that?
    Ms. Sandberg. What we've done is, we had one, as the 
Inspector General said. We've asked for increase in funding 
that went up to 10 full-time. And we actually trained 37 
additional safety investigators. So it's kind of ancillary 
duties, but they assist us with our strike-force activities.
    Right now, we're focusing a majority of our activities in 
four states where we receive the most complaints and had the 
most problems. Those states are California, New York, New 
Jersey, and Florida. But we do, as complaints come in--we have 
a new triage protocol inside FMCSA, and this has just been put 
in place since I've been there. We take complaints into a 
master database. If it's one instance of a hostage-goods, where 
the instance, like the Inspector General commented, we actually 
will then work with the Inspector General's Office, state law 
enforcement--because, oftentimes, state law enforcement wants 
to get involved--and the attorney general's office from that 
state to go after that company. Then we also look for patterns 
of violations from other companies. And those are the cases 
that I was talking about in my testimony, the 100 cases that 
we've already done this year, and we anticipate we will have 
over 300 cases that we will have gone after, this year alone, 
which is a significant increase, because last year we did maybe 
30.
    Senator Pryor. Good.
    Mr. Mead. Yes, I'll tell you, you know, it's a good thing 
they gave them--you gave them 10 people and they fixed their 
phone line up. Until a year ago, you'd call--a consumer would 
call up to complain that they were ripped off, and it would 
say--the recording would say, ``Sorry, the mailbox is full.''
    Senator Pryor. Yes.
    Let me ask you, Mr. Inspector General, if I can, how many 
complaints do they get every year? About 3,000? Am I correct on 
that?
    Mr. Mead. I've got a list here----
    Senator Pryor. You know, 300 is a lot of prosecutions you 
talk about, but about----
    Mr. Mead. Well, we get one about--we have an inspector 
general hotline.
    Senator Pryor. Right.
    Mr. Mead. We get one, I'm advised, about once every day.
    Senator Pryor. OK.
    Mr. Mead. In 2001, Motor Carriers--the Motor Carriers--Ms. 
Sandberg was--her office received about 2,000. In 2002, about 
the same number. In 2003, it went up to about 3,000. In 2004, 
it went up to 3,600.
    Senator Pryor. Do you think the incidents are increasing, 
or just the complaints you're receiving are increasing?
    Mr. Mead. I think it's becoming an increasing problem. 
And----
    Senator Pryor. That's my guess, too.
    Mr. Mead.--my office has about 450 people in it. My 
office--we can pursue criminal sanctions, although it's a very 
contorted process, because we're using other statutory schemes, 
other than one directly tailored to this. And I don't think 
that the civil enforcement regime that Administrator Sandberg 
was referring to has--is robust enough, powerful enough, at the 
present time.
    Senator Pryor. Thank you, Mr. Chairman. I look forward to 
working with you on this, because I think this is an important 
problem.
    Senator Lott. Thank you, Senator Pryor.
    Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Yes, Mr. Chairman, I'm going to take 
some of my time to just introduce part of the statement that I 
was prepared to give. And I would ask unanimous consent that 
the full statement be included in the record and that the 
record be kept open in order to pose questions in writing----
    Senator Lott. Without objection----
    Senator Lautenberg.--and ask for a prompt response.
    Senator Lott.--it will be included in its entirety, and the 
record will be kept open for any questions you may want to 
submit, beyond what you ask.
    [The prepared statement of Senator Lautenberg follows:]

Prepared Statement of Frank R. Lautenberg, U.S. Senator from New Jersey
    Mr. Chairman,
    It's been more than a year and a half since TEA-21 expired, and we 
still don't have a long-term blueprint for transportation. Every day 
that has gone by, millions of Americans have sat stuck in traffic . . . 
and thousands have been involved in accidents. Since TEA-21 expired. 
much-needed new roads have not been built, and important safety 
measures have not been implemented.
    My interest in making our roads and highways safer goes back 
several decades. During my first three terms in the Senate, I wrote the 
bills to increase the drinking age from 18 to 21 . . . establish .08 as 
the blood alcohol standard for drunk driving . . . and ban triple-
trailer trucks from the Interstate Highway System.
    I'm proud that all three of these measures became law.
    They have made our roads and highways safer for my grandchildren 
and everyone else who travels on our roads and highways. And according 
to safety experts, these laws have saved thousands of lives.
    In 2003, 42,643 people died in traffic crashes. While great 
progress has been made to reduce the epidemic levels of death on our 
roads since the 1970s and 1980s, the raw numbers of victims continues 
to increase each year.
    As our country grows and more drivers use our roads, fatalities 
will continue to increase--unless we adopt effective strategies to 
address highway safety risks. We must continue our efforts to prevent 
drunk driving. Each year, some 17 thousand people die in alcohol-
related crashes--one death every 31 minutes. Most of these deaths 
involve a higher-risk drunk driver--that is, one who is a repeat 
offender or above the .15 blood alcohol threshold, which is almost 
twice the legal limit.
    Senator DeWine and I will soon re-introduce our bill to crack down 
on higher-risk drunk drivers. Now that all states have a .08 blood 
alcohol law in place, and social drinkers have done their part, we must 
adequately address the problems posed by higher-risk drivers. They are 
responsible for most of the deaths; they should be held accountable, 
and dealt with effectively.
    We also must deal with the increase of truck traffic on our roads. 
While large trucks have a fairly good safety record with respect to the 
numbers of miles they travel, 1 in 8 fatalities on our roads involved a 
large truck.
    Now the Administration expects truck traffic to double in the next 
15 years. New Jersey will see a good share of that growth, as traffic 
to the port of New York and New Jersey continues to increase. While we 
welcome the economic growth this traffic represents, it also raises the 
potential for deadly highway crashes. This underscores the need for 
effective truck safety strategies.
    One strategy is to stem the growth of truck size and weight. In 
1991, Congress banned triple-trailer trucks. And in 2003, this 
Committee voted to extend that ban to the National Highway System 
roads--keeping more of our roads safer and freezing in place current 
state truck length limits. I hope Members of the Committee will see the 
wisdom of again voting for safety.
    I look forward to working with colleagues to get these important 
highway safety provisions incorporated into the reauthorization bill.
    And I look forward to hearing from the witnesses today on these 
important issues and others--including important consumer protections 
in the movement of household goods, and hazardous materials regulation.
    Thank you, Mr. Chairman.

    Senator Lautenberg. Thank you.
    We're looking at the need to prepare for substantially more 
traffic on our roads. And, Mr. Chairman, I commend you for 
trying to move this process along. We need that highway bill, 
desperately, and the transportation resources that it produces.
    I want to talk about safety, my interest in making our 
roads and highways safer goes back several decades. And during 
my first three terms, before I was a freshman, I wrote bills to 
increase the drinking age from 18 to 21. Purportedly, we save 
almost a thousand lives a year doing that.
    As an example of what I experienced, I was at a rodeo in a 
western state, and a lot of young people there were drinking 
beer and walking around with it. And I walked up to a police 
officer, and I said, ``Well, sir, do you know what the minimum 
drinking age is?'' And he, ``Yes, sir. It's 21.'' I said, 
``These kids don't look like they're 21.'' He said, ``I do 
traffic, Mister, that's my job.''
    [Laughter.]
    Senator Lautenberg. Anyway, it tells you something about 
what could happen by way of lifesaving if we could get more 
teeth into the enforcement of that law.
    We established .08 as a blood-alcohol standard for drunk 
driving, and it was a tough job. But, Dr. Runge, you made 
mention of the fact that the standards for the chronic problem 
drinkers have to be dealt with. And we have legislation that 
we're going to be introducing very shortly to try and get that 
into place.
    And part of what I have also done is to ban triple-trailer 
trucks from the interstate highway system.
    And I'm proud that all three of these measures became law. 
One law that I wrote, in that period of time, was to put 
helmets on motorcycle riders. And, Mr. Mead, you and I have had 
many moments when we've sat across tables some distance from 
one another, like this, and I looked at your testimony and saw 
confirmation of the fact that when those helmets are on there's 
a substantial ability to save lives. And based on what you've 
said here, it's about 30 percent; in 2003, 3,661 motorcyclists 
died, and approximately 67,000 injured in a highway crash. 
NHTSA estimates that the helmets saved the lives of 1,158; 
approximately 30 percent of those that would have died, didn't, 
thank goodness, because they were wearing helmets. And, Mr. 
Chairman, I have great respect for you, and how independent 
people like to be of Big Brother Government. When I think of 
the simple thing of raising the drinking age from 18 to 21, two 
of my kids, who were in college at the time, they said, ``Dad, 
you're a real spoiler.'' And friends of mine who used to smoke, 
when we wrote the No Smoking in Airplanes legislation, said, 
``What am I supposed to do? Why are my rights being infringed 
upon?'' Well, red lights infringe upon people's rights. And you 
have to have laws to conduct an orderly society.
    And so, I think that it's critical that we address these 
problems, as you are today, Mr. Chairman. In 2003, 42,000 
people died in traffic crashes. Now, that's a static number 
over the years, even though, the population has grown; thusly, 
the percentage is smaller. But 42,000 people in one year, 
that's a lot of people to lose. We lost 58,000 in Vietnam over 
a 10-year period. The county was heartbroken. And while great 
progress has been made to reduce the epidemic levels of death 
on our roads, the raw numbers continue to increase.
    And so, Mr. Chairman, we've got to continue doing what 
you're doing here today. And I commend this excellent panel, we 
have here to provide us with the information and let us figure 
out what the political fallout's going to be, but help us to do 
the job in improving road safety throughout our country. It's 
not a real tough job.
    So, I thank you, Mr. Chairman.
    Senator Lott. Thank you, Senator Lautenberg.
    Ms. Sandberg, let me come back to you and talk a little bit 
more about this--the Department's hours-of-service rule. That 
ruling was stricken down by a court. What was the basis for 
their ruling? What did they say the reason was why they struck 
it down?
    Ms. Sandberg. The reason that the court struck down the 
rule was, they said that we did not adequately address the 
driver-health issue. They basically----
    Senator Lott. Driver health?
    Ms. Sandberg. That's correct. There's a underlying statute 
that says that Motor Carrier, when we look at our regulations, 
need to consider driver health. The agencies always looked at 
driver health in a very--kind of more macro level. The court 
said we needed to look at it more micro. For example, in the 
past, we looked at our rules impacting driver health as if it 
created death or serious injury. The court said we needed to 
look at more specific things, such as, Did it increase 
hypertension? Did it increase back injuries?
    Senator Lott. So the court actually said you should--you 
didn't go far enough.
    Ms. Sandberg. That's correct.
    Senator Lott. Yes. Now, though, you are asking the Congress 
to ratify the rule that you had developed. Is that correct?
    Ms. Sandberg. That is correct.
    Senator Lott. OK.
    What is the status of the large-truck causation study? And 
what are the study's primary--preliminary findings?
    Ms. Sandberg. The large-truck crash causation study, we 
completed collecting all the crashes last year, and that's 
actually a partnership project with us and the National Highway 
Traffic Safety Administration. We're getting ready to release 
the first large group of data sets from that study, in May of 
this year. Once those individual data sets are released, then 
we will work with various panels to look at specific segments.
    I can tell you, overarchingly, in seeing some of the data, 
that it appears that the driver is a primary issue that we need 
to focus on in the future.
    Senator Lott. I don't want to overdo the household-goods 
enforcement area. I think that Senator Pryor made a good point. 
The bigger, more traditional carriers, most of the carriers, do 
a very credible and reputable job. However, when you have 
examples like with--that you refer to and what he referred to, 
the extra cost for the bubble-wrapping or, you know, jacking up 
the--that's outrageous. And it's--you know, you can't tolerate 
that. But it sounds like there's a little--there's a gap here, 
and I'm not sure we yet have figured out exactly how we're 
going to be able to fix that problem.
    You have a limited number of people that are working on it. 
You try to work in your office, Mr. Mead, to resolve these 
complaints. But where is the enforcement, and what is the 
enforcement? Are we saying that, ``Well, the attorneys general 
are going to handle this? '' Well, I do think that the 
companies that--reputable companies have a response to that, a 
complaint about that, ``Good gravy, we're going to have to 
comply with 50 different sets of regulations? '' We need some 
sort of a universal--you know, it just sounds like there's no 
clear place where you go to get a remedy. And yet some of this 
stuff, where they say, ``OK, we're going to charge you 
$1,700,'' then they say, ``Oh, no, it's going to be 10,000,'' 
you know, somebody ought to be able to call them up and say, 
``No, you're not going to do that, period. Now what's the next 
question?'' Well, but what's the answer, for now.
    Ms. Sandberg. If I may address a couple of issues. First, 
the Administration's proposal, I think, strikes a bit of a 
balance. We have been working with the American Moving and 
Storage Association in trying to craft something. They 
represent the good movers, the people that are doing business 
right. And we want to make sure that whatever proposal we craft 
doesn't penalize good movers, as you state, Senator. But we 
still need to make sure that we have the ability to reach the 
bad ones.
    The Administration's proposal asks that state attorneys 
general only be able to enforce the federal regulations. And 
that prevents states from having 50 different sets of 
regulations that they're out there enforcing, which is the 
point that General Mead made.
    Senator Lott. Well, we are working on this language right 
now, and we are going to have some by next week. So, any input 
that you're going to make, you need to do it right away.
    Ms. Sandberg. We're more than----
    Senator Lott. Any further input.
    Ms. Sandberg.--happy to work with your staff.
    Senator Lott. Mr. Mead, did you want to add anything?
    Mr. Mead. Yes, I think, for the time being, for the 
foreseeable future, until we're able to send a very clear, 
unambiguous message to these people that they're going to get 
in trouble if they engage in this type of behavior, that Motor 
Carriers needs to have some dedicated people, my office needs 
to have some dedicated people, and I think you need to empower 
the state attorneys general to take action. But the big caveat 
there is, the states have to be circumscribed so they can't 
come up with their individual rules. Otherwise, you're going to 
cut into, as Ms. Sandberg, pointed out, the good--you'll be 
catching the good companies along with the bad.
    Senator Lott. Thank you very much.
    In my part of Mississippi, down on the Gulf Coast, we have 
a lot of ``Jerards'' and ``Gerards.'' Which are you?
    [Laughter.]
    Ms. Gerard. I'm ``Jerard.''
    Senator Lott. ``Jerard,'' OK, good. You've been 
Americanized completely in your pronunciation, then.
    Ms. Gerard. Unfortunately.
    [Laughter.]
    Senator Lott. Under the Norm Mineta Act that you referred 
to in your testimony that created, I guess--or divided PHMSA 
into these--or the Act--set up two different things, the 
Pipeline and Hazardous Materials Safety Administration and the 
Research and Innovative Technology Administration. You know, 
obviously, this is an area we haven't asked a lot of questions 
about today, but we've been having some problems in this. I've 
worked on pipeline safety in the past. Of course, we have 
hazardous-materials problems now. In fact, an incident just 
yesterday, I believe, in California, perhaps, a train 
derailment. And we're going to have to pay attention to this. 
And you're--you know, your agency is going to be on the point 
of this. So what are you doing to get a better focus on a 
mission? And it sounded to me like an awful lot of people have 
an oar in your water. We've got a lot of different people to 
have responsibility, and maybe we need to get a little bit 
better focus about who's actually in charge of this area.
    Ms. Gerard. Well, I think the Department is considering 
what the intent of Congress was in establishing the new agency, 
and we're working actively within the Department to bring a 
tighter focus on the division of labor and what the agenda for 
the program should be. So I think you'll see some progress 
forthcoming in the very near future.
    Senator Lott. The Pipeline and Hazardous Materials 
Administration administers planning and training grants. Some 
would argue that the current level of funding for planning 
grants is redundant, as the communities have long since 
developed plans, and what we need, in effect, is more emphasis 
on training to deal with these problems. How do you respond to 
that?
    Ms. Gerard. I believe that we're satisfied with the level 
of funding that has been proposed.
    Senator Lott. Do you propose to give--at least have more 
flexibility on how much is used for planning and how much is 
actually used for training?
    Ms. Gerard. I think that we're prepared to entertain 
concepts in that direction.
    Senator Lott. Yes. Well, I've seen, over the years, when 
you're dealing with the Federal Government and engineers and 
planners, that they plan and plan and plan and plan, and lots 
of money is wasted on it, and we never get around to training 
or doing things. So I hope that we will look at some language 
that, maybe, will give a little more flexibility in that area.
    Ms. Gerard. All right, we'd be happy to work with you on 
that, sir.
    Senator Lott. Well, thank you very much for your testimony. 
We'll look forward to working with you as we develop the 
language that we will bring before the full Committee in a week 
or so, and then put it in the SAFETEA bill, which may become 
the TEA-LOU bill. But, whatever it is, I hope we get it done 
soon.
    Thank you very much for your testimony. The hearing is 
adjourned.
    [Whereupon, at 11:25 a.m., the hearing was adjourned.]

                            A P P E N D I X

   Prepared Statement of Hon. Conrad Burns, U.S. Senator from Montana

    Mr. Chairman, thank you for holding this hearing today to discuss 
important issues of safety on our nation's roadways. I look forward to 
hearing about the progress our federal agencies are making in enhancing 
the safety and security in transportation. Chairman Lott, 
congratulations on your new assignment. I look forward to working with 
you on several issues under this Subcommittee's jurisdiction.
    Mr. Chairman. as you know, travel over long highways is a way of 
life in Montana. As I like to say, we have a lot of dirt between light 
bulbs in Montana. Protecting and strengthening infrastructure is 
critical to economic success, and I look forward to Congress delivering 
the President a highway reauthorization bill this year. Today's hearing 
is one important step in that process.
    There are a few priorities that I would like to highlight this 
morning. First, there are two grant programs under the National Highway 
Traffic Safety Administration that I am a strong supporter of: the 
Alcohol Impaired Driving Countermeasures Programs, and Occupant 
Protection Incentive Grants. Funding from both of these programs, 
however, should be made available to all states. Many states, including 
Montana, may have difficulty qualifying for these grants. But reducing 
drunk driving and encouraging seatbelt use is a national priority, so I 
believe that all states should be able to participate in these 
programs.
    I look forward to reviewing the new title and working with the 
Chairman and Ranking Member to make sure it provides alternate ways for 
states to qualify for a small amount of these funds. States should be 
incentivized to meet performance criteria and show improvement over 
time, not excluded from the program. Ensuring that states like Montana 
can have access to minimal funds will contribute to the priorities of 
reducing drunk driving and increasing seatbelt use.
    Second, I believe it should be the policy of the Department of 
Transportation to promote the deployment and use of integrated, 
interoperable emergency communications equipment and systems to enhance 
hazardous materials transportation and safety. For years. public safety 
officials have been calling for interoperable communications. With 
thousands of hazardous materials shipments occurring each day in our 
nation's transportation system, interoperable emergency communications 
is critically important. I will work with Members of this Committee and 
my colleagues on the other side of the aisle to include interoperable 
emergency communications systems as an eligible item under the HazMat 
safety and security grant program this Committee will fashion for 
highway reauthorization legislation.
    Finally, I remain committed to some common sense, reasonable 
exemptions from the hours of service regulations for agriculture and 
utility workers. In 1995, Public Law 104-59 granted farmers and retail 
farm suppliers a limited exemption from DOT limitations on maximum 
driving time in transporting agricultural commodities or farm supplies 
within a 100-mile radius of a final distribution point. This 
legislation recognized the special needs of rural America, 
understanding that drivers employed by farm retailers generally operate 
locally, delivering and applying crop inputs. Much of their time is 
spent waiting at the field or the farm store loading and unloading 
their trucks. In short, farm retail drivers stay in a local area and 
return to their homes each night to sleep. The work of these crop input 
suppliers is essential to the nation's farmers, who often have short 
windows of time to plant and harvest their crop around changing weather 
patterns. The agricultural exemption is seasonal, applying only during 
designated months throughout the year as determined by each state. 
Every state has now taken this action, and to my knowledge this 
exemption has not had any impact on public safety.
    The utility service workers hours of service exemption ensures all 
utility service vehicle activities qualify for the exemption, and 
prevents DOT from diminishing the exemption in the future. Investor-
owned utilities and cooperatives also qualify for the exemption. 
Including this language is critical to keeping the nation's utility 
infrastructure safe, secure and reliable, especially in times of 
disaster. Both of these hours of service exemptions were accepted 
during Committee consideration last year, and I look forward to working 
with the Chairman to see them included again this year.
    Again, Mr. Chairman. thank you for holding this hearing today, and 
for your work on this issue. I look forward to hearing from today's 
witnesses.
                                 ______
                                 
    Prepared Statement of Cynthia Hilton, Executive Vice President, 
                   Institute of Makers of Explosives

Interest of the IME
    The IME is the safety and security association of the commercial 
explosives industry. Our mission is to promote safety, security and the 
protection of employees, users, the public and the environment; and to 
encourage the adoption of uniform rules and regulations in the 
manufacture, transportation, storage, handling, use and disposal of 
explosive materials used in blasting and other essential operations. 
Commercial explosives are transported and used in every state. 
Additionally, our products are distributed worldwide, while some 
explosives, like TNT, must be imported because they are not 
manufactured in the United States. The ability to transport and 
distribute these products safely and securely is critical to this 
industry.

Background
    The transportation of hazardous materials involves producers and 
distributors of chemical and petroleum products and waste, transporters 
in all modes, and manufacturers of containers. The Department of 
Transportation (DOT) estimates that upward of 800,000 shipments and as 
many as 1.2 million regulated movements of hazardous materials occur 
each day in the United States. This represents over 10 percent of all 
freight tonnage transported. The production and distribution of 
hazardous materials is a trillion-dollar industry that employs millions 
of Americans. In the explosives industry alone, the value of our 
shipments is estimated in excess of $1 billion annually. \1\ As a major 
export, the transportation of hazardous materials contributes 
positively to our trade balance. These products are pervasive in the 
transportation stream and in our society as a whole.
---------------------------------------------------------------------------
    \1\ Explosives Manufacturing, 2002 Economic Census, U.S. Department 
of Commerce, December 2004, ECO2-31I-325920 (RV).
---------------------------------------------------------------------------
    While these materials contribute to America's quality of life, 
unless handled properly, personal injury or death, property damage, and 
environmental consequences can result. To protect against these 
outcomes, the Secretary of Transportation (Secretary) is charged to 
``provide adequate protection against the risks to life and property 
inherent in the transportation of hazardous materials in commerce by 
improving'' regulation and enforcement. \2\ These regulations are to 
provide for the ``safe transportation, including security,'' of 
hazardous materials in commerce. \3\ The Secretary's authority to 
accomplish this mission is embodied in the Hazardous Materials 
Transportation Act (HMTA). \4\
---------------------------------------------------------------------------
    \2\ 49 U.S.C. 5101.
    \3\ 49 U.S.C. 5103(b)(1).
    \4\ 49 U.S.C. Chapter 51.
---------------------------------------------------------------------------
    In 1990, the HMTA was significantly amended for the first time. 
Subsequently, amendments were added in 1992, 1994 and, most recently, 
in 2002. Among other things, this hearing proposes to look at the 
Administration's most recent proposals to amend the HMTA. We are 
concerned that a number of the Administration's proposals will limit 
DOT's ability to fulfill its mission to protect workers and the public. 
Additionally, the Administration has not been willing to address issues 
about the continued relevancy of its Emergency Preparedness Grants 
Program, especially since the events of 9/11. These issues are the 
focus of this statement.

Interested Parties for Hazardous Materials Transportation
    IME is a participant in the Interested Parties for Hazardous 
Materials Transportation (Interested Parties), a coalition of 40 
industry and safety associations representing shippers of all hazard 
classes and carriers of all modes, as well as package manufacturers and 
public safety agencies. The mission of the Interested Parties is to 
advance national, uniform standards for the transportation of hazardous 
materials that will support the safety, including security, and 
efficiency of this vital economic activity.
    The Interested Parties organized in 1995 specifically to address 
issues related to the reauthorization of the HMTA. Based on our 
expertise, we have presented recommendations to strengthen key 
provisions of the 1990 statute to Congress. Regrettably, a number of 
our recommendations have gone unheeded. Currently, the Interested 
Parties has identified five categories of concern which cover 11 
issues. The Administration's proposal, as reflected in ``SAFETEA'', 
partially addresses only one of these issues. I am taking the liberty 
of attaching a white paper prepared by the Interested Parties which 
addresses these issues and describes the current position contained in 
the Administration's proposals, the House's H.R. 3, and last year's 
Senate bill, S. 1072.
    The remainder of our comment will highlight a few of these critical 
issues.

DOT Jurisdiction to Regulate the Transportation of Hazardous Materials
    The HMTA directs the Secretary to implement the law through the 
hazardous materials regulations (HMR). In order to fulfill its 
regulatory mission to protect the public and the environment, DOT must 
have authority to regulate a diverse community of interests and must 
constantly manage the tension between safety, security and efficiency 
in the transport of these materials. Three issues should be addressed 
to restore and clarify DOT's regulatory authority to that which was 
intended by the 1990 amendments.

Sec. 5107--DOT-OSHA Sharing Jurisdiction
    A formatting error was made in the 1990 amendments that 
inadvertently granted the Occupational Safety and Health Administration 
(OSHA) shared jurisdiction with DOT over hazardous materials 
``handling'', registration and motor carrier permitting. Concern over 
the jurisdictional sharing of these regulatory matters, especially 
regulatory authority over ``handling'', has repeatedly frustrated 
reauthorization attempts. (A history of this formatting error is 
attached.) Our concern over the shared handling jurisdiction is driven 
by the need for national uniformity to ensure safe, secure and 
efficient hazmat transportation.
    The HMTA has no preemptive effect over other federal agency 
authorities. While ``handling'' is not defined in the HMTA, a common 
sense reading of the word invokes a number of OSHA rules on the books 
today that if OSHA had the resources to enforce would undermine 
transportation safety, potentially harming workers and the public. 
These include, for example, requirements for:

  <bullet> rectangular, rather than point-on-point, oriented placards 
        which have not been recognized by DOT, or in the international 
        community, since 1980;

  <bullet> approval of certain materials and containers prior to 
        transportation by the Hazardous Materials Regulations Board, an 
        entity abolished by DOT in 1975; and

  <bullet> cargo tank shut-off valves that were amended by DOT in 1999 
        creating substantial differences with comparable OSHA rules 
        issued in the early 1970s. \5\
---------------------------------------------------------------------------
    \5\ It is also worthy to note that, because of OSHA's shared 
authority, the agency was invited by DOT to participate in a regulatory 
negotiation on this rule. OSHA declined. This alone speaks volumes to 
OSHA's intent to effectively exercise its shared jurisdiction.

    The point is that OSHA has failed to update any transportation 
requirements since 1990 except emergency response. More to the point, 
in all these years, OSHA has not sought to exercise its newly endowed 
shared authority.
    Concern about these regulatory conflicts is compounded by the fact 
that the Occupational Safety and Health Act allows states to issue 
rules that are ``more stringent'' than OSHA requirements. This 
possibility so concerned DOT that, even as it was supporting OSHA's 
claim to shared handling authority before the Occupational Safety and 
Health Review Commission, the Department argued that the sharing of 
regulatory authority granted by the formatting error ``pertains only to 
the non-preemptive effect of DOT requirements on OSHA's regulations. 
Section 5125 of [HMTA] continues to define the preemptive effect of the 
HMR on state, local government and Indian tribe requirements.'' \6\
---------------------------------------------------------------------------
    \6\ Reich v. Yellow Freight, OSHC Docket 93-3292. Brief of the U.S. 
DOT, March 15, 1996, page 7, footnote 1. DOT's interpretation has yet 
to be tested in a court of law.
---------------------------------------------------------------------------
    While we would hope that Congress would simply correct the 
formatting error, we recognize that such a solution is highly unlikely. 
In an effort to bring this matter to a close, DOT proposed, in 2001, 
language to eliminate dual jurisdiction and to clarify lines of 
regulatory authority by amending Sec. 5107(f)(2) to establish OSHA 
regulatory and enforcement authority for hazmat employee training 
(never a matter in dispute) and the occupational safety or health 
protection of employees responding to releases of hazardous materials. 
In meetings with DOT in January of this year, the Department still 
professes to support this language as an acceptable solution. We hope 
the Subcommittee will accept DOT's amendment to Sec. 5107(f)(2) as 
well.

Sec. Sec. 5102-5103--DOT Retraction of Jurisdiction
    SAFETEA introduced a new issue affecting DOT's regulatory 
jurisdiction--an issue potentially much more threatening to the safety 
of workers and the public than the risks of shared jurisdiction 
previously described, given OSHA's current enforcement posture and its 
lack of regulatory initiatives. The Sec. Sec. 5102-5103 issue is about 
eliminating federal jurisdiction and oversight, with some exceptions, 
over the transportation of a number of hazardous materials while they 
are being loaded, unloaded or handled, which elimination will be 
detrimental to the safety and health of workers and the public.
    Since the HMTA was first enacted in 1971, DOT has had jurisdiction 
over the loading, unloading and handling of hazardous materials 
incidental to transportation. SAFETEA proposes to eliminate this 
language from Sec. 5102 as it pertains to the regulation of persons who 
perform these functions. DOT argues that the change is merely editorial 
and the words unnecessary because ``transportation'' is defined in the 
HMTA to include ``loading, unloading or storage incidental to the 
movement'' of hazardous materials. However, these words appear in other 
sections of the HMTA and the ``transportation'' definition does not 
include ``handling'', undermining the argument that the proposed change 
is ``editorial.'' But, more importantly, DOT is pursuing a 
controversial rulemaking--HM-223--that would limit the applicability of 
its rules concerning loading, unloading and temporary storage of 
hazardous materials to these activities only if they are performed by a 
carrier or in the presence of a carrier. This is a sea change from 
current regulatory practice in which the applicability of DOT's rules 
is determined by the function performed, not by who employs the person 
performing the function. We support the retention of the ``loads, 
unloads, handles'' language of current law. We believe that this 
language is more appropriately placed under DOT's regulatory authority 
in Sec. 5103, as DOT proposed to place other phrases from Sec. 5102 
describing its regulatory authority. We also support adding the word 
``handling'' to the definition of ``transportation.'' There are a 
number of reasons the Subcommittee should consider and support our 
position. All have a root in worker safety.
    First, we think DOT's determination in HM-223 not to regulate 
certain loading, unloading and handling activities is bad for worker 
safety. It creates voids in areas of attendance, blocking and bracing 
freight, proper filing/closing of transportation containers, incident 
reporting, security requirements and training. The clearest evidence of 
the extent of the safety void is that there is a significant difference 
in the number of chemicals covered by OSHA Process Safety Management 
(PSM), the Environmental Protection Agency's (EPA) Risk Management Plan 
(RMP) requirements and those covered by DOT's HMR requirements. In 
addition, the threshold quantities for determining regulatory 
applicability often differ between these three regulatory programs. In 
contrast to the list of 800 hazardous chemicals subject to the HMR, 
there are only 137 chemicals subject to the PSM requirements and only 
77 acutely toxic chemicals and 63 flammable gases and highly volatile 
flammable liquids subject to the RMP requirements. In addition, no 
other agency has the manpower to enforce DOT's requirements. Concern 
about worker safety is what has prompted the National Transportation 
Safety Board (NTSB) to object to HM-223 on a number of occasions, 
concerns that are now joined by the Small Business Administration.
    Second, DOT's own data shows that hazmat loading, unloading and 
handling present safety concerns. Just in the last 5 years, over one-
fourth (14 of 53) of all hazmat transportation fatalities were due to 
exposure during loading or unloading. Again, NTSB has repeatedly issued 
recommendations to DOT to address these safety issues, not to walk away 
from them.
    Third, the regulatory void DOT has created does not expand other 
federal agencies' ability to regulate. However, it does opens the 
floodgate to the vast array of non-federal entities, localities, fire 
marshals and the like, that are anxious to move into this arena. If 
DOT's jurisdiction is vacated, there would be no way of stopping any 
local authority from intervening in these areas. No other federal 
agency has DOT's preemptive authority. It has been a cornerstone of the 
HMTA that lack of national regulatory uniformity in transportation 
undermines safety.
    Fourth, the Subcommittee should consider the impact of striping 
``loading, unloading and handling'' authority from the statute on its 
own jurisdiction. If hazmat worker safety issues arise because of the 
gaps or, eventually, multiple inconsistent non-federal rules, created 
by the loss of this authority from the statute, we believe this 
Subcommittee would not want to defer action to others. There should be 
no question that you would want to retain jurisdiction over aspects of 
transportation that have been in the Commerce Committee since the early 
1970s.
    We have heard that those opposed to our recommendations for 
Sec. Sec. 5102-5103 allege that the language will overturn DOT's HM-223 
rulemaking, and will frustrate OSHA's ability to regulate in these 
areas. Our recommendations will not do that. First, HM-223 was issued 
with the ``load, unload, and handles'' in the statute. Second, these 
changes do not alter OSHA's ``shared'' authority in Sec. 5107, although 
we hope as previously noted that this issue be otherwise addressed. 
Third, even if Congress accepts our recommendation for the addition of 
statutory language in Sec. 5103 to the effect that DOT regulate persons 
who perform hazmat functions, HM-223 will not be overturned because the 
Supreme Court reaffirmed last year that OSHA is not barred from 
regulating worker safety in areas that other agencies choose not to 
exercise their statutory authority to regulate. \7\ While HM-223 
remains a sensitive issue, concern for worker and public safety should 
dictate the legislative response to the issue of DOT's continued 
statutory jurisdiction over hazardous materials loading, unloading, 
temporary storage and handling.
---------------------------------------------------------------------------
    \7\ Chao v. Mallard Bay Drilling, Inc. (00-927) 534 U.S. 235 
(2002).
---------------------------------------------------------------------------
ATF-DOT Jurisdiction (S. 1072 Section 4463)
    One other issue specific to the transportation of commercial 
explosives deserves to be mentioned. In 2003, this Subcommittee became 
engaged in an attempt by the Department of Justice's (DOJ) Bureau of 
Alcohol, Tobacco, Firearms and Explosives (ATF) to use its Title 18 
authority to regulate commercial explosives transportation. The result 
was an embargo by all carriers of all commercial explosives. Shortages 
of airbags threatened to shutdown automotive manufacturing and there 
existed the possibility that fireworks would not be available for 4th 
of July celebrations. The DOJ/ATF action even prompted an international 
dispute with the Government of Canada. DOT and the Department of 
Homeland Security (DHS) invested enormous resources to push DOJ/ATF 
back. \8\ As a result, DOT proposed an amendment to clarify 18 U.S.C. 
language that was used by ATF in its attempt to regulate commercial 
explosives transportation. The Senate proposed a version of this 
language in S. 1072, highway act reauthorization legislation passed 
last year. DOJ was furious about DOT's proposal and, while it could not 
force DOT to remove the provision, it did force DOT to send language to 
the Hill to narrow it. \9\ We strongly recommend that the Subcommittee 
retain the Senate's position on this issue to expand the Title 18 
exception to include and provide coverage for DHS authority and to 
resist efforts to restore the ``regulated by'' language as suggested by 
the Administration. This language is problematic because DOJ/ATF used 
it to set themselves up as the arbiter of whether DOT's rules were 
``sufficient'' to trigger the Title 18 exception.
---------------------------------------------------------------------------
    \8\ DOT/DHS rules to effect 18 U.S.C. 845(a)(1) were issued in 
February and May 2003. In the rush to address the international aspect 
of this issue, DOT/DHS failed to address the transportation of 
explosives by persons authorized by the Government of Canada from the 
United States to Canada. ATF still maintains that it is a violation of 
Title 18 if such drivers receive explosives in the United States unless 
permits have been obtained from ATF. (See letter to Cynthia Hilton, 
IME, from Mark Siebert. ATF, March 29, 2005.)
    \9\ Secretary Norman Mineta letter to conferees, enclosure, 
comments on H.R. 3550 and S. 1072 as passed, June 22, 2004, page 10.
---------------------------------------------------------------------------
Preserve Regulatory Uniformity
    The 1990 reauthorization of the HMTA enhanced DOT's ability to 
ensure uniform requirements for the transportation of hazardous 
materials by codifying DOT's administrative interpretations and 
procedures implementing the preemption provisions of the law. In 1996, 
however, the U.S. Court of Appeals for the DC Circuit overturned a DOT 
preemption determination for reasons not supported by legislative, 
judicial or administrative precedent. This legal action threatens to 
reverse decades of administrative practice and undermine the vitally 
important authority of DOT to promote safety and efficiency in 
hazardous materials transportation.
    The DC court ruled that the preemption authorities of the HMTA 
could not be applied independently by DOT when making determinations of 
preemption. For example, the court was considering a challenge to DOT's 
preemption of state requirements under its 49 U.S.C. 5125(a)(2) 
``obstacle'' test authority. The court rejected DOT's use of this 
authority, noting that DOT had failed to exercise its authority under 
49 U.S.C. 5119, uniform motor carrier permitting, which it felt was a 
more appropriate preemption test. SAFETEA proposes to rectify this 
aspect of the court's decision by clarifying that each preemption 
authority is independent in its application. Congress should support 
these aspects of the Administration's proposal that would reaffirm 
DOT's historic authority to determine the preemption of non-federal 
requirements, in accordance with statutory criteria.
    Another aspect of the DC court's decision, which is not addressed 
by the Administration's proposals, was a challenge to DOT's application 
of an internal consistency test that considered the burden on commerce 
if a particular non-federal requirement was replicated in other 
jurisdictions. The court found that DOT could not apply such an 
analysis. Again, the court's decision was contrary to legal precedent. 
The Supreme Court has ruled that ``the practical effect of [a state] 
statute must be evaluated not only by considering the consequences of 
the statute itself, but also by considering how the challenged statute 
may interact with the legitimate regulatory regimes of other states and 
what effect would arise if not one, but many or every, state adopted 
similar legislation.'' \10\ Congress should further strengthen DOT's 
authority to ensure uniform regulations of hazardous materials 
transportation by clarifying that DOT is authorized to consider such 
burdens on commerce when evaluating applications for preemption 
determinations.
---------------------------------------------------------------------------
    \10\ Healy v. the Beer Institute, 491 US 324 (1989).
---------------------------------------------------------------------------
Hazardous Materials Fee Issues
    The 1990 amendment to the HMTA instituted a fee to be paid by 
shippers and carriers of placarded hazardous materials to fund the 
Emergency Preparedness Grants Program (EPGP). The purpose of the EPGP 
is to cover the ``unfunded'' federal mandate that states develop 
emergency response plans and to contribute toward the training of 
emergency responders. Industry has contributed, through hazmat 
registration fees, over $155 million during the life of the grants 
program. \11\ Since the events of September 11, 2001, we question 
whether or not the EPGP is the most efficient way to plan for hazmat 
emergencies or to deliver hazmat training to the response community, 
especially in light of other viable alternatives to address these 
needs.
---------------------------------------------------------------------------
    \11\ FY 1992-2004, HMRP, DOT, November 30, 2004.
---------------------------------------------------------------------------
    We have, for a number of years, called for more accountability in 
the EPGP and more evidence of coordination among all federal 
initiatives to ensure that all resources are used as efficiently and 
effectively as possible. We are not alone in our concern. In FY 2003, 
DOT conducted a Program Assessment Rating Tool (P.A.R.T.) evaluation of 
the EPGP for the Office of Management and Budget which found the 
program to be only moderately effective. \12\ Even then, some of the 
data used to support the program evaluation is questionable. For 
example, the EPGP claimed at that time that it was the ``only federal 
program that provides funds to assist communities in planning for and 
responding to hazardous materials incidents.'' (Emphasis added.) This 
is not true. In documents supporting DOT's FY 2006 budget request, the 
Department admits for the first time that this program, at most, 
provides ``funds that might not otherwise be available'' to localities 
for training and planning for hazardous materials incidents. \13\ 
Still, DOT's characterization of the EPGP would have one believe that 
the funds are limited to planning and training for transportation-
related hazmat incidents only. There is no such limitation. \14\
---------------------------------------------------------------------------
    \12\ P.A.R.T., ID 10001123, http://www.whitehouse.gov/omb/budget/
fy2005/pma/transportation.pdf , page 56 and 62.
    \13\ FY 2006 PHMSA Budget Submission, page 80.
    \14\ 49 U.S.C. 5116(a) 7(b).
---------------------------------------------------------------------------
    The EPGP also claims, as its FY 2005 accomplishment, that it will 
provide support to update and develop at least 3,000 emergency plans. 
\15\ This claim is more realistic than EPGP's claim to support the 
completion of 3,700 emergency plans which it perpetuated in each of its 
budget requests between FY 2003 and FY 2005. The incredulity of this 
claim still warrants oversight. Congress intended that the planning 
grants portion of the EPGP be used to ``develop, improve, and carry out 
emergency plans under the Emergency Planning and Community Right-To-
Know Act'' (EPCRA). \16\ EPCRA requires state coordinating commissions 
(SERC) to designate Local Emergency Planning Committees (LEPC) which 
were charged to develop localized plans for chemical emergencies. So, 
it should come as no surprise that PHMSA sets as a measure of the 
impact of the EPGP a number of these emergency plans to be developed 
and updated. What is surprising is the target number of plans to be 
completed or updated. First, EPA estimates that the current number of 
LEPCs is about 3,500. \17\ Each LEPC prepares one plan, so at most 
3,500 plans would need support. Second, LEPCs were in existence before 
the inception of the EPGP. EPCRA was enacted in 1986 and has required 
LEPCs to have ``complete'' plans in place. Once an LEPC's plan is 
``complete,'' based on acceptance by the LEPC's SERC, LEPCs are not 
required to ``re-complete'' these plans each year, although they are 
required to annually ``review'' their plans. Third, EPA last surveyed 
LEPC compliance in between October 1999 and February 2000. \18\ At that 
time, the Agency found that approximately 45 percent of responding 
LEPCs had completed plans and another 10 percent mostly complete. 
Furthermore, 24 percent of LEPCs had incorporated counter-terrorism 
measures into their emergency response plans. Using these percentages, 
it would appear that 1,600 would be a more accurate projection of the 
number of emergency plans to be completed, not 3,000. \19\ Furthermore, 
it is unlikely, given EPA's assessment of ``completed'' and approved 
plans, that any significant portion of these plans are being reopened 
and revised.
---------------------------------------------------------------------------
    \15\ FY 2006 PHMSA Budget Submission, page 81.
    \16\ 49 U.S.C. 5116(a)(1)(A).
    \17\ http://yosemite.epa.gov/oswer/ceppoweb.nsf/content/
epcraOverview.htm
    \18\ 1999 Nationwide LEPC Survey, George Washington University for 
EPA. May 17, 2000. http://yosemite.epa.gov/oswer/ceppoweb.nsf/
vwResourcesByFilename/lepcsurv.pdf/$File/lepcsurv.pdf
    \19\ Not all LEPCs responded to the latest EPA survey. Even 
assuming that every one of the non-respondents had no plan, together 
with those known to have no plan or an incomplete plan, the number of 
plans needing completion would be 2,500, still significantly under the 
3,700 estimate provided for FY 2002-04.
---------------------------------------------------------------------------
    Finally, DOT allows EPGP planning grant funds to be used to 
reimburse state/territory/tribal grantees to attend semi-annual 
workshops. Allowable expenses include travel, hotel, per diem, and a 
once a year conference registration charge of $300/attendee. The spring 
workshop is one week long. When queried, DOT could not account for what 
portion of the planning grant was used by grantees for these expenses, 
nor exactly how many persons participated in these semi-annual 
workshops. If just one individual from each of the roughly 70 grantees 
sought total reimbursement for these two workshops, the cost could 
easily exceed 3 percent of the planning grant for these events alone. 
Clearly, the continued need and usefulness of the ``planning'' portion 
of the EPGP, even at the funding level provided by current law, is 
extremely questionable.
    In its oversight capacity, the Senate Commerce Committee, as part 
of its highway act reauthorization legislation last Congress, included 
a provision that would have required DOT to exercise better technical 
oversight and evaluation of the EPGP, to gather information from 
grantees and subgrantees to gauge performance. and to report these 
results to the public. \20\ We are encouraged by this commitment 
because our efforts in the past to address EPGP shortcomings with DOT 
have not been satisfactory. We only hope that the level of oversight 
promised by the Senate will be included in any highway act 
reauthorization legislation and that it will include a complete 
accounting of EPGP funds distributed and their use, not the type of 
anecdotal ``successes'' that comprised so much of DOT's 1998 report to 
Congress on this program.
---------------------------------------------------------------------------
    \20\ S. 1072 revision to 49 U.S.C. 5116(k). 108th Congress.
---------------------------------------------------------------------------
    Despite these fundamental flaws and questionable value of the EPGP, 
we have not objected to full-funding of the EPGP at the statutory cap 
of $12.8 million plus administrative expenses. However, we are opposed 
to increasing outlays from the account to augment current grants. The 
hazmat fee program was never intended nor could it be expected to 
generate the amount of funds necessary to meet the needs of communities 
or first responders for planning or training for transportation-related 
chemical, biological or radiological incidents. DOT's hazmat 
registration fees are not the only source of financial assistance 
available to states to support emergency preparedness and response and 
the safe and secure transportation of hazardous materials shipments. 
Congress has already provided more comprehensive, direct sources of 
funding for emergency response planning and training. A report prepared 
by the staff of the then Select Committee on Homeland Security shows 
that the Federal Government provided $28.6 billion from 2001 through 
2005 to enhance the ability of state and local governments and first 
responder to prevent, prepare for, and respond to acts of terrorism and 
other emergencies. \21\ While these funds are not dedicated to 
hazardous materials planning and training, these activities are an 
allowable use of the assistance. The majority of these funds are used 
to assist communities to address chemical, biological, and radioactive 
incidents. Planning and training to respond and recover from these 
hazardous materials releases, whether accidental or intentional, is the 
same. The Select Committee's evaluation of federal funding sources did 
not even bother to include the $12.8 million available through the 
EPGP, a mere 0.04 percent of available funds. Yet, in the last 
Congress, the Senate Commerce Committee's highway act reauthorization 
legislation included provisions that increased the funding of the EPGP, 
and thus the hazmat fees, by 70 percent--from $12.8 million to $21.8 
million. Even if DOT charged every current registrant the maximum 
currently allowed by law, $5,000, the hazmat registration fee program 
would provide only $196.5 million: still, less than 1.0 percent of the 
monies available to hazmat planning and training from other sources. We 
do not believe that the hazmat registration program would ever generate 
this level of revenue because smaller carriers would simply chose not 
to transport hazardous materials. Finally, many states assess their own 
hazardous materials transportation fees. States garner upwards of $20 
million a year from these fees. \22\ For these reasons, it is important 
that the Subcommittee continue to cap the amount of hazmat fees that 
can be transferred to the EPGP account at $12.8 million.
---------------------------------------------------------------------------
    \21\ An Analysis of First Responder Grant Funding, Select Committee 
on Homeland Security, April 2004, Appendix 3.
    \22\ Biennial State Hazardous Materials Transportation Fees, DGAC, 
December 2000.
---------------------------------------------------------------------------
    The Senate Commerce Committee's S. 1072 amendments raised a new 
issue with regard to the assessment of hazmat registration fees. The 
1990 amendments to the HMTA added a program for training trainers of 
private sector hazmat employees. \23\ This program was not added at the 
behest of industry. The program was authorized to be funded from 
general revenues at $3 million per year. \24\ The Committee's 
amendments to S. 1072 included provisions to increase the appropriation 
for this program from $3 million to $4 million per year, to expand the 
scope of this training program to include direct training of hazmat 
employees, and to change the funding source from general revenues to 
the hazmat registration fee. These changes are without justification. 
The HMTA is clear that hazmat employers are responsible for the 
training of hazmat employees. Yet, this program is of no benefit 
because the training provided is limited to that offered by non-profit 
hazmat employee organizations, organizations that are unlikely to be 
relied upon to provide the specific and specialized training each 
company is liable to provide to address its own unique hazmat 
environment. Any potential hazmat employee who availed themselves of 
such training from a third-party non-profit training organization would 
still have to be trained in his employer's hazmat operations. As a 
result, industry has never advocated for a federal appropriation for 
this training option. Furthermore, these funds are not needed to spur 
interest in companies/organizations providing training. There are a 
number of companies that engage in this training already. The real 
issue with private sector training is assessing how good third-party 
training is. Rather, than throw money at ``train the trainer'' 
programs, the Subcommittee should consider rewriting this section of 
law to require commercial training programs to obtain some form of 
accreditation. There are accreditation programs in existence. At 
minimum, the Subcommittee should not make the funding of this program 
an authorized use of hazmat fees.
---------------------------------------------------------------------------
    \23\ 49 U.S.C. 5107(e).
    \24\ 49 U.S.C. 5127(b).
---------------------------------------------------------------------------
    In sum, the private sector has accepted its obligation to provide 
training to its hazmat employees, the EPGP should not be reauthorized 
without a serious reassessment to the need to continually pour millions 
of dollars into the funding of EPA's emergency planning programs, and, 
given the plethora to other viable alternatives to address the needs of 
the response community, the EPGP is at best inconsequential, but more 
realistically, a program that has outlived its relevance and 
usefulness.

Conclusion
    The transport of hazardous materials is a multi-billion dollar 
industry that employs millions of Americans. This commerce has been 
accomplished with a remarkable degree of safety, in large part, because 
of the uniform regulatory framework authorized and demanded by the 
HMTA. Within the Federal Government, DOT is the competent authority for 
matters concerning the transportation of these materials. We, 
therefore, strongly recommend the Congress act on the recommendations 
of the Interested Parties as it considers the reauthorization of the 
HMTA.
    Thank you for your attention to these issues.

                              Attachments

         Hazardous Materials Transportation Act Reauthorization
                          49 U.S.C. Chapter 51

    The transportation of hazardous materials is vital to the economy. 
Given the safety and security issues surrounding these activities, 
hazmat transportation requires a strong federal presence to ensure 
uniformity of regulation which protects the public, facilitates 
compliance, and provides for the efficient movement of these essential 
materials.
    As Congress considers the reauthorization of federal hazardous 
materials transportation law (FHMTL) the following issues should be 
addressed:

Retain DOT Jurisdiction over Hazardous Materials
Clarify DOT's Jurisdiction to Regulate Hazardous Materials 
        Transportation
    The commercial transportation of hazardous materials is highly 
regulated under national uniform standards which account for a 
commendable safety record despite moving millions of tons of material 
over 1.2 million times a day. Statistics show that, of the estimated 
5,900 deaths and about 5 million injuries to workers each year in 
America, on average, less than 10 deaths and 30 major injuries are 
attributable to a release of hazardous materials in transportation. A 
formatting error in 49 U.S.C. Sec. 5107 unintentionally imposed 
overlapping jurisdiction on OSHA and DOT with respect to hazardous 
materials transportation, undermining the statute's goal of regulatory 
uniformity. The erosion of a single-source, uniform regulatory 
framework confounds industry efforts to comply and may be exacerbated 
by the fact that the Occupational Safety and Health Act allows 
differing state requirements. To rectify this problem, DOT has proposed 
a compromise whereby it would retain authority over handling criteria, 
hazmat registration and motor carrier safety, and OSHA would regulate 
the protection of employees responding to a release of hazardous 
materials. OSHA would continue to share jurisdiction with DOT for 
hazmat employee training, as was the original intent of Congress. Any 
additional expansion of OSHA's overlapping jurisdiction must be 
resisted because it would greatly complicate industry's ability to 
comply with different safety standards.

Source: IP recommendation.

Status: SAFETEA--Administration proposal silent on this issue. 
        Secretary's June 2004 conference letter reproposes its 
        compromise from the Department's 2001 bill that we ``can live 
        with.'' As a secondary issue, the Administration's bill 
        proposes language to clarify jurisdiction between DOT and ATF. 
        Secretary's June 2004 conference letter weakens that language, 
        making DOT jurisdiction dependant on regulatory exercise. 
        Support SAFETEA provision.

         H.R. 3--Sec. 5107(f)(2)--House bill eliminates the shared 
        jurisdiction over hazmat registration and motor carrier 
        permitting, but retains shared jurisdiction over ``handling'' 
        which disrupts national uniform requirements on ``handling'' 
        that OSHA, or OSHA-approved states would regulate. Does not go 
        far enough.

         S. 1072--Sec. 5107(f)(2)--Senate bill retains the clerical 
        error. Oppose.

Preserve DOT Jurisdiction to Regulate Loading, Unloading and Handling 
        of Hazardous Materials Incidental to Transportation
    Current law at Sec. 5102 defines ``transportation'' of hazardous 
materials to include ``loading, unloading or storage'' of material 
incidental to movement, and it defines hazmat employees who perform 
regulated functions to include the loading, unloading and handling of 
these materials. Despite clear statutory authority to regulate 
hazardous materials loading and unloading, the Administration's hazmat 
reauthorization proposal struck DOT's statutory authority to regulate 
hazmat employees who load, unload or handle hazardous materials when it 
transferred the list of functions that subject hazmat employees persons 
to the hazardous materials regulations from Sec. 5102 (Definitions) to 
Sec. 5103 (Regulatory Authority). DOT has recently finalized 
controversial regulations (judicial and administrative appeals are 
pending) stating that it chooses not to exercise its statutory 
authority to regulate certain loading, unloading or handling functions 
incidental to the transportation of hazardous materials. Now DOT is 
attempting to validate that regulatory action by striking its statutory 
authority. Irrespective of the disputed merits of DOT's regulatory 
action, by striking this authority, DOT precludes the opportunity to 
regulate if circumstances warrant. The phrase ``loads, unloads, or 
handles hazardous material incidental to transportation in commerce'' 
should be preserved in Sec. 5103.

Source: Administration proposal.

Status: SAFETEA--Administration proposal drops ``load, unload, handle'' 
        language from Sec. 5102(3) when it moves other text to 
        Sec. 5103. Oppose dropping of language but support moving 
        entire Sec. 5102(3) text to Sec. 5103.

         H.R. 3--Sec. 5102(3)--House bill does not change current law.

         S. 1072--Sec. 5102(3) & Sec. 5103(b)(1)(A)--Senate bill adopts 
        Administration proposal to strike ``load, unload, handle'' 
        language from current law. Oppose.

Recognize Federal Hazardous Materials Transportation Law Security 
        Authority
    Congress recognized that hazardous materials transportation safety 
and security cannot be separated in the 2002 amendments to FHMTL. DOT 
has exercised that authority in rules requiring security plans and 
training. The 2002 amendments, however, missed references to safety and 
security that, given current rules, should be added to the statute. 
These references would clarify current security authority under the 
law. (Sections 5101, 5103, 5106 and 5107.)

Source: IP recommendation.

Status: SAFETEA--Administration proposal is silent.

         H.R. 3--House bill is silent.

         S. 1072--Senate bill is silent.

Preserve Regulatory Uniformity
Reaffirm DOT's Preemption Authority
    The 1990 reauthorization of the HMTA enhanced DOT's ability to 
ensure uniform requirements for the transportation of hazardous 
materials by codifying DOT's administrative interpretations and 
procedures implementing the preemption provisions of the law. In 1996, 
however, the U.S. Court of Appeals for the DC Circuit overturned a DOT 
preemption determination for reasons not supported by legislative, 
judicial or administrative precedent. This legal action threatens to 
reverse decades of administrative practice and undermine the vitally 
important authority of DOT to promote safety and efficiency in 
hazardous materials transportation. Congress should support those 
aspects of the Administration's proposal that would reaffirm DOT's 
historic authority to determine the preemption of non-federal 
requirements, in accordance with statutory criteria.
    An aspect of the court's decision, which is not addressed by the 
Administration's proposals, was a challenge to DOT's application of an 
internal consistency test that considered the burden on commerce if a 
particular non-federal requirement was replicated in other 
jurisdictions. The DC court found that DOT could not apply such an 
analysis. Again, the court's decision was contrary to legal precedent. 
The Supreme Court ruled in Healy v. Beer Institute, that ``the 
practical effect of [a state] statute must be evaluated not only by 
considering the consequences of the statute itself, but also by 
considering how the challenged statute may interact with the legitimate 
regulatory regimes of other states and what effect would arise if not 
one, but many or every, state adopted similar legislation.'' Congress 
should further strengthen DOT's authority to ensure uniform regulations 
of hazardous materials transportation by clarifying that DOT is 
authorized to consider such burdens on commerce when evaluating 
applications for preemption determinations.
Source: IP recommendation.

Status: SAFETEA--Administration proposal addresses the independent 
        authorities issue, but is silent on the burden on commerce 
        issue.

         H.R. 3--House bill addresses the independent authorities 
        issue, but is silent on the burden on commerce issue.

         S. 1072--Senate bill addresses the independent authorities 
        issue, but is silent on the burden on commerce issue.

Support Uniform Registration/Permitting of Hazardous Materials Motor 
        Carriers
    In 1990, Congress provided authority for DOT to eliminate the 
burden of dissimilar, redundant, non-federal registration/permitting 
programs unilaterally imposed on hazardous materials transporters. DOT 
has not utilized this authority. State and local representatives have 
developed a program to replace the more than 40 existing state 
permitting programs with the ``Uniform Program'', similar to the SSRS 
base state registration program. The Uniform Program is being 
implemented in 7 states and is endorsed by the transportation industry 
and the CVSA. States benefit by retaining their existing fee authority, 
reducing the permit processing workload, ensuring that only safe 
carriers transport hazardous materials, preserving state enforcement 
authority, and providing a safe harbor from preemption challenges. 
Industry benefits from a significant paperwork reduction. Congress 
should reaffirm its 1990 commitment to streamline state-based hazardous 
materials registration/permitting and establish a deadline by which DOT 
must implement the Uniform Program.

Source: IP recommendation.

Status: SAFETEA--Administration proposal silent on this issue.

         H.R. 3--Sec. 5119, new Sec. 5128(d)--House bill makes 
        Sec. 5119 ``mandatory'', but reopens to debate the issue of 
        what would be an appropriate program of uniform forms and 
        procedures and weakens existing preemption authority over non-
        participating state permit schemes. DOT already convened such a 
        working group, in which 23 states participated and industry had 
        a consultative role--another working group is not necessary. 
        While the House bill provides $1 million per year to work on 
        the Uniform Program, the funds are misdirected to the working 
        group instead of the participating states to cover 
        administrative costs until the program is implemented 
        nationally and as incentive grants to states to join the 
        compact. Oppose.

         S. 1072--Sec. 5119 & Sec. 5109--Senate bill makes no change to 
        Sec. 5109 and still leaves Sec. 5119 permissive. Preemption 
        language compromised. Preferable to the House. Oppose.

Oppose Emergency Waiver of Preemption
    The Administration's proposal would grant DOT new authority to 
immediately waive preemption to allow ``state, local, and tribal 
governments to regulate hazardous material transportation'' in the 
event of a ``possible'' terrorist threat. The consequences for safety 
and security that could result from turning over hazardous materials 
transportation in a terrorist emergency to local hands is tremendous, 
not to mention the potential to wreak havoc in America's economy. Given 
other authority in HMTA to grant preemption waivers, issue exemptions 
and even impose emergency orders; and emergency authority in other 
federal statutes, most notably, the Transportation Security 
Administration's Sec. 101(a) ``National Emergency Responsibilities'' 
authority under the Aviation and Transportation Security Act, this new 
``waiver of preemption'' authority is rendered unnecessary.

Source: Administration proposal.

Status: SAFETEA--Administration proposal. Oppose.

         H.R. 3--House bill does not include. Support.

         S. 1072--Sec. 5125(g)--Senate bill adds Administration 
        proposal. Oppose.

Support Uniform Motor Carrier Credentialing
Reform USA Patriot Act Background Check Procedures
    The USA PATRIOT Act requires background checks of drivers 
transporting hazardous materials. TSA has begun implementing this 
mandate through a decentralized fingerprint-based state licensing 
program that does not completely fulfill the security mandate. This 
decentralized implementation is inefficient, time consuming, and cost 
prohibitive for many drivers. Moreover, the failure to inform motor 
carriers as to the results of the background checks is an intolerable 
security breach that undermines the security purpose of the entire 
program. Congress needs to:

  <bullet> Require that a federal entity, not the States, implement a 
        name-based background check.

  <bullet> Ensure drivers are subject to only one federal background 
        check. Currently, drivers may be subjected to multiple separate 
        background checks administered by the Department of Defense, 
        FAA, ATF, U.S. Postal Service, and other federal programs. 
        Federal background checks should be harmonized to the maximum 
        extent possible and duplicative checks should be eliminated.

  <bullet> Preempt separate state and local background checks. National 
        security is a federal interest and the state issuance of CDLs 
        already is subject to federal standards and oversight. 
        Moreover, separate state background checks do not enhance 
        security as drivers from other states may operate motor 
        vehicles in all states.

  <bullet> Ensure that DOT (not HHS or DOJ) retains exclusive authority 
        to designate hazardous materials, including those materials 
        that trigger the background check requirements.

  <bullet> Ensure that the motor carrier receives timely notice of a 
        driver's disqualification or HME revocation.

Source: IP recommendation.

Status: SAFETEA--Administration proposal silent on this issue. 
        Secretary's June 2004 conference letter addresses only 
        treatment of Mexican and Canadian drivers.

         H.R. 3--House bill silent.

         S. 1072--Sec. 5103a(b)(c)--Senate bill adopts DOT authority to 
        determine list of hazmats.

Recognize Appropriate Limits to Enforcement Authority
Oppose Tripling of Civil Penalties
    We oppose a provision of the Administration's bill that would 
nearly triple civil penalties from $32,500 to $100,000 for each hazmat 
violation. DOT currently can levy the maximum civil penalty for each 
violation and each day the violation occurs, which has proven to be 
sufficient for the vast majority of violations, as evidenced by DOT's 
historic penalty actions. If the maximum civil penalty cap is raised, 
the higher penalty should be imposed only in cases involving egregious 
violations that cause death or grievous bodily injury from the release 
of hazardous material.

Source: Administration proposal.

Status: SAFETEA--Administration proposal. Oppose.

         H.R. 3--Sec. 5123(a)--House bill increases civil penalty 
        ceiling to $50,000, but allows fines up to $100,000 for 
        aggravated causes. While we can live with the principle of a 
        tiered penalty for egregious violations, we still believe that 
        the penalty caps are too high.

         S. 1072--Sec. 5123(a)--Senate bill adopts Administration 
        proposal. Oppose.

Require Rulemaking for Inspection, Investigation, and Emergency Orders 
        Authority
    In the past, the Administration has proposed expanding DOT's 
inspection, investigation and emergency orders authority. Industry 
disagrees that expanded emergency orders authority is necessary. 
Moreover, industry is very concerned that the likelihood that fully 
compliant packages of hazardous materials could be damaged during 
inspection. Industry also is concerned with undue delay of time-
sensitive materials, and the potential for harm if packages are opened 
in an inappropriate manner or location. Initially, DOT agreed to 
address these issues through notice-and-comment rulemaking, i.e., the 
new statutory provisions would not be self-implementing. A requirement 
that the expanded authorities not be implemented until DOT issues rules 
is crucial to industry.

Source: Administration proposal.

Status: SAFETEA--Administration proposal removes requirement for 
        rulemaking that was in the 2001 bill. Oppose.

         H.R. 3--Sec. 5121(e)--House bill includes a rulemaking, but 
        also allows DOT to issue ``guidance'' prior to completing the 
        rulemaking. Oppose.

         S. 1072--Sec. 5121(e)--Senate bill adopts industry proposal. 
        Support.

Recognize Appropriate Limits to State Enforcement Authority
    Enforcement of hazardous materials regulations for motor carriers 
relies in part upon state participation. Most state enforcement actions 
are based on a ``strict liability'' standard, rather than the existing 
federal ``willfully'' or ``knowingly'' standards. As such, the strict 
liability standards are subject to preemption under the HMTA. The 
Administration's bill removes all preemptive limitations to state 
enforcement authority. The HMTA should be amended to affirm a state's 
right to establish enforcement systems based on strict liability 
standards as long as the penalties do not exceed reasonable limits, 
such as $1,000 per violation. States establishing penalties that exceed 
such limits should be required to adopt the federal ``willfully'' or 
``knowingly'' standards to impose those penalties. This accommodation 
appropriately balances the interests of States and the regulated 
community.

Source: Administration proposal.

Status: SAFETEA--Sec. 5125(j)--Administration proposal. Oppose.

         H.R. 3--House bill does not address. Support.

         S. 1072--Sec. 5125(j)--Senate bill overturns any limits to 
        state enforcement authority. Oppose.

Preserve Limits to Hazmat Fees
Revise Hazmat Registration Fees
    Along with other funds now available to establish and maintain 
hazardous materials response capabilities at the state and local level, 
a registration fee capped at a $750 level per annum would generate 
sufficient revenue to support the DOT grant program. DOT should also 
have authority to waive all but the $25 administrative fee for small 
businesses that would otherwise be eliminated from the hazmat 
registration program because the current statutory registration fee 
floor of $250 presents an economic hardship for small businesses. This 
recommendation does not alter or otherwise affect separate authority 
for DOT to assess and collect an administrative fee that allows it to 
process registrations.

Source: IP recommendation.

Status: SAFETEA--Administration proposal silent on this issue. 
        Secretary's June 2004 conference letter in opposition is not to 
        the increased size of the grant program but only to the 
        limitation on the maximum fee that can be charged per 
        registration. Oppose any increase in the size of the grant 
        program.

         H.R. 3--Sec. 5108 & Sec. 5128--Except for lower registration 
        fee floor, oppose House provisions to double amount of grants 
        and to set statutory maximum fee at $3,000 instead of $750.

         S. 1072--Sec. 5108, Sec. 5107, Sec. 5128 & Sec. 4428--Oppose 
        Senate provisions. The Administration opposes these changes.

Other Issues of Concern

Oppose Unnecessary Increased Record Keeping Requirements
    We oppose the Administration's proposed extension from 1 to 3 years 
of the amount of time that copies of the shipping papers must be 
retained. There is no evidence that the existing 1 year record 
retention requirement of shipping papers has been inadequate. This 
provision adds administrative expense without an associated safety or 
security benefit.

Source: Administration proposal.

Status: SAFETEA--Administration proposal. Oppose.

         H.R. 3--Sec. 5110(d)--House bill adopts a 2- rather than a 3-
        year retention standard. Oppose.

         S. 1072--Sec. 5110(c)--Senate bill adopts Administration 
        proposal. Oppose.

Oppose Limitless Aggravated Violation Authority and Unnecessary 
        Addition of ``Reckless''/``Recklessly'' Liability Standard
    The Administration's bill would establish a new criminal penalty 
for ``aggravated violations,'' which carries a 20-year maximum term of 
imprisonment. This new penalty would apply to violations that result in 
a ``release'' of hazardous material, no matter how inconsequential. The 
Administration's definition of ``aggravated violation'' is simply too 
broad. The charge of an ``aggravated violation'' should be limited to 
persons who in the commission of a separate felony also cause a 
hazardous material release that results in death or grievous bodily 
injury.
    The Administration's bill also proposes to apply a ``reckless'' 
liability standard to all modes of hazmat transportation. A 
``reckless'' standard is recognized by courts as a state of mind more 
blameworthy than ``negligence,'' but substantially less than 
``willful.'' The HMTA already recognizes this standard in aviation 
where passengers ride above cargo. However, this standard should not be 
used to lower the burden of proof for criminal cases for shippers and 
carriers and their employees in all other modes of cargo 
transportation.

Source: Administration proposal.

Status: SAFETEA--Administration proposals. Oppose.

         H.R. 3--Sec. 5124(a) & (d)--House bill suggests a compromise 
        to the Administration proposal for aggravated violations that 
        would allow criminal sentences up to 10 years in cases 
        involving a release that results in death or bodily injury. 
        Preferred to the Administration proposal. House bill includes 
        the Administration's ``reckless'' provisions. Oppose.

         S. 1072--Sec. 5124(b)--Senate bill adopts the Administration 
        proposal for aggravated violations with 20 year sentences. 
        Oppose. Senate bill does not include the ``reckless'' 
        provisions. Support.
Oppose Expansion of the Definition of Hazmat Employee to Include 
        Employees for Companies That Do Not Accept Hazmat Shipments
    The Administration's proposal adds the term ``rejects'' as a hazmat 
function, effectively expanding the class of persons subject to the HMR 
to include employees of carriers that have made a conscious business 
decision not to transport hazardous materials. The Administration 
argues that this expanded authority is necessary to identify undeclared 
hazmat shipments; however, even carriers that accept hazardous 
materials find it virtually impossible to identify undeclared HM. 
Hazmat awareness training will not assist in the discovery of 
undeclared hazmat. At best, training allows employees to identify 
declared shipments, i.e., shipments complying with DOT's hazcom 
requirements. In short, this policy will not prevent undeclared 
shipments from getting into the transportation stream and will impose 
an unreasonable burden on carriers who have a ``will not carry'' 
policy. DOT already has adequate authority to address the problem of 
undeclared hazmat shipments (see 49 U.S.C. Sec. 5104 (prohibitions), 
Sec. 5123 (civil penalties), and Sec. 5124 (criminal penalties)).

Source: Administration proposal.

Status: SAFETEA--Sec. 5103(b)(1)(A)--Administration proposal. Oppose.

         H.R. 3--House bill silent.

         S. 1072--Sec. 4466--Report on applying hazmat regulations to 
        persons who reject hazmat. Compromise. Prefer House.

Clarify Security Sensitive Information
    The Administration's bill gives the Secretary authority to withhold 
security-sensitive information. While we support the objective, we have 
suggested amendments to enhance the Administration's proposal by 
clarifying the specific types of information intended to be protected 
by this provision; and aligning the Administration's language with what 
is already in the Homeland Security Act preempting state law.

Source: Administration proposal.

Status: SAFETEA--Sec. 5121(f)--Administration proposal needs to be 
        strengthened to preempt state law.

         H.R. 3--House bill silent.

         S. 1072 Sec. 5121(i)--Administration proposal needs to be 
        strengthened to preempt state law.

Restore Special Permit Authority
    Much of the innovation in the hazardous materials regulations is 
accomplished through ``exemptions.'' The term ``exemption'' gives an 
erroneous impression that hazardous materials transportation under an 
exemption is being carried out without regulation, and the term 
``special permit'', an historic term used to describe these variances, 
will appropriately convey that such transportation is required to be 
conducted in accordance with terms and conditions set by DOT. Also, 
Congress should change the maximum effective period of a special permit 
from 2 years to 4 years. This change would eliminate a great deal of 
unnecessary industry application time and Government processing time 
involved in the present 2-year renewal process. The increased maximum 
effective period of time will have a positive impact on safety. It will 
enable PHMSA staff to avoid time-consuming processing of routine 
renewals and instead focus attention on more significant special permit 
issues. If safety issues are subsequently identified, PHMSA has 
authority to revoke or modify special permits as needed.

Source: IP recommendation.

Status: SAFETEA--Administration proposal is silent.

         H.R. 3--House bill addresses these issues, but allows for the 
        4-year term of the permit only on renewal. New special permits 
        would have to be limited to 2 years.

         S. 1072--Senate bill addresses these issues, but allows for 
        the 4-year term of the permit only on renewal. New special 
        permits would have to be limited to 2 years. Prefer Senate to 
        the House.

Clarify Criteria for Hazmat Planning & Training Grant Eligibility and 
        Allocation
    49 U.S.C. Sec. 5125(g) precludes states from assessing fees on the 
transportation of hazardous material unless the fees are ``fair'' and 
``used for a purpose related to the transportation of hazardous 
material.'' While Congress requires states to certify that they are in 
compliance with the emergency planning provisions of the Emergency 
Planning and Community Right-To-Know Act of 1986 to be eligible for a 
grant, there is no requirement that states certify their compliance 
with Sec. 5125(g). Congress should clarify that states assessing fees 
in violation of federal hazmat law do not qualify for a grant.
    In 1990, Congress instituted a federal registration fee program, 
the proceeds of which are used for grants to states to assist in hazmat 
planning and training. When evaluating state applications for grant 
moneys, and in allocating limited grant funds among the applicants 
under 49 U.S.C. 5116(b)(4), DOT must determine a state's ``need'' by 
considering, among other things, ``whether the state . . . imposes and 
collects a fee on transporting hazardous material [and] whether the fee 
is used only to carry out a purpose related to transporting hazardous 
material.'' DOT never has implemented this statutory requirement, 
claiming that the intent of Congress is unclear. Congress should 
clarify that DOT's determination of ``need'' for purposes of 
calculating grant awards should be reduced for states maintaining a fee 
related to transporting hazardous material.

Source: IP recommendation.

Status: SAFETEA--Administration proposal silent on these issues.

         H.R. 3--The House bill addresses these issues.

         S. 1072--The Senate bill is silent on these issues.

                 Historical Summary of DOT/OSHA Overlap
    <bullet> 1970: To avoid duplicative regulations, Congress enacted 
the Occupational Safety and Health Act with a provision at section 
4(b)(1) that allows OSHA regulations to be preempted when ``other 
agencies issue regulations that affect the occupational safety and 
health of workers.''
    <bullet> 1975: Enactment of the Hazardous Materials Transportation 
Act (HMTA). Pub. L. 93-633, the first statute to comprehensively 
regulate the transportation of hazardous materials. Section 106 of this 
public law, then 49 U.S.C. 1805, was entitled ``Handling of Hazardous 
Materials'' and contained subsections (a) ``Criteria,'' which 
authorized DOT to set criteria necessary for handling such materials 
including personnel training and qualifications, (b) ``Registration,'' 
an optional mandate for DOT, and (c) ``Requirement,'' a provision 
effective only if DOT implemented subsection (b). Section 106 made no 
mention of OSHA.
    <bullet> 1990: First substantive amendments to the HMTA, Pub. L. 
101-615. including revisions to 49 U.S.C. 1805, Section 7 of this 
public law, also titled ``Handling of Hazardous Materials'' repealed 
subsections (b) and (c) of Pub. L. 93-633, retained subsection (a) 
``Criteria,'' with no change, added new subsection (b) ``Training 
Criteria for Safe Handling and Transportation,'' revised subsection (c) 
``Registration,'' which mandates registration, and added new subsection 
(d) ``Motor Carrier Safety Permits.'' Subsection (b)(3), entitled 
``Coordination of Emergency Response Training Regulations,'' called for 
coordination with OSHA ``under this subsection.'' Subsection (b)(3) 
closed by noting, ``no action taken by the Secretary [of 
Transportation] pursuant to this section'' shall preclude OSHA 
regulation. All legislative history indicates that both italicized 
words were meant to read subsection. In short, this history makes clear 
that the term ``section'' in the second sentence was an error. There is 
absolutely no reference in hearings, floor debate, or summaries of the 
1990 amendments that Congress acted with knowledge to grant OSHA shared 
jurisdiction over the entirety of hazardous materials ``handling'', let 
alone ``motor carrier permits'' and ``hazardous materials 
registration.'' Had the word ``subsection'' been used, only the 
``training'' of hazmat workers would have been open to ``shared'' 
duplicative regulations.
    <bullet> 1994: Congress recodified transportation law. Congress was 
explicit that the recodification should result in no substantive change 
in the law. The recodification of the HMTA split the 1990 version of 
U.S.C. 1805 into 49 U.S.C. Sections 5106 ``Handling criteria,'' 5107 
``Hazmat employee training requirements and grants,'' 5108 
``Registration,'' and 5109 ``Motor carrier safety permits.'' Section 
5107(f)(2) picked up the second reference to OSHA from the former Sec. 
1805(b)(3), but now referenced OSHA regulation with respect to Sections 
5106, 5107(a)-(d), 5108(a)-(g)(1) and (h), and 5109. While the scope of 
the error was now clear, its impact was not.
    <bullet> 1996: Secretary of Labor v. Yellow Freight Systems, Inc. 
OSHRC Docket No. 93-3292, July 31, 1996. The impact of the error was 
first felt when an administrative law judge under the OSHA Review 
Commission, upon reading recodified Subsection 5107(f)(2), concluded 
that virtually no hazardous materials regulation by DOT could be deemed 
an ``exercise'' of jurisdiction over occupational safety and health 
within the meaning of 4(b)(1) of the OSH Act, thereby allowing 
duplicate coverage of the same workplace hazards by both OSHA standards 
and DOT regulations.
    <bullet> 1997: Original DOT proposal to reauthorize the HMTA. The 
1990 Act expired in 1998. The original Administration bill, that passed 
the Senate, corrected the error in Sec. 5107(f)(2) by striking the 
referenced provisions of Sec. Sec. 5106, 5108, and 5109. Subsequently, 
the Administration, bowing to pressure from DOL/OSHA/Labor, tried to 
amend the Senate-passed bill to retain the error. The legislation died 
at the end of the 105th Congress.
    <bullet> 2001: DOT proposes a different approach to resolve the 
jurisdictional overlap created by the error in Sec. 5107 by 
acknowledging that in addition to training, OSHA shares jurisdiction 
over hazmat employees that engage in emergency response. While this 
approach does not ``correct'' the error, it narrows OSHA's virtually 
unrestrained ``handling'' authority, to a defined area of ``emergency 
response.'' DOT and DOL endorsed this compromise. Industry was willing 
to accept it as a way to move beyond this issue and to fully address 
HMTA reauthorization. The legislation died at the end of the 107th 
Congress.
    <bullet> 2003: In the context of TEA-21 reauthorization, Congress 
included provisions to reauthorize the HMTA although the Administration 
had not submitted a reauthorization proposal. DOT's position on the 
reauthorization was to support the compromise presented in 2001. In the 
meantime, DOT has issued a final rule, HM-223 ``Applicability of the 
Hazardous Materials Regulations.'' HM-223 was intended to clarify the 
regulatory jurisdiction of various federal agencies with respect to 
DOT. The rule addresses the ``typographical'' error by stating that DOT 
was choosing not to regulate in areas that OSHA had regulated 
irrespective of whether there was language in the law or not. In short, 
the section 4(b)(1) preemption is never triggered. It remains to be 
seen how OSHA authorized states may take advantage of the shared 
jurisdiction authority to impose requirements that are different or 
additional to federal requirements frustrating national and 
international regulatory uniformity and undermining hazardous materials 
transportation safety and security. Neither the Senate nor the House 
have held hearings to allow these facts to come forward or to receive 
testimony on the nearly dozen other new issues that have arisen over 
HMTA reauthorization in this Congress.
    <bullet> 2004: DOT issues the Administration's views on the TEA-21 
reauthorization bill specifically addressing the ``long-standing 
error'' in Sec. 5107. The Administration's position continues to 
support the compromise articulated in 2001. The House passes 
legislation, H.R. 3550, that partially addresses the 1990 error. The 
legislation dies at the end of the 108th Congress.
    <bullet> 2005: As TEA-21 reauthorization gets underway in the 109th 
Congress, DOT declines to submit revised reauthorization proposals 
citing concern that new proposals would duly delay congressional 
action. DOT maintains that its position on the error is the compromise 
articulated in 2001. The House passes legislation, H.R. 3, that 
partially addresses the 1990 error.
                                 ______
                                 
                         Corporate Transportation Coalition
                                           Bowie, MD, April 4, 2005
Hon. Ted Stevens,
Chairman;
Hon. Daniel K. Inouye,
Co-Chairman; and
Hon. Trent Lott, Chairman of the Senate Subcommittee on Surface 
Transportation and Merchant Marine,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Chairman Stevens, Co-Chairman Inouye and Chairman Lott:

    On behalf of the Corporate Transportation Coalition (CTC), I am 
writing to express our views on several issues before the Committee and 
the Subcommittee as you address reauthorization of federal motor 
carrier programs.
    The Corporate Transportation Coalition is an alliance of 
associations and companies representing the transportation interests of 
the food, manufacturing, distribution, construction, retail, and 
service industries. CTC's members utilize truck fleets and drivers as 
an integral part of their business operations. Collectively, CTC 
members' companies employ tens of thousands of drivers and operate 
commercial vehicles in a wide range of operations. These encompass 
virtually every type of fleet and vehicles of every size.
Driver Hours of Service
    Since January 2004, the rules under which interstate motor carriers 
operate permit 11 hours of driving time within a 14-hour period from 
the time a driver begins work, after the driver has been off-duty for a 
period of at least 10 consecutive hours. Unlike the ``old'' rules, 
however, taking off-duty time during the course of the day does not 
extend the daily tour of duty period. In other words, under the current 
rules, a driver may not drive after the 14th hour from clocking in, 
until he or she has had at least 10 consecutive hours off-duty. It does 
not matter how much off-duty time may have been taken during the course 
of the 14-hour period.
    We believe this inflexible 14 hour tour of duty has a detrimental 
effect on highway safety and drivers' health and wellbeing in that it 
provides a disincentive for drivers to take lunch and other needed rest 
breaks during the course of their workday. The 14-hour rule also has 
the unintended consequence of increasing the number of driver layovers, 
meaning that drivers more frequently sleep away from home. Studies 
cited by the Federal Motor Carrier Safety Administration suggest that 
drivers who return home every day experience fewer fatigue related 
serious crashes than those who sleep on the road.
    In addition, the reduction in operational flexibility occasioned by 
the consecutive 14-hour rule has resulted in some companies being 
forced to hire additional drivers. Again, based on data cited by the 
agency, this would appear to have the effect of increasing rather than 
reducing crashes, due both to the increase in inexperienced new drivers 
and additional trucks on the highways.
    The 14-hour rule also has productivity and cost impacts. Many CTC 
companies engage in short-haul operations. It is interesting, to say 
the least, that FMCSA's own research associates driver fatigue problems 
with the long-haul operation of tractor-trailers. Yet the cost burden 
of the consecutive 14-hour rule falls not on these higher-risk 
operators, but on short-haul fleets, for whom no significant risk has 
been identified.
    Moreover, unlike some other segments of the ``trucking industry'', 
most CTC companies derive little or no offsetting economic benefit from 
the additional hour of driving time provided in the new rules. The 
increase in allowable driving time from 10 to 11 hours generally 
provides an economic benefit to long-haul carriers only. There is no 
corresponding offset for short-haul operations in which drivers spend 
considerable time in non-driving tasks.
    For these reasons, CTC urges the Committee to seek to amend the 
consecutive 14-hour rule to permit a driver to ``extend'' his or her 
14-hour tour of duty by up to two hours by taking off-duty rest breaks 
during the course of the workday.
Fuel Surcharges
    Section 4139 of H.R. 3 as passed by the House on March 10 would 
require that shippers, carriers and intermediaries pay fuel surcharges 
to the motor carriers they use. Purchasers of transportation services 
would be required to utilize a minimum fuel surcharge standard 
established in law.
    CTC believes Section 4139 represents government intervention into 
motor carrier pricing not seen since the days of comprehensive economic 
regulation of trucking under the old Interstate Commerce Commission. 
The provision would, in effect, impose price setting, and control over 
private contracting, through congressional edict.
    Moreover, Congress previously eliminated tariffs and undercharge 
claims based on those tariffs, yet Section 4139 establishes a similar 
legal trap for shippers, carriers and brokers. The surcharges would be 
based on a complicated formula for determining fuel costs and mileage 
for each shipment, and would vary depending on where the freight is 
tendered.
    This opens up nearly unlimited opportunities for lawsuits alleging 
underpayment of surcharges.
    Section 4139 repudiates 25 years of motor carrier deregulation and 
the need to limit frivolous lawsuits.
    We urge the Committee to work toward passage of a highway bill that 
supports private enterprise and the free market and rejects government 
regulation of prices and interference in private contracting.
Single State Registration System
    The Single State Registration System (SSRS) is a means by which 38 
participating states collect fees, ostensibly for ``registration of 
insurance'' from for-hire motor carriers. This program, which is a 
holdover from the days of intrusive economic regulation under the 
Interstate Commerce Commission, has long since ceased to serve any 
public policy purpose and has become merely a means for states to 
collect fees. The program should be repealed. Moreover, it should not 
be replaced with any system requiring motor carriers to file proof of 
financial responsibility with any state or pay fees in connection with 
such filings.
    In particular, CTC is opposed to any ``replacement system'' that 
would include private motor carriers, or require private motor carriers 
to file proof of financial responsibility in any state or with the 
federal government, or pay any fee in connection with such filings.
    Such a provision, were it to become law, would amount to 
significant new tax and regulatory burden on private carriers, many of 
which are small businesses. We would further note that Congress has 
conducted no hearings or debate on proposals to replace the SSRS with a 
system that would extend these tax and regulatory burdens to private 
carriers or others.
    Thank you for this opportunity to express our views on these issues 
before the Committee.
    We request that this letter be included in the record of the 
hearing titled ``Highway, Motor Carrier, and Hazardous Materials 
Transportation Safety, and Transportation of Household Goods'' before 
the Subcommittee on Surface Transportation and Merchant Marine, April 
5, 2005.
        Sincerely,
                                            Earl Eisenhart,
                                                 Executive Director
Signatories
    Air Conditioning Contractors of America
    American Bakers Association
    American Beverage Association
    American Frozen Food Institute
    Food Marketing Institute
    Grocery Manufacturers Association
    Independent Bakers Association
    International Foodservice Distributors Association
    National Association of Wholesaler-Distributors
    National Beer Wholesalers Association
    National Potato Council
    National Ready Mixed Concrete Association
    National Retail Federation
    Retail Industry Leaders Association
    Snack Food Association
                                 ______
                                 
                                                      April 5, 2005
Hon. Ted Stevens,
Chairman,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Senator Stevens:

    We would like to extend our congratulations to you on becoming 
Chair of the Senate Commerce, Science and Transportation Committee. As 
leaders of public health, safety, and child advocacy groups, and 
medical organizations, we look forward to working with you on 
legislative initiatives in the 109th Congress to address the personal 
and financial losses resulting from motor vehicle crashes. Annually, 
nearly 43,000 people are killed and 3 million more are injured 
nationwide at a cost of more than $230 Billion. Motor vehicle crashes 
continue to be the leading cause of death for children, teens and 
adults up to age 33 as well as traumatic brain injury resulting in 
death or permanent disability for thousands of Americans each year. A 
study by the Alaska Injury Prevention Center showed that more than 
39,000 Alaska residents, on average, are involved in motor vehicle 
crashes each year.
    The Senate Commerce Science and Transportation Committee has a 
long, successful history of initiating and passing bi-partisan 
legislation that has saved thousands of lives, prevented millions of 
injuries and avoided the loss of billions of dollars in health care and 
economic costs due to highway crashes. Last year, Republican and 
Democratic Members of this Committee supported enactment of 
comprehensive highway and auto safety legislation that was included as 
Title IV of S. 1072, the Safe, Accountable, Flexible, and Efficient 
Transportation Act of 2003 (SAFETEA). In fact, it was largely the 
important work of the Senate Commerce, Science and Transportation 
Committee that put the ``safety'' into the SAFETEA legislation.
    This common sense, life-saving legislation directed the U.S. 
Department of Transportation to move forward on long-overdue or delayed 
safety standards and programs to improve passenger car and truck 
safety, address impaired driving, protect children, and encourage seat 
belt use. The safety provisions in S. 1072 were the result of a 
lengthy, bipartisan process that included Committee hearings and input 
from all interested parties. Furthermore, 44 Republican and Democratic 
Senators sent a letter on September 13, 2004 to the Senate conferees 
endorsing adoption of Title IV of S. 1072.
    These safety measures have been under consideration by the U.S. DOT 
for years and in some cases decades, but have not been implemented. 
Title IV of S. 1072 set goals for government action over the next few 
years and gave safety agencies maximum flexibility in developing safety 
standards and other life-saving programs.
    The failure to enact Title IV in the last Congress was a major 
setback to highway and auto safety. We urge you, as the new leader of 
the Senate Commerce, Science and Transportation Committee, to reprise 
the safety provisions in Title IV of S. 1072 adopted by the Senate in 
the last Congress and to make enactment a top priority as part of the 
surface transportation reauthorization legislation.
    On behalf of our organizations, we look forward to working with you 
to advance highway and auto safety legislation in the coming months 
that will protect our families, reduce the devastating human and 
financial toll of highway crashes, and make our roads and highways 
safer to travel. Your leadership and support for enacting the same 
safety provisions in Title IV of S. 1072 will have a profound effect on 
the health and safety of our nation's children, teens and adults for 
years to come.
        Sincerely,

          Jacqueline Gillan, Vice President, Advocates for Highway and 
        Auto Safety

           Georges C. Benjamin, MD, FACP, Executive Director, American 
        Public Health Association

          Carol Berkowitz, MD, FAAP, President, American Academy of 
        Pediatrics

          Joan Claybrook, President, Public Citizen

          Howard R. Champion, MD, President, Coalition for American 
        Trauma Care

          Jack Gillis, Director of Public Affairs, Consumer Federation 
        of America

          Robert DeMichelis II, Legislative Liaison, Brain Injury 
        Association of America

          Stephen W. Hargarten, MD, MPH, American College of Emergency 
        Physicians

          Sally Greenberg, Senior Product Safety Counsel, Consumers 
        Union

          Janette E. Fennell, Founder, KIDS AND CARS

          Andrew McGuire, Executive Director, Trauma Foundation

          Mary Jagim, RN BSN, CEN, Emergency Nurses Association

          Clarence M. Ditlow, Executive Director, Center for Auto 
        Safety

          Rosemary Shahan, Founder, Consumers for Auto Reliability and 
        Safety

          Ralf Hotchkiss, Technical Consultant, Whirlwind Wheelchair 
        International

          Anne Canby, President, Surface Transportation Policy Project

          William Speedy Bailey, Keiko Injury Prevention Coalition, 
        Safe Kids Hawaii

          Jim Sellers, Executive Director, Akeela, Inc., Anchorage, 
        Alaska

          Britt E. Gates, Co-Founder/Chair, The Zoie Foundation
                                 ______
                                 

   Advocates for Highway and Auto Safety (April 2005) List of 41 U.S.
  Senators Support for Including Motor Vehicle Safety Provisions in the
   Safe, Accountable, Flexible and Efficient Transportation Equity Act
                                (SAFETEA)
                                      ..................................
Joseph R. Biden, Jr. (D-DE)           Edward M. Kennedy (D-MA)
Jeff Bingaman (D-NM)                  Herb Kohl (D-WI)
Barbara Boxer (D-CA)                  Mary L. Landrieu (D-LA)
Sam Brownback (R-KS)                  Frank R. Lautenberg (D-NJ)
Maria Cantwell (D-WA)                 Patrick J. Leahy (D-VT)
Thomas R. Carper (D-DE)               Joseph I. Lieberman (D-CT)
Lincoln Chafee (R-RI)                 Richard G. Lugar (R-IN)
Hillary Rodham Clinton (D-NY)         Barbara A. Mikulski (D-MD)
Norm Coleman (R-MN)                   Patty Murray (D-WA)
Susan M. Collins (R-ME)               Bill Nelson (D-FL)
Jon S. Corzine (D-NJ)                 Mark L. Pryor (D-AR)
Mark Dayton (D-MN)                    Jack Reed (D-RI)
Mike DeWine (R-OH)                    John D. Rockefeller IV (D-WV)
Christopher J. Dodd (D-CT)            Paul S. Sarbanes (D-MD)
Elizabeth Dole (R-NC)                 Charles E. Schumer (D-NY)
Byron L. Dorgan (D-ND)                Olympia J. Snowe (R-ME)
Richard Durbin (D-IL)                 Arlen Specter (R-PA)
Russell D. Feingold (D-WI)            George V. Voinovich (R-OH)
Dianne Feinstein (D-CA)               John Warner (R-VA)
Tom Harkin (D-IA)                     Ron Wyden (D-OR)
Tim Johnson (D-SD)


                                 ______
                                 
  Response to Written Questions Submitted by Hon. Frank Lautenberg to 
                         Hon. Annette Sandberg

    Question 1. Did your agency contribute to the Department of 
Transportation's (DOT) 2004 Report on ``the Western Uniformity Scenario 
Analysis?'' Do you agree with the findings?
    Answer. The Federal Motor Carrier Safety Administration (FMCSA) 
contributed information used in Chapter VII of the Western Uniformity 
Scenario Analysis, entitled ``Safety.''
    The Executive Summary to the report states in part, ``the 
Department believes that an appropriate balance has been struck on 
truck size and weight. . . . The Department does not support [a] 
piecemeal approach to truck size and weight policy. . . . A regional 
approach such as the Western Uniformity Scenario could have greater 
benefits than a series of individual exemptions, but it also could have 
much more serious adverse consequences unless closely monitored. Unless 
there were very strong support from state elected officials for a 
carefully controlled and monitored evaluation of changes in truck size 
and weight limits such as those in the Western Uniformity Scenario, the 
risks of adverse impacts from the unmonitored use of LCVs, the 
divisiveness that might ensue as the current balance in truck size and 
weight policy is upset, and the further polarization of this very 
contentious issue would outweigh the benefits that might be realized. 
Strong support from elected officials of states within the region for a 
change in truck size and weight limits has not been evident to date, 
and there is no compelling federal interest in promoting changes that 
are not strongly supported by the affected states.'' FMCSA agrees with 
this statement.

    Question 2. Why does the Administration continue to pursue its new 
hours of service rule, when a court has already struck it down and 
called into question the safety basis for the rule? Is it the 
Administration's contention that this rule is the best possible way to 
improve motor carrier driver fatigue?
    Answer. The United States Court of Appeals for the District of 
Columbia Circuit vacated the 2003 Hours of Service (HOS) rule on 
procedural grounds, directing FMCSA to more specifically address the 
effects on driver health. FMCSA is complying fully with the court's 
decision and has established a dedicated agency team to reexamine the 
2003 rule in order to address the court's conclusion. As you know, 
Congress (in the Surface Transportation Extension Act of 2004, Part V), 
provided that the 2003 rule will remain in place until September 30, 
2005, or the effective date of a new final rule addressing the issues 
raised by the court, whichever is earlier.
    On January 24, 2005, FMCSA published a Notice of Proposed 
Rulemaking announcing that it is reviewing and reconsidering the 2003 
rule, and requesting public comment on what changes, if any, to the 
rule are necessary to respond to the concerns raised by the court. The 
deadline for public comments was March 10, 2005, and FMCSA is reviewing 
the comments. FMCSA is committed to issuing a final rule by September 
30, 2005.

    Question 3. In 2003, the Inspector General pointed out serious 
problems with the accuracy and maintenance of safety data collected by 
your agency. When will the agency have these problems permanently 
corrected and when will you post this information again on your 
website?
    Answer. In August 2004, FMCSA restricted public access temporarily 
to the Analysis and Information (A&I) Online SafeStat Module's Accident 
Safety Evaluation Area (SEA) and overall SafeStat score. This action 
was taken because these scores rely on state-provided crash reports 
that are sometimes of inadequate quality because of the timeliness. 
completeness, or accuracy of the data. The Accident SEA and the overall 
SafeStat score will return to the public A&I website when the 
information provided is deemed to be more reliable. It is important to 
note that this data was never intended to be relied upon by the public 
in the manner in which it has been used. The information was designed 
to be one of many tools FMCSA uses to identify potentially high-risk 
carriers.
    In June 2004, FMCSA developed a methodology to evaluate quarterly 
the completeness, timeliness, accuracy, and consistency of state-
reported crash and roadside inspection data. The methodology compares 
the quality of state-reported crash and roadside inspection data to 
standards set by FMCSA. Consisting of five performance measures and one 
overriding performance indicator, the new methodology assigns each 
state and the nation a rating of good, fair, or poor for each measure, 
indicator, and overall rating. For each data quality measure, FMCSA is 
monitoring the evaluation results to determine when to lift the public 
access restriction imposed last year.
    FMCSA's goal is simple. We must ensure that our data is accurate, 
timely, and complete and to that end we are working diligently with our 
state partners to ensure the success of this review.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to
                            Stacey L. Gerard

    Question 1. The Administration has recommended increasing civil 
penalties to up to $100,000 for serious violations of HAZMAT 
regulations in SAFETEA. Can you explain the justification for this 
increase?
    Answer. At present, the maximum civil penalty for a violation of 
Federal hazardous material transportation law or the regulations issued 
there under is $32,500 per violation. The Department considers that an 
increase to $100,000 per violation is warranted to give the Department 
additional flexibility to assess high civil penalties in those unusual 
cases involving significant noncompliance with the law and regulations, 
especially those violations which have the potential to result in 
death, serious injury, or significant property damage (including damage 
to the environment). This increase would make the maximum civil penalty 
for a hazardous material violation consistent with DOT's civil penalty 
for violations of federal pipeline safety law, which contains a 
$100,000 civil penalty provision.

    Question 2. Has your agency and the Department of Homeland Security 
established an annex to the DHS-DOT Memorandum of Understanding (MOU) 
characterizing the agencies' working relationship for HAZMAT security?
    Answer. On September 28, 2004, the Department of Homeland Security 
(DHS) and the Department of Transportation (DOT) signed an annex to the 
DHS-DOT MOU implementing Homeland Security Council (HSC) 
recommendations on the transportation of toxic inhalation hazard (TIH) 
materials. The purpose of the annex is to delineate clear lines of 
authority and responsibility and to specify the commitments to carry 
out various aspect of the HSC's plan for enhancing the security of TIH 
shipments by rail. Within DOT, the agencies with primary responsibility 
for carrying out the annex are the Pipeline and Hazardous Materials 
Safety Administration (PHMSA); the Office of Intelligence, Security, 
and Emergency Response; and the Federal Railroad Administration. The 
annex is considered Sensitive Security Information. A more general 
annex between DHS and DOT addressing broader aspects of hazardous 
materials transportation may be considered after we gain experience 
working with the TIH annex.

    Question 3. Has your agency been reviewing HAZMAT security plans or 
taken any enforcement action against any HAZMAT shipper or carriers for 
insufficient plans?
    Answer. The Research and Special Programs Administration (RSPA) 
and, since February 20, 2005, the Pipeline and Hazardous Materials 
Safety Administration (PHMSA) began monitoring for compliance with the 
security requirements in Title 49, Code of Federal Regulations, 
Sec. 172.800 et seq., on October 1, 2003. The requirements became final 
on March 25, 2003 with permissive compliance until September 25, 2003, 
when compliance became mandatory. The regulations require entities 
meeting the applicability provisions in Sec. 172.800(b) to have a 
written security plan, including a written risk assessment. The plan 
must cover the areas of personnel security, unauthorized access, and en 
route security. Entities are also required to provide awareness and in-
depth security training.
    Since the regulations were new, RSPA/PHMSA decided to allow a 
period of time for entities to gear up for compliance. For inspections 
conducted from October 1, 2003 through June 30, 2004, inspectors 
reviewed the steps taken, if any, to comply with the security 
regulations, documented and discussed non-compliance, but did not 
recommend that any enforcement action be taken. During this time 
period, the inspectors conducted 1,241 inspections, of which 748 (60.3 
percent) required a security plan to be in place. The inspectors 
determined that only 320 entities (43 percent) were in full compliance.
    On July 1, 2004, RSPA/PHMSA inspectors began enforcing the 
requirements to have a security plan. Through April 8, 2005, the 
inspectors have conducted 1,290 inspections. The total number requiring 
a security plan was 749 (58 percent). The inspectors determined that 
423 (56.5 percent) were in full compliance. This represents an increase 
in compliance of 13.5 percent.
    From July 1, 2004 through April 8, 2005, RSPA/PHMSA has initiated 
129 civil penalty cases that include at least one violation for failure 
to develop and adhere to a security plan, and 54 ticket penalty actions 
for lesser violations involving security training or incomplete 
security plans.
    To our knowledge, all the modes with hazmat responsibility are 
currently enforcing the HAZMAT security plan requirements.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Ted Stevens to
                         Hon. Jeffrey W. Runge

Roof Crush
    Question 1. NHTSA's ``Vehicle Safety Rulemaking Priorities and 
Supporting Research: 2003-2006'' indicated publication of a Notice of 
Proposed Rulemaking to upgrade FMVSS No. 216, ``Roof crush,'' in 2004. 
Why has the schedule slipped considering the importance of upgrading 
FMVSS No. 216?
    Answer. As the agency was developing a proposal to upgrade the 
standard, we decided it was important to consider a range of options 
and tests in order to achieve the most feasible, effective and 
economical solution. Evaluation of additional possible tests required 
further research on our part that was not originally scheduled. The 
NPRM was transmitted on April 25, 2005 to OMB for review. NHTSA expects 
to publish the NPRM in Summer 2005.

    Question 2. Also. why is NHTSA working to improve this standard in 
light of recent agency statements that the new standard would only save 
about 40 lives each year?
    Answer. A proposal to upgrade roof crush resistance is one part of 
a comprehensive agency plan for reducing the serious risk of rollover 
crashes and the risk of death and serious injury when rollover crashes 
do occur. All countermeasures must work together to help create a 
driving environment in which rollovers can be avoided and rollover-
related fatalities and injuries minimized.
    The most effective approach to reduce rollover fatal and serious 
injuries is to prevent rollover crashes, but when rollover crashes do 
occur, roof structural integrity is important to ensure that the other 
safety features, such as ejection mitigation through side curtains, 
strengthened door latches. and restraint systems all work together to 
provide optimal occupant protection.
    We also believe that future NHTSA work to improve restraints in 
rollovers and ejection mitigation will work in tandem with this roof 
crush rulemaking to save more lives.

    Question 3. Why would NHTSA not attempt to implement a more 
effective roof crush standard that saves more lives?
    Answer. The agency believes that its proposal will be a most cost 
effective improvement to roof crush strength. We examined other 
approaches and found that they weren't more effective, presented 
technical barriers, and/or were too costly relative to the benefits. In 
addition, there are other cost-effective countermeasures such as 
ejection mitigation and advanced restraint systems that could prevent 
and reduce even more rollover fatalities and serious injuries.

Vehicle Compatibility
    Question 4. Has NHTSA monitored the Alliance's adherence to the 
Agreement to date?
    Answer. Annual submissions are provided to the agency by 
participating vehicle manufacturers regarding the vehicle make/models 
that meet their commitments. These submissions have been placed in the 
public docket.

    Question 5. Does NHTSA believe that the Alliance is adhering to the 
terms of the Agreement?
    Answer. The agency has no evidence to indicate that the terms of 
the agreement are not being met.
    For enhanced front-to-side self-protection, the agreement requires 
that by September 1, 2007, at least 50 percent of the participating 
manufacturers' production will provide improved head protection.
    For front-to-front crashes, the agreement requires that by 
September 1, 2009, 100 percent of the participating manufacturers' 
light truck production will have geometric alignment.

    Question 6. Has the Agreement had the effect of slowing down or 
stopping NHTSA's rulemaking efforts in the area of crash compatibility?
    Answer. No. industry's voluntary agreement has had no effect on 
NHTSA's rulemaking and research in this area.
    NHTSA published an upgrade to FMVSS No. 214 ``Side impact 
protection,'' as a first initiative in its approach to compatibility, 
and plans to have a final rule published in 2006.
    The agency is continuing research to establish quantifiable, 
partner protection compatibility metrics for the vehicle front-
structure and the potential associated benefits.

    Question 7. If implemented as described, will the Agreement result 
in significant reduction in the number of lives lost in motor vehicle 
accidents?
    Answer. Yes. NHTSA estimates that 700 to 1,000 lives will be saved 
each year by the agency's upgrade to FMVSS No. 214. While industry's 
voluntary agreement is not as extensive as the proposed upgrade to 
FMVSS No. 214. it is an important first step that will incorporate some 
of the same life-saving countermeasures into the vehicle fleet on a 
shorter schedule than the mandatory changes to Standard No. 214.
    For front-to-front compatibility, agency research has not yet 
progressed to a stage that potential benefit estimates for various 
countermeasures can be established.

Ejection Mitigation
    Question 8. Why does NHTSA assert that the upgrade of FMVSS No. 214 
is part of its plan to address passenger ejections when, in fact, side 
air bags that will be installed to comply with the upgrade will not be 
required to deploy during rollovers?
    Answer. The upgrade of FMVSS No. 214 is the first phase of NHTSA's 
three-phase plan to address passenger ejections. The first phase is 
expected to result in the installation of side curtain air bags in most 
light vehicles. The second phase would provide containment requirements 
for those side curtain air bags to mitigate ejections, and provide 
protection for all occupants, particularly for partial ejections of 
belted occupants. A third phase would establish performance 
requirements for the rollover sensors.
    Also, it is important to note that not all ejections are due to 
rollover.

    Question 9. Will the rule upgrade require rear-seat occupant head 
protection? If not, what would prevent rear-seat occupants from being 
ejected in rollovers or from being severely injured in a side-impact 
accident?
    Answer. FMVSS No. 214 will require rear-seat occupant head 
protection, if the final rule is adopted as proposed. Head protection 
will have to be met in the rear seat using two different sized dummies 
representing a 5th percentile female and a 50th percentile male.
    The agency is currently conducting research for rear-seat ejection 
mitigation containment requirements.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Frank R. Lautenberg to
                         Hon. Jeffrey W. Runge

    Question 1. How important is it to have states enact laws that 
effectively deal with a ``higher-risk'' or ``hard-core'' drunk driver, 
who is a first-time offender with a blood alcohol level of .15 percent, 
almost twice the legal limit?
    Answer. High blood alcohol content (BAC) laws are promising, 
particularly as part of a comprehensive package of state impaired-
driving laws. More than 30 states now have this type of law in place, 
providing increased sanctions for drivers convicted at BAC levels that 
are well above the state's per se impairment level. These laws vary 
considerably according to the specific BAC threshold at which they 
apply and in terms of the severity of the enhanced sanctions. This 
variation, and the fact that most of these laws are relatively recent, 
makes generalization of their impact difficult. However, a NHTSA 
evaluation indicates that high BAC laws can contribute to a strong 
overall state impaired-driving legislative package.

    Question 2. As a doctor, are you familiar with the effects of 
alcohol on people? How can a person drive with a .15 percent blood 
alcohol level and think that they are not a danger to the traveling 
public? Are they likely to become repeat offenders?
    Answer. Yes, I worked in an emergency department for 20 years and 
have seen the results of impaired driving. At the .15 blood alcohol 
content (BAC) level, people typically suffer a loss of muscle control 
and balance, and may become sick and vomit. For drivers, this 
translates to substantial impairment in vehicle control, a reduction in 
necessary visual and auditory information processing, and a loss of 
attention to the driving task.
    In 2003, the median BAC among alcohol-involved drivers who were 
killed in crashes was .16 percent, a level unchanged since 2002. This 
level constitutes serious impairment and it is very likely that a 
person driving at this level has done so on more than one occasion.

                                  <all>

</pre></body></html>
